<html>
<title> - NOMINATIONS OF CHARLES P. BLAHOUS III AND ROBERT D. REISCHAUER</title>
<body><pre>[Senate Hearing 114-648]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-648
 
                 NOMINATIONS OF CHARLES P. BLAHOUS III 
                        AND ROBERT D. REISCHAUER

=======================================================================

                                HEARING

                               before the

                          COMMITTEE ON FINANCE
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                                 on the

                             NOMINATIONS OF

CHARLES P. BLAHOUS III, TO BE A MEMBER OF THE BOARD OF TRUSTEES OF THE 
    FEDERAL HOSPITAL INSURANCE TRUST FUND, A MEMBER OF THE BOARD OF 
TRUSTEES OF THE FEDERAL SUPPLEMENTARY MEDICAL INSURANCE TRUST FUND, AND 
A MEMBER OF THE BOARD OF TRUSTEES OF THE FEDERAL OLD-AGE AND SURVIVORS 
 INSURANCE TRUST FUND AND THE FEDERAL DISABILITY INSURANCE TRUST FUND; 
 AND ROBERT D. REISCHAUER, TO BE A MEMBER OF THE BOARD OF TRUSTEES OF 
  THE FEDERAL HOSPITAL INSURANCE TRUST FUND, A MEMBER OF THE BOARD OF 
TRUSTEES OF THE FEDERAL SUPPLEMENTARY MEDICAL INSURANCE TRUST FUND, AND 
A MEMBER OF THE BOARD OF TRUSTEES OF THE FEDERAL OLD-AGE AND SURVIVORS 
  INSURANCE TRUST FUND AND THE FEDERAL DISABILITY INSURANCE TRUST FUND

                               __________

                              MAY 11, 2016

                               __________

 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                    
                                     

            Printed for the use of the Committee on Finance

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

25-643-PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001












                          COMMITTEE ON FINANCE

                     ORRIN G. HATCH, Utah, Chairman

CHUCK GRASSLEY, Iowa                 RON WYDEN, Oregon
MIKE CRAPO, Idaho                    CHARLES E. SCHUMER, New York
PAT ROBERTS, Kansas                  DEBBIE STABENOW, Michigan
MICHAEL B. ENZI, Wyoming             MARIA CANTWELL, Washington
JOHN CORNYN, Texas                   BILL NELSON, Florida
JOHN THUNE, South Dakota             ROBERT MENENDEZ, New Jersey
RICHARD BURR, North Carolina         THOMAS R. CARPER, Delaware
JOHNNY ISAKSON, Georgia              BENJAMIN L. CARDIN, Maryland
ROB PORTMAN, Ohio                    SHERROD BROWN, Ohio
PATRICK J. TOOMEY, Pennsylvania      MICHAEL F. BENNET, Colorado
DANIEL COATS, Indiana                ROBERT P. CASEY, Jr., Pennsylvania
DEAN HELLER, Nevada                  MARK R. WARNER, Virginia
TIM SCOTT, South Carolina

                     Chris Campbell, Staff Director

              Joshua Sheinkman, Democratic Staff Director

                                  (ii)











                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Coats, Hon. Daniel, a U.S. Senator from Indiana..................     2
Wyden, Hon. Ron, a U.S. Senator from Oregon......................     3

                        ADMINISTRATION NOMINEES

Blahous, Hon. Charles P., III, Ph.D., nominated to be a member of 
  the Board of Trustees of the Federal Hospital Insurance Trust 
  Fund for a term of 4 years, a member of the Board of Trustees 
  of the Federal Supplementary Medical Insurance Trust Fund for a 
  term of 4 years, and a member of the Board of Trustees of the 
  Federal Old-Age and Survivors Insurance Trust Fund and the 
  Federal Disability Insurance Trust Fund for a term of 4 years 
  (reappointments)...............................................     5
Reischauer, Hon. Robert D., Ph.D., nominated to be a member of 
  the Board of Trustees of the Federal Hospital Insurance Trust 
  Fund for a term of 4 years, a member of the Board of Trustees 
  of the Federal Supplementary Medical Insurance Trust Fund for a 
  term of 4 years, and a member of the Board of Trustees of the 
  Federal Old-Age and Survivors Insurance Trust Fund and the 
  Federal Disability Insurance Trust Fund for a term of 4 years 
  (reappointments)...............................................     7

               ALPHABETICAL LISTING AND APPENDIX MATERIAL

Blahous, Hon. Charles P., III, Ph.D.:
    Testimony....................................................     5
    Prepared statement...........................................    27
    Biographical information.....................................    28
    Responses to questions from committee members................    38
Coats, Hon. Daniel:
    Opening statement............................................     2
Hatch, Hon. Orrin G.:
    Prepared statement...........................................    48
Reischauer, Hon. Robert D., Ph.D.:
    Testimony....................................................     7
    Prepared statement...........................................    50
    Biographical information.....................................    51
    Responses to questions from committee members................    62
Wyden, Hon. Ron:
    Opening statement............................................     3
    Prepared statement...........................................    68

                                 (iii)


                 NOMINATIONS OF CHARLES P. BLAHOUS III,
                     TO BE A MEMBER OF THE BOARD OF
                   TRUSTEES OF THE FEDERAL HOSPITAL
                   INSURANCE TRUST FUND, A MEMBER OF
                  THE BOARD OF TRUSTEES OF THE FEDERAL
                         SUPPLEMENTARY MEDICAL
                   INSURANCE TRUST FUND, AND A MEMBER
                    OF THE BOARD OF TRUSTEES OF THE
                     FEDERAL OLD-AGE AND SURVIVORS
                  INSURANCE TRUST FUND AND THE FEDERAL
                  DISABILITY INSURANCE TRUST FUND; AND
                  ROBERT D. REISCHAUER, TO BE A MEMBER
                    OF THE BOARD OF TRUSTEES OF THE
                   FEDERAL HOSPITAL INSURANCE TRUST
                     FUND, A MEMBER OF THE BOARD OF
                        TRUSTEES OF THE FEDERAL
                    SUPPLEMENTARY MEDICAL INSURANCE
                    TRUST FUND, AND A MEMBER OF THE
                    BOARD OF TRUSTEES OF THE FEDERAL
                    OLD-AGE AND SURVIVORS INSURANCE
                       TRUST FUND AND THE FEDERAL
                    DISABILITY INSURANCE TRUST FUND

                              ----------                              


                        WEDNESDAY, MAY 11, 2016

                                       U.S. Senate,
                                      Committee on Finance,
                                                    Washington, DC.
    The hearing was convened, pursuant to notice, at 3:01 p.m., 
in room SD-215, Dirksen Senate Office Building, Hon. Daniel 
Coats presiding.
    Present: Senators Crapo, Thune, Wyden, Schumer, Stabenow, 
Brown, Bennet, and Casey.
    Also present: Republican Staff: Viraj Mirani, Legislative 
Director for Senator Coats; Jeff Wrase, Chief Economist; and 
Nicholas Wyatt, Tax and Nominations Professional Staff Member. 
Democratic Staff: Joshua Sheinkman, Staff Director; Michael 
Evans, General Counsel; Ian Nicholson, Investigator; and Tom 
Klouda, Senior Domestic Policy Advisor.

            OPENING STATEMENT OF HON. DANIEL COATS, 
                  A U.S. SENATOR FROM INDIANA

    Senator Coats. The committee will come to order. I would 
like to welcome everyone to today's hearing to consider pending 
nominations. I am subbing for the chairman. He dug down deep 
into the roster and pulled my name out.
    For a freshman on the Senate Finance Committee chairing the 
Senate Finance Committee, I have made rapid progress which will 
probably end in an hour and a half or so, but I am going to try 
to make the best of it.
    Before us today are Dr. Charles Blahous and Dr. Robert 
Reischauer, who have both been nominated to be members of the 
Boards of Trustees of Social Security and Medicare. By statute, 
these various boards consist of the Secretaries of Treasury, 
Labor, HHS, and the Commissioner of Social Security, along with 
two public trustees.
    Drs. Blahous and Reischauer have been nominated by the 
President to serve once again as public trustees. The public 
trustee positions were created in 1983 based on a 
recommendation from the so-called Greenspan Commission with a 
requirement that one be from each political party. We are not 
even going to ask which one is which. We know you are doing 
bipartisan work for us, and we appreciate it. Since that time, 
there have been five sets of confirmed public trustees, with 
Drs. Blahous and Reischauer having been the last set to have 
served.
    The trustees have various duties, including a 
responsibility to review general policies relating to the 
management of the trust funds and to report to Congress each 
year on the operation of the trust funds and their current and 
projected status.
    As the trustees go through the process of developing and 
releasing a report each year, there are many inputs and many 
participants. For example, the Social Security Administration 
and its Office of the Chief Actuary, in particular, play the 
key role in developing assumptions, analytics, and analyses 
that often end up shaping the information that is provided in 
the reports.
    In addition, we have had numerous technical panels composed 
of actuaries, economists, demographers, and others who review 
the assumptions and methods used in the trustees' reports. This 
is something that often is overlooked. Since 1999, 50 people 
have served on these technical panels, weighing in on the 
Social Security trustee reports and providing both fresh and 
objective eyes on the development of the trustees' reports as 
well as a much-needed check on what could otherwise be an 
outsize role of the Social Security Administration in guiding 
the contents of the reports.
    In recent months, some have questioned whether having 
public trustees serve more than one term is beneficial. Others 
have noted the benefits of having continuity in these 
positions, given the many intricacies related to their various 
Social Security programs and the management of the trust funds, 
not to mention the process through which the trustees' reports 
are compiled and issued.
    Obviously, the President has confidence and faith in his 
two nominees, and this is why you are here. The trustees play a 
vital role in overseeing the Social Security and Medicare trust 
funds, and I believe we should welcome nominees with experience 
of the trust funds who will be able to execute their respective 
duties on day one.
    The trustees also provide important information used by 
policymakers. For example, the most recent Social Security and 
Medicare trustees' report highlighted the urgency of addressing 
our Nation's long-term fiscal challenges. As they have 
repeatedly pointed out, if we are to save Social Security and 
Medicare and ensure they are available for future generations, 
we must make common-sense reforms to the programs. If we fail 
to act, both programs will become insolvent within about 18 
years, likely affecting those at and near retirement.
    These programs consume more and more of Federal revenues 
each year, which squeezes out funding for every other Federal 
program and agency. This year alone, Social Security and 
Medicare are expected to consume 46 percent of all Federal 
revenues. By 2026, they will consume about 58 percent of all 
revenues. Obviously, this is not sustainable.
    Further, the combination of retiring baby boomers, longer 
life expectancies, and fewer workers to financially support 
each retiree, will make it increasingly difficult to sustain 
these programs.
    Again, as the trustees have repeatedly told us, the longer 
some try to pretend that Social Security and Medicare are not 
quickly headed towards insolvency, the more painful the reforms 
will need to be. I believe it is our responsibility to take the 
necessary steps to save Medicare and Social Security rather 
than force some of the most vulnerable Americans to suffer the 
consequences of our inaction.
    Today we have before us two highly qualified nominees who 
were confirmed to these very same positions by the full 
Democratic-
controlled Senate in 2010 without any opposition. They have now 
been resubmitted by a Democratic President to the Republican-
controlled Senate that so far appears ready and willing to 
consider their confirmation once again.
    With that, I want to once again welcome the nominees to the 
committee today and thank them for their willingness to 
continue serving in this important capacity. I will now turn to 
Ranking Member Wyden for any opening remarks that he would like 
to make.

             OPENING STATEMENT OF HON. RON WYDEN, 
                   A U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you very much, Mr. Chairman. This 
afternoon, the Finance Committee is going to discuss the 
renominations of the public trustees for the Medicare and 
Social Security trust funds. Now that sounds like a real 
mouthful, but for me this issue goes back to the days when I 
was co-director of the Oregon Gray Panthers and the Medicare 
guarantee was sacrosanct and the promise of Social Security was 
a godsend for millions of older people.
    Recent years have presented dramatic new challenges for 
Social Security and Medicare. Today millions of single elderly 
women have to walk an economic tightrope each month, balancing 
the cost of food, health care, and covering the rest of the 
bills. These impoverished, single elderly women count on Social 
Security every single month to keep their heads above water.
    So we are going to be talking about positions with big 
titles, and we are going to be throwing around a lot of 
concepts about government and trustees and the like, but for me 
what undergirds this debate is the challenge of making sure 
that millions of impoverished elderly women are not, in effect, 
going to be destitute and without options to care for 
themselves.
    Medicare in 2016 is very different than the Medicare of 
1965. It is surely different than the Medicare we dealt with 
when I ran the legal aid office for older people and was co-
director of the Oregon Gray Panthers. Back then, Medicare was 
like when the senior hurt their ankle. If it wasn't a really 
bad injury, they saw their doctor. That was Part B. If it was a 
more serious injury, they went to a hospital. That was Part A. 
That is not Medicare today.
    Medicare today is about cancer, diabetes, heart disease, 
strokes. When you put Alzheimer's into the debate--which 
Senator Stabenow has done so much to work to strengthen--that 
is the whole ballgame. That's it, folks. Medicare in 2016 is 
completely different from Medicare in 1965.
    So our challenge, in my view, is to protect these special 
programs: the Medicare guarantee, Social Security--a godsend 
more needed than ever before, with new trends such as the 
impoverishment of so many older women. We need to protect these 
special programs and update them for the times.
    That is why, in my view, business as usual with respect to 
these positions is not good enough. By the way, as part of this 
debate that we are going to have, some of what I think is going 
to be considered is not exactly a wild idea. The Finance 
Committee, for example, has had a 30-year history of not 
reappointing anyone to these positions.
    Now, every year a big book comes out that looks into the 
future of Medicare and Social Security, and the public trustees 
play an important part in that process. It is a tough job. They 
are trying to periscope the future for what is going to affect 
millions of vulnerable and older Americans and what those 
individuals are going to need decades down the road.
    In my view, it is pretty clear that this task requires--and 
the Finance Committee has made that a tradition--fresh 
perspectives in advisory roles like these.
    I will close by simply saying this: what undergirds these 
jobs, these trustee positions, is not just charts and figures 
and graphs and black print on white paper. It is really about 
something more than that. It is about ensuring that the 
material in those charts and graphs reflects our values and our 
priorities, particularly as it relates to these special 
programs.
    With that in mind, I look forward to listening carefully to 
what our colleagues and the nominees have to say. Bob 
Reischauer has been giving good advice on these issues for 
decades, and I look forward to hearing from our nominees and 
our colleagues.
    Thank you, Mr. Chairman.
    Senator Coats. Thank you, Senator.
    [The prepared statement of Senator Wyden appears in the 
appendix.]
    Senator Coats. I have some obligatory questions I have to 
go through, but first I want to do the introductions of our two 
nominees.
    Dr. Charles Blahous is a current trustee for Social 
Security and Medicare, Director of the Spending and Budget 
Initiative, and a senior research fellow at the Mercatus Center 
at George Mason University, where he specializes in economic 
policy and retirement security with an emphasis on Social 
Security and other Federal entitlement programs.
    He was formerly the Deputy Director of the National 
Economic Council under President George H.W. Bush and Executive 
Director of the President's Commission to Strengthen Social 
Security.
    Dr. Blahous has a Ph.D. in quantum chemistry from the 
University of California at Berkley and a bachelor's degree 
from Princeton University.
    Welcome, Dr. Blahous. If you would like to take a moment to 
introduce any family members who have accompanied you here 
today and proceed with your opening statement, we would be 
happy to have you do that.

 STATEMENT OF HON. CHARLES P. BLAHOUS III, Ph.D., NOMINATED TO 
 BE A MEMBER OF THE BOARD OF TRUSTEES OF THE FEDERAL HOSPITAL 
  INSURANCE TRUST FUND FOR A TERM OF 4 YEARS, A MEMBER OF THE 
    BOARD OF TRUSTEES OF THE FEDERAL SUPPLEMENTARY MEDICAL 
INSURANCE TRUST FUND FOR A TERM OF 4 YEARS, AND A MEMBER OF THE 
    BOARD OF TRUSTEES OF THE FEDERAL OLD-AGE AND SURVIVORS 
INSURANCE TRUST FUND AND THE FEDERAL DISABILITY INSURANCE TRUST 
          FUND FOR A TERM OF 4 YEARS (REAPPOINTMENTS)

    Dr. Blahous. Thank you very much, Senator Coats, and thank 
you as well, Ranking Member Wyden, and thanks to all of the 
members of the committee. It is a great honor to be nominated 
to serve again as one of the two public trustees for Social 
Security and Medicare.
    Before I begin with the substantive portion of my remarks, 
some thanks are in order.
    First, I would like to thank President Obama for the honor 
of placing my nomination before the Senate. I would also like 
to thank Senate Majority Leader McConnell for the trust he 
placed in me by putting my name forward for this important 
position.
    I would like to thank my wife Jill and my daughter Juliana. 
Unfortunately, my family could not be here today, but I want to 
thank them nevertheless and express my appreciation for their 
constant support and their many sacrifices for my career in 
public service. I have been very blessed to have my family's 
encouragement and counsel with each new challenge.
    Particular thanks are due to the members of this committee, 
to the United States Senate as a whole, and to the members of 
the U.S. House of Representatives. I am deeply appreciative of 
the unfailing courtesy with which I personally have been 
treated by members of Congress in both chambers, on both sides 
of the aisle, as well as by their staffs.
    My appreciation, however, is based not primarily on these 
personal considerations, but on Congress's general comportment 
with respect to the trustees' process as established under the 
Social Security Act.
    Social Security and Medicare are perhaps the most important 
domestic programs the Federal Government has ever established. 
Their financial soundness, as has been noted here, is central 
to the economic security of millions of Americans today and in 
the future. The Social Security and Medicare trustees play an 
indispensable role in equipping the Congress and the 
administration with the information required to enable these 
vital programs to function as desired.
    It has been very gratifying to witness as a trustee the 
respect with which members of Congress treat the trustees' 
reporting process. At a time when confidence in so many public 
institutions is under siege, lawmakers have recognized the 
importance of Americans being served by credible, which is not 
to say infallible, projections for the futures of Social 
Security and Medicare.
    Some of the most satisfying moments of trustee work come 
when testifying before Congress and a member on one side of the 
aisle cites data from the trustees' report to support a 
particular policy viewpoint, after which another member on the 
other side uses data from the same report to support a 
different policy viewpoint. This is only possible because 
members on both sides safeguard the integrity of the trustees' 
work, and I am as grateful for this dynamic as I am for any 
kindness extended to me personally.
    The public trustees' positions were established in the 
comprehensive Social Security reforms of 1983 to maintain 
public confidence in the management of the trust funds and to 
ensure that program finances were persistently reviewed by 
bipartisan outside observers.
    While forecasting is an imperfect science, my experience as 
a trustee is that the work is conducted according to the 
highest principles and standards of public service. While only 
time will attest to the accuracy of the projections, it is not 
too soon to vouch for the integrity of the process by which 
they are made.
    Each year, the trustees make assumptions about trends in 
fertility, longevity, worker productivity, price inflation--
specifically in the case of Medicare, health-care cost 
inflation--immigration, real wage growth, labor force 
participation, and other relevant variables, both in the short 
term and in the long term. Public confidence in the trustees' 
projections rests in large part on whether these assumptions 
are regarded as reasonable and objective.
    To assist in realizing this ideal, the trustees bring many 
perspectives to bear from both inside and outside our working 
group, including the nonpartisan staff of the offices of the 
Social Security Actuary and CMS Medicare Actuary; technical 
panels periodically convened to assist respectively with Social 
Security and Medicare projections; outside analysts who are 
sometimes brought in, such as those at the Congressional Budget 
Office or elsewhere in academia; and many, many others.
    It has been my experience that participants in the trustees 
process--ranging all the way from the managing trustee, 
Treasury Secretary Jack Lew, to the other cabinet officials, 
HHS Secretary Sylvia Burwell, Labor Secretary Tom Perez, Acting 
Social Security Commissioner Carolyn Colvin, their 
predecessors, and the various staff laboring in the different 
executive branch departments--all conduct themselves with the 
appropriate respect for this important work, a characterization 
that I hope can also be applied to our service as public 
trustees.
    It has been a particular privilege and pleasure to serve 
alongside Dr. Robert Reischauer in this role. I learn not only 
analytical substance from Bob but I also learn from his example 
of constant professionalism.
    If confirmed again to serve as a public trustee, I would 
look forward to contributing to the best of my ability to the 
trustees' process and to maintaining public confidence in these 
vital reviews of Social Security and Medicare program finances.
    Thank you. I would be happy to take any questions.
    Senator Coats. Doctor, thank you.
    [The prepared statement of Dr. Blahous appears in the 
appendix.]
    Senator Coats. We now have Dr. Robert Reischauer, who is 
also currently serving as public trustee of Social Security and 
Medicare.
    In addition, Dr. Reischauer is a distinguished institute 
fellow and president emeritus at the Urban Institute, which he 
led from 2000 to 2012. During much of that time, he was also a 
member of the Medicare Payment Advisory Commission, serving as 
vice chair from 2001 to 2009.
    Before that, he served for 6 years as the Director of the 
Congressional Budget Office, in between two separate stints as 
a senior fellow in the Economic Studies program at the 
Brookings Institute.
    Dr. Reischauer has both a master's degree in international 
affairs and a Ph.D. in economics from Columbia University, as 
well as a bachelor's degree from Harvard University.
    Welcome, Dr. Reischauer. Please take a moment to introduce 
any family members with you here today and then proceed with 
your opening remarks.

STATEMENT OF HON. ROBERT D. REISCHAUER, Ph.D., NOMINATED TO BE 
   A MEMBER OF THE BOARD OF TRUSTEES OF THE FEDERAL HOSPITAL 
  INSURANCE TRUST FUND FOR A TERM OF 4 YEARS, A MEMBER OF THE 
    BOARD OF TRUSTEES OF THE FEDERAL SUPPLEMENTARY MEDICAL 
INSURANCE TRUST FUND FOR A TERM OF 4 YEARS, AND A MEMBER OF THE 
    BOARD OF TRUSTEES OF THE FEDERAL OLD-AGE AND SURVIVORS 
INSURANCE TRUST FUND AND THE FEDERAL DISABILITY INSURANCE TRUST 
          FUND FOR A TERM OF 4 YEARS (REAPPOINTMENTS)

    Dr. Reischauer. Thank you, Senator Coats, Ranking Member 
Wyden, and members of the committee. I appreciate the fact that 
you are willing to consider my qualification for re-nomination 
by the President for the position of public trustee of the 
Social Security and Medicare trust funds.
    Social Security and Medicare are vital components of the 
Nation's social and economic fabric, providing essential 
financial support and access to medical care for millions of 
people with disabilities, the elderly, and families of deceased 
workers. They are two of the Federal Government's largest 
programs. They are also important to the Nation's economy and 
loom large in the Nation's fiscal picture. It is critical that 
the financial and operational integrities of these programs are 
unimpeachable and that the public retains confidence in their 
continuity but understands the challenges that they face in the 
future.
    Like many older Americans, I have a close personal 
relationship with both programs. I receive benefits from them. 
I pay payroll taxes to their several trust funds, and I pay 
premiums for my supplementary medical and prescription drug 
coverage. I am a very satisfied participant and think my 
experience as a beneficiary has provided me with perspectives 
that are valuable for my professional understanding of these 
programs.
    Along with Dr. Blahous, I served as a public trustee from 
October 26, 2010 through July 22, 2015. This was one of the 
most interesting and rewarding assignments that I have had in 
my 46-year career in Washington. It is also one that has given 
me confidence that Congress can establish and the Federal 
Government can operate processes that work and work well.
    As you know, a primary responsibility of the trustees is to 
report to the Congress each year on the past and future 
statuses of the trust funds. The work involved in putting 
together these annual reports is carried out largely by the 
Working Group, which consists of the two public trustees; 
Assistant Secretary-level representatives of the Treasury, 
Health and Human Services, and Labor Departments; and a Deputy 
Commissioner-level representative from the Social Security 
Administration.
    The representatives of these ex-officio trustees are 
supported by extremely able professional staffs. In addition, 
the Social Security and Medicare actuaries play critically 
important roles, providing estimates and analyses, 
methodological guidance, and historical perspective to this 
working group.
    The Working Group deliberations focus on current conditions 
of the trust funds, how and why they may differ from what was 
projected in recent reports, and what those differences might 
imply for future projections. The Working Group carefully 
examines and, if needed, revises the critical demographic, 
economic, and programmatic assumptions that are required to 
generate projections. It also evaluates possible methodological 
and presentational improvements.
    The process is an open one. All of the members can suggest 
topics for the agenda. On occasion, outside experts present 
their perspectives on issues on which the Working Group has not 
reached a consensus.
    Every 4 or so years, the Social Security Advisory Board and 
the Department of Health and Human Services appoint technical 
panels of leading outside experts to review the demographic and 
economic assumptions, and the methodologies and the 
presentation of the trustees' reports. I have attended almost 
all of the meetings of the last two technical panels to listen 
to their deliberation and at times provide some perspective and 
input. Appropriately, the Working Group pays serious attention 
to the recommendations of these panels.
    Early in the year, the Offices of the Actuaries generate 
draft reports that reflect the deliberations of the Working 
Group. They are circulated to the entire group, which subjects 
them to an exhaustive and exhausting comment and revision 
process.
    Reflecting back on the five report cycles I have 
participated in, I am impressed by their quality. The 
discussion is robust and sophisticated. The input of the 
professional staffs of the several departments and the Social 
Security Administration and the Actuaries Offices is uniformly 
excellent. The atmosphere is collegial, and the decisions are 
consensual.
    The deliberations are devoid of partisan or ideological 
bias, as all strive to produce reports that are balanced and 
objective. In my opinion, the Congress and the American people 
are well-served by the existing trustee process.
    When I appeared before this committee in July of 2010, I 
discussed aspects of my professional experience that bore on my 
qualifications to carry out the responsibilities of the public 
trustee position. I will not repeat them today.
    Suffice it to say that the various positions, commissions, 
and boards I have served in and on--most importantly, my 5 
years as a public trustee--have provided me with the technical, 
methodological, and programmatic expertise necessary to fulfill 
the responsibilities of a public trustee, and, if confirmed, I 
will carry them out with the objectivity, seriousness, and 
skill they deserve.
    Thank you.
    Senator Coats. Doctor, thank you.
    [The prepared statement of Dr. Reischauer appears in the 
appendix.]
    Senator Coats. I do have some obligatory questions that all 
nominees have to answer. So if I could, I will read the 
question and ask each of you to give us your ``nay'' or 
``yea.''
    First, is there anything that either of you is aware of in 
your background that might present a conflict of interest with 
the duties of the office to which you have been nominated?
    Dr. Blahous?
    Dr. Blahous. No.
    Senator Coats. Dr. Reischauer?
    Dr. Reischauer. No.
    Senator Coats. Secondly, do you know of any reason, 
personal or otherwise, that would in any way prevent you from 
fully and honorably discharging the responsibilities of the 
office to which you have been nominated?
    Dr. Blahous. No.
    Dr. Reischauer. No.
    Senator Coats. Do you agree without reservation to respond 
to any reasonable summons to appear and testify before any duly 
constituted committee of the Congress if you are confirmed?
    Dr. Blahous. Yes.
    Dr. Reischauer. Yes.
    Senator Coats. And finally, do you commit to provide a 
prompt response in writing to any questions addressed to you by 
any Senator of this committee?
    Dr. Blahous. Yes.
    Dr. Reischauer. Yes.
    Senator Coats. ``Prompt'' is a bit subjective, but I think 
your ``yes'' is sufficient.
    Let me start by asking you some questions, Dr. Blahous. You 
wrote an article last July after the release of the 2015 Annual 
Report of the Social Security and Medicare Board of Trustees. I 
quote here--this was emphasized: ``Social Security finances are 
on an unsustainable trajectory requiring legislated corrections 
as soon as they can be enacted.''
    You went on to note that the costs of Social Security are 
growing far more rapidly than its tax base, largely because the 
beneficiary-to-worker ratio was declining.
    Regarding that article, I am wondering if you could give us 
a little bit more depth in terms of where the trajectory is 
taking us, and can you better quantify ``as soon as can be 
enacted'' and why that would be required?
    Dr. Blahous. In the various trustees' reports, we have 
reiterated various versions of this message over the years, so 
we have done this in the all trustees' messages; we have done 
this in the summary of the reports. Bob and I have done this 
separately in our public trustees messages as well, and it is 
done in the main body of the reports.
    A basic issue that we face is that we have a substantial 
financing gap between the benefits that would be scheduled 
under the program's benefit formulas and the projected incoming 
revenues. One of the points that the trustees have sought to 
emphasize, I think in each report, is that our choices become 
more difficult with each succeeding year of delay.
    Assuming that we want to uphold the principle that we not 
have sudden reductions in benefits for people who are already 
in retirement, then each passing year of inaction means that 
the costs of achieving solvency, sustainable solvency, have to 
be compressed among a smaller and smaller group of cohorts.
    What we have done in each report is, we have tried to 
illustrate some examples of this effect. For example--I do not 
know the figures off the top of my head, but if you were to 
enact a solution today and if you were to do it entirely on the 
cost-containment side and you wanted to leave current retirees 
out of it, you might have to reduce benefits for future 
beneficiaries on the order of 20 percent or so.
    If you waited to the point of trust fund depletion, then 
even if you completely cut off all benefits for new eligibles, 
you would not be able to put the system in balance by that 
measure alone, and it would very dramatically increase the risk 
that people already on the rolls would be harmed by the delay.
    So these and other illustrations that we have put in the 
reports over the years are intended to demonstrate why actions 
should be taken as soon as possible.
    Senator Coats. Dr. Reischauer, would you like to comment on 
that also?
    Dr. Reischauer. There is no disagreement between myself and 
Dr. Blahous or between us and the vast majority of analysts who 
look at this issue. There is a cliff that is coming sometime in 
the early 2030s when the trust fund is exhausted, and, under 
current law, the trust fund has no legal ability to borrow or 
to deficit finance. Adjusting ourselves sooner to boost 
revenues or moderate the growth of benefits will allow the 
adjustments to be more moderate than they would have to be if 
we waited until we went over the cliff.
    What we have tried to do with the trust funds, and what 
members of Congress and others have tried to do, is provide a 
sense of realism about these choices to the American people so 
they will understand what is required to preserve these very, 
very important programs and ensure what Senator Wyden fearfully 
talked about does not occur.
    Senator Coats. Senator Wyden stated that the challenge for 
all of us is to ``protect the essential program. Business as 
usual is not good enough. We need fresh perspectives.''
    Now I know you are dealing, literally, with numbers and 
making an analysis based on factual information and the numbers 
you are presented, but what are the alternatives? What 
alternatives would you recommend to those of us who have to 
make this decision in terms of when and how to address this 
challenge? Do you have any guidance or thoughts for us?
    Both of you have talked about the fact that if you just do 
it on the basis of input versus current output, without any 
changes in that policy, whether it is revenue gained or whether 
it is a balance of other things--what would you suggest to us 
or recommend as a way to move forward that you think would be 
most fair in addressing the challenges that we have but be 
sensitive to the importance of the programs and the value of 
them to so many of our citizens?
    Dr. Blahous. I will try to give you a multi-part answer on 
that if I could.
    There are two parts of the ``when'' question that are 
relevant. One is, when from a purely substantive perspective. 
There the answer is, as soon as humanly possible. Obviously, 
the earlier you act, the greater spreading of any necessary 
changes there can be, the more advance notice there can be to 
people of coming changes.
    Now that is the substantive answer. Obviously, you have to 
take into account considerations that we as trustees do not. 
You know, whether October 2016 is the optimal time for 
legislative action would depend on factors apart from the 
substantive considerations facing Social Security and Medicare.
    So obviously, you as legislators have to balance a number 
of considerations, but from a purely substantive perspective, 
obviously, the earlier the better.
    With respect to the range of options, what we as trustees 
try to do is to lay out the options and quantify them, but not 
enter into the value judgment in the trustees' reports as to 
whether this is best done on the revenue side or the cost-
containment side. What we do is, we present illustrations of 
the magnitudes of the changes that would be required if you 
were to go in each direction and lay out some of the 
considerations, but we in the trustees' reports do not attempt 
to steer legislators one way or the other. That is a subjective 
value judgment that legislators have to make: whether to apply 
more in taxation or whether to constrain the growth of benefit 
costs.
    Dr. Reischauer. But also just to add to that, as trustees, 
we stay completely away from recommendations of specific 
policies and also, even as Chuck has suggested, the division 
between benefit cuts and tax increases. Those are the only two 
components you have; how you mix them is a decision for 
policymakers and politicians, but not for the public trustees 
to enter into at all.
    Senator Coats. I was here in the mid-80s when we made some 
significant policy changes to Social Security. It was a 
bipartisan effort led by President Reagan and the Speaker of 
the House, Tip O'Neill. If you are familiar with those, and I 
suspect you are, would that be a model that we ought to look at 
in terms of how to address it, or was that beneficial then but 
not now?
    Dr. Blahous. Well, I would say procedurally it can be a 
model. It is certainly a model of bipartisan compromise in 
dealing with a Social Security shortfall. Substantively, I 
think the important information we would want legislators to 
have is that we are already at a point where the shortfall we 
are currently facing is much larger than the one they faced in 
1983. That one measured on average about 1.8 percent of the 
program's tax base over the ensuing 75 years. We are already up 
to about 2.7 percent now.
    That ignores the fact that the actuarial methodology has 
changed in certain specific respects between 1983 and today. If 
we still did the actuarial methodology the same way today that 
we did in 1983, the overall shortfall we would be looking at 
now would be roughly twice as large, even relative to the 
program's larger tax base today.
    So, in terms of the amount of difficult choices that 
legislators have to make to put Social Security into long-term 
balance, they are more severe today than they were in 1983 and 
growing more severe with every year of delay. So yes, in some 
respects, 1983 is a model, perhaps a model of bipartisan 
compromise and procedure. We are already looking at more 
difficult choices today, and therefore, the program is at 
greater risk going forward if we do not take timely action.
    Senator Coats. Thank you.
    Senator Wyden?
    Senator Wyden. Gentlemen, let me start with one of the 
questions this committee is going to have to wrestle with right 
at the outset. There is a 30-year tradition. Basically, it goes 
from Baucus, Grassley, Dole, and Moynihan talking about the 
outsider status of the public trustee. Why shouldn't the 
tradition of serving only one term be maintained?
    Dr. Blahous, why don't you start?
    Dr. Blahous. Well, can I fall back on my plea of giving a 
multi-part answer? There are various things I can say, not all 
of which are closely connected.
    Senator Wyden. But I think it is a fairly straightforward 
question.
    Dr. Blahous. It is a straightforward question. I just have 
multifarious thoughts on it. With your permission----
    Senator Wyden. Sure.
    Dr. Blahous. Obviously, the first answer is, that is your 
prerogative and value judgment to make.
    Senator Wyden. I want you to give me a reason why it should 
not be. Maybe you learned something, you do something 
differently, there is a fresh perspective. I would like to hear 
particularly from you. You and I have a variety of views 
substantively that are in pretty sharp disagreement. So I would 
just be interested in an answer to the question, particularly 
on why the committee should depart from this tradition.
    Dr. Blahous. Well, I would make a couple of observations. 
We are only the fifth public trustees to ever serve. We have 
signed five reports. That is actually the fewest number of any 
previous public trustees who have served.
    The previous public trustees signed seven. We are going to 
have a lot of turnover anyway. We have a presidential election 
coming up. It is almost certain we will have four new 
government trustees.
    Now, obviously--again, it is your judgment whether you want 
to have all six trustees change over or whether you want to 
have some institutional continuity in the room. We are going to 
have a very substantial amount of fresh eyes on the product no 
matter what.
    I do think--irrespective of the question of whether it is 
us--I do think public trustee oversight over the process is 
very important. I think the process suffers when there are not 
public trustees in there. So I would urge, again, irrespective 
of whether it is us or someone else, that public trustees be 
confirmed rapidly.
    I actually think the administration officials are 
handicapped when they do not have public trustees in there 
overseeing the work, because they are in a state of limbo and 
uncertainty about whether to incorporate changes or not, not 
knowing what public trustees would be saying or how they would 
be reacting.
    So those are all considerations that I would bring to bear. 
I would also additionally say, we do not lack for fresh eyes 
and outside perspectives in the trustees process. We are big 
believers in it. We use the input from the technical panels. We 
call in outside experts. We definitely agree with the idea that 
fresh eyes are important. But those are my thoughts in general.
    Senator Wyden. Dr. Reischauer?
    Dr. Reischauer. I have given this some thought. I think 
continuity is important. This is a complex process. It is an 
interpersonal set of relationships that develops these reports, 
and it takes--Chuck and I have talked about this--a couple of 
years to really know how this is working, how to work it and 
how it can work.
    There is a lot of turnover of the Assistant Secretary-level 
folks representing the ex officio trustees. So they often are 
not schooled and experienced in this process at all. It is the 
professional staff of the various departments and the actuaries 
who are. I think the input that the public trustees learn they 
can have in this process develops over time and is important, 
and as Chuck said, there will be a whole lot of turnover in the 
course of the next year in this. Having some experienced hands, 
shall I say, I think would be very valuable.
    Senator Wyden. Let me ask one more question of you, Dr. 
Blahous. You heard me talk about Medicare. I am particularly 
concerned about what is going to happen to the Medicare 
guarantee. This is something that to me is inviolate. The 
program needs to be updated. That is why we have been working 
in a bipartisan way. We have some of the most progressive 
members of the House and some of the most conservative members 
working together in a constructive way, but it is all about 
protecting the Medicare guarantee and updating the program.
    So I would like to hear your thoughts on what you see for 
the future of Medicare and the way in which the country treats 
those who are going to generate most of the changes for 
Medicare. Beneficiaries with six or more chronic conditions 
account for 46 percent of the spending. So what do you see for 
Medicare?
    Dr. Blahous. Do you mean more specifically on the financing 
aspects of Medicare or from a policy perspective?
    Senator Wyden. I am interested in getting insight into your 
thinking, because I have read much about your past articles, 
and suffice it to say, I do not believe it will be a big 
surprise to you that I disagree profoundly with some of those 
views. But for purposes of today, what I want to see is what 
you think Medicare's future should be all about.
    I start with the Medicare guarantee. There could be a lot 
of other decisions. I would just like to hear you talk about 
the subject.
    Dr. Blahous. In terms of what I can offer, I have not 
personally done a whole lot of research or writing about 
Medicare policy choices, per se. That has not been a research 
specialty of mine.
    I have written about the public finance aspects of Medicare 
and the status of the Medicare trust funds, but the Medicare 
policy debate is something that, to a large extent, I have not 
really entered into. I had not really entered into it very 
closely before becoming a trustee, and after becoming a 
trustee, I did not have particular reason to enter into it 
closely.
    So with respect to Medicare financing questions, that is 
something that I certainly do write about as a trustee, with 
the other trustees, and also when I write about the findings in 
the annual trustees' report.
    What we try to do in the Medicare report is to give a sense 
of how our outlook is changing. One of the points that I have 
tried to make in my writings about Medicare is that we have a 
certain amount of health-care cost deceleration built into our 
projections already, and we are hopeful as a group and 
individually that the recent deceleration in health-care cost 
growth will be sustainable and work to the benefit of Medicare 
beneficiaries in the sense of shielding them from tougher 
choices that we might otherwise have to make.
    However, we probably cannot rely on that for the Medicare 
financing picture to become significantly better than we are 
currently projecting, because we are already building a fair 
amount of cost deceleration into our projections, even into our 
baseline.
    Beyond that--my own research is not specifically in the 
Medicare policy area. I tend to confine myself to just the 
public finance aspects of Medicare.
    Senator Wyden. Thank you, Mr. Chairman.
    Senator Coats. Senator Stabenow?
    Senator Stabenow. Thank you very much, Mr. Chairman and Mr. 
Ranking Member. We appreciate both of you being here today.
    Let me first say that I view Medicare and Social Security 
as great American success stories, lifting a generation of 
people out of poverty, creating a healthier group of members as 
they retire, as well as people with disabilities. We look at 
the fact that we have over 54 million people who depend on 
Medicare to meet their health-care needs, 45 million seniors, 9 
million people with disabilities, and the fact that we have 
seen costs come down as it relates to the Affordable Care Act 
and some other areas--the way that is coming together is 
positive.
    Also, Social Security is key to economic security. It is 
not just retirement; it is disability and it is life insurance, 
and we all pay into it. We all pay into it, and it is 
comparable to a pension, which way too many people do not have 
right now.
    We live at a time when about half of our workforce does not 
have a pension. We are struggling with what to do to help 
people who have paid into a pension to be able to get their 
pension. Over one-third of our workforce has no retirement 
savings. So it is a big deal when we talk about all of these 
things. Over one-fifth of elderly married couples rely on 
Social Security for 90 percent of their income.
    So we could go on and on with the numbers, but the bottom 
line is that it is really important, and the American people 
support maintaining the structure and integrity and ability of 
these programs to be able to operate. So the first question 
that I would ask of both of you is--we will start with Dr. 
Blahous--do you support or oppose cuts to Social Security 
benefits?
    Dr. Blahous. The first thing I would say is, as trustees, 
we do not discuss policies at all. We all have different policy 
views and policy duties and professional duties outside of the 
trustees' process, but we do not bring those into the trustees' 
process. I think that is very important. It is important to the 
integrity of the work.
    Obviously by design, this is a process that brings together 
people from different parties and different policy backgrounds, 
who advocate for different policy positions in different 
settings. But when we are in there as trustees, that is not 
what we are doing.
    Senator Stabenow. Let me just stop you and say, okay. Let 
us talk not as a trustee, but as a person with a long and 
public record of opposing the basic structure of Social 
Security. You have advocated for privatizing, for shrinking 
Social Security. Is that something you still support, 
privatizing Social Security?
    Dr. Blahous. I actually--I would not agree with that 
characterization.
    Senator Stabenow. All right.
    Dr. Blahous. First of all, I was very much in agreement 
with your opening statement that the historic financing 
structure of Social Security is a success story. I made remarks 
to this effect at one of our trustees' pressers, which is that 
it is not easy for legislators to design programs to provide 
levels of support on the order of Social Security and Medicare 
and have the basic means of financing and providing those 
programs be broadly accepted by the public. That is very, very 
hard to do.
    You have Social Security and Medicare--they are providing 
substantial support to millions of people, and you do not have 
particular public controversy about whose ox is being gored 
when they are getting financed. That is pretty remarkable.
    So I do not oppose the basic financing structure of Social 
Security and Medicare. I actually feel very strongly that the 
self-financing ethic of those programs, first as designed by 
FDR and then certainly on the Medicare Part A side by 1965, is 
very important to maintain. So I would not agree with that 
representation.
    Senator Stabenow. What about the management, though? You 
have advocated for forms of privatizing Social Security. Is 
that not accurate? I have read things.
    Dr. Blahous. I understand that that terminology is 
sometimes used, but I have not advocated for privatizing Social 
Security. There have been various proposals put out over the 
years that would involve----
    Senator Stabenow. Private accounts, for instance?
    Dr. Blahous. Right, and there were proposals to invest the 
trust fund in the stock market that were proposed by President 
Clinton. I was not in favor of those.
    There were proposals put forward for privately administered 
personal accounts. I was not in favor of those.
    When I worked in the George W. Bush White House, I worked 
on a proposal for him that would have established savings 
accounts within Social Security, but it would have been within 
the publicly administered structure. It would not have been 
privatized accounts.
    Obviously, that was a job that I had with the Bush 
administration. I was very pleased to have that job, but it is 
not a job that has any particular bearing on what I do as a 
trustee.
    Senator Stabenow. And I would just quickly ask Dr. 
Reischauer the same question in terms of cutting Social 
Security or privatizing, changing the structure of Social 
Security.
    Dr. Reischauer. I think the basic structure is sound, but 
at this point, it is unaffordable, and we have to make some 
changes. Were I king for a day, I would probably give quite a 
different proposal than Chuck would. On the other hand, in the 
5 years working together with him on the working group and as a 
trustee, I would have no indication of that. We work 
constructively in the trustee process.
    You asked about benefits. That is a decision for the 
Congress. Are benefits in the aggregate too low or too high? I 
think very strongly that they are too low for a significant 
swath of the lower-income population.
    Without throwing myself on the sacrificial table here, 
there are some of us who could see a slower growth in benefits 
over the future if that growth went to supporting the widows, 
the elderly, those with long careers at relatively low wages, 
who are having an extremely hard time and will have an even 
harder time in the future, as you point out, because of their 
lack of pensions and their lack of retirement savings, which is 
not their fault. The economy has not given them a job that had 
a pension, and they do not have the wherewithal--trying to put 
food on the table every day--to put money away for retirement 
in an IRA or something.
    Senator Stabenow. Thank you, Mr. Chairman.
    Senator Coats. Thank you, Senator.
    Senator Brown?
    Senator Brown. Thank you.
    As you know, there has been an 8-decade Manichean struggle 
in this country on the issue of social insurance and the role 
of government. I think that we have seen that play out in the 
Finance Committee a number of times. I want to reiterate what 
Senators Wyden and Stabenow said and with a bit more historical 
context.
    Since 1983 when Congress established the public trustees' 
positions, neither this committee nor the full Senate ever 
voted to confirm a trustee for more than one term. You know 
that.
    In 2006, when President Bush made the unprecedented 
decision to reappoint John Palmer and Thomas Saving to these 
positions, he did so over the bipartisan objection of then-
chairman Grassley and then-ranking member Baucus.
    Unfortunately, it appears this committee today has chosen 
to forgo that precedent and move forward with these 
nominations. By doing that, we set a dangerous precedent, not 
just because of the number of terms the trustees will serve. 
There is a larger stake in these nominations. These programs 
are among the most important in the country, affecting nearly 
every American. We need to think twice before we turn the role 
of trustee into a partisan position or an ideological position 
that can be used to undermine public confidence in Social 
Security.
    Dr. Blahous has a long partisan history with respect to 
Social Security as Executive Director of President Bush's 
Commission to Strengthen Social Security. I love how we name 
things in this town.
    Dr. Blahous has put forward proposals to privatize the 
program, plans that would turn the retirement that Americans 
have earned over a lifetime of work into yet another slush fund 
for Wall Street. Imagine--if they had succeeded in the 
beginning of the second Bush term--what would have happened to 
those accounts as the Bush economy was so deflated in 2008 and 
2009.
    Dr. Blahous has repeatedly argued for cutting benefits and 
raising retirement age, all under the guise of supposed reform. 
He is certainly free to do that as a private citizen. He is 
entitled to that perspective, a perspective frankly that is 
shared by too many people who dress like we do and get paid 
good salaries and who receive great health care and retirement 
benefits from taxpayers.
    The American public does not share in these views. That is 
clear from the huge bipartisan response to the Bush efforts in 
2005.
    Dr. Blahous has been re-nominated to represent the public, 
hence the term ``public trustee.'' By continuing this position, 
Dr. Blahous can use the title of public trustee to give the 
impression that there is official backing for an ideological 
agenda that most Americans surely do not support.
    I am concerned there is no way for the average person to 
distinguish when Dr. Blahous is speaking as a public trustee 
and when he is speaking for the right-wing think tank that is 
his full-time employer.
    For instance, in 2010, Dr. Blahous said in an article in 
which he was identified as a public trustee, bottom line, he 
was either for changes to the benefit formula or for big tax 
increases to the next generation. In a 2011 radio interview, 
again identified as a public trustee, representing the public, 
Dr. Blahous argued for the need to raise the retirement age of 
Social Security.
    In 2015, while again identifying himself as a public 
trustee, he defended a highly partisan rule passed by the House 
of Representatives--we remember that last year--concerning 
Social Security disability insurance, saying, ``There is no 
evidence suggesting that actual disability is more common than 
it was 30 years ago.'' Again, he was identified as a public 
trustee but was speaking outside of his role as a public 
trustee.
    These comments are misleading. They are hyper-partisan. 
They dismiss serious proposals for reform that would help 
seniors. But coming from a public trustee, they also erode 
trust in the program, pushing ideological agendas outside of 
the trustees' mandate to educate the public about the trustees' 
report.
    We should be working to expand and strengthen Social 
Security. The Senate should not put someone in a position of 
public trust who helped write the blueprint to set up private 
accounts--that is what he says; we say privatizing Social 
Security--and collects a paycheck while promoting plans to cut 
senior benefits.
    I understand today's nominees fall under what is known as 
privileged status in the Senate, which means the chairman can 
move the nominees without a committee vote. This position is 
too important to deny this committee a vote. I made my concerns 
known to Chairman Hatch and to Ranking Member Wyden.
    Dr. Blahous, I have three questions, if you would answer 
``yes'' or ``no.'' The fourth question--you can expand on all 
of those. Answer the fourth question and then expand on the 
first three if you would.
    First, do you believe any Social Security reform must 
include cuts to the program? Yes or no?
    Dr. Blahous. Must? No.
    Senator Brown. All right. Do you believe it is the proper 
role of a public trustee to advocate for specific Social 
Security solutions any time in his life, whether he is speaking 
as a trustee or identified as a trustee?
    Dr. Blahous. I believe it can be.
    Senator Brown. All right. And third, you have advocated for 
private accounts--that private accounts should be formed within 
Social Security. Do you believe it is the role of a public 
trustee, again, as a trustee or in your private life, to 
advocate for such a position?
    Dr. Blahous. I do not believe it is the role of a trustee 
to advocate for----
    Senator Brown. Is it a proper role of a trustee, even 
outside of the trustee's role, identifying as a trustee, to 
speak on those issues that way in your other job?
    Dr. Blahous. I would not have a problem with a trustee in 
their other role arguing for private accounts, but I have not 
been arguing for private accounts. I worked in the Bush 
administration, and I worked on a private account proposal, but 
I have not been arguing for private accounts during my time as 
a trustee.
    Senator Brown. All right. Last question, and you certainly 
can take as much time as you need on this. Is it possible that 
taxpayers who read your writings, who listen to your speeches, 
who look at your publications for the Mercatus Center, most of 
which identify you as a public trustee, could be misled to 
believe that you are speaking for the Social Security program 
itself and for the Social Security Board of Trustees?
    Dr. Blahous. I suppose it is possible, but I would say I do 
not think it is any more likely than that one would assume that 
Secretary Lew or Secretary Burwell are speaking for the 
trustees when they give a policy opinion on Social Security or 
Medicare.
    There is an inherent tension in these positions, where we 
are all serving in other positions at the same time that we are 
trustees. It is understood that we do not bring that other work 
into our trustee work. It is also understood that we all have 
other work that we do and that it is not interpreted as all the 
trustees speaking for one another.
    I would be concerned about there being any constraints 
uniquely on the public trustees relative to the other trustees. 
I think that would be a mistake and depart from congressional 
intent.
    When the public trustee positions were established in 1983, 
it was, I think, in large part because there was a desire to 
have the public and lawmakers hear from trustees on issues 
surrounding Social Security and Medicare who were not 
simultaneously working as Cabinet officials for the 
administration.
    So, again, I think all of us in the trustees' process take 
good care to make sure that our other jobs and duties do not 
interfere with our trustee work. With respect to the restraints 
that we impose on ourselves outside of our trustee work, there 
is definitely a role for restraint. Depending on the amount of 
time, I can talk about the various ways in which I think 
trustees should be self-restrained in how they write and 
communicate on these programs, but I would not want any 
perception of restraint and constraint to be placed uniquely on 
the public trustees relative to the others.
    Senator Brown. Thank you, Dr. Blahous.
    One comment really quickly, Mr. Chairman. At the beginning 
of his more expansive statement, which I appreciate, he 
mentioned Secretary Lew. Secretary Lew will be identified on 
almost anything that he says about government as the Secretary 
of the Treasury. Dr. Blahous will be identified when he speaks 
about these issues from a more ideological perspective as a 
Social Security public trustee. That is the fundamental 
difference.
    Senator Coats. If I could just ask a question for 
clarification. My understanding--and correct me if I am wrong--
is that our two witnesses here, perhaps, have different 
thoughts, different ideas, different proposals relative to how 
benefits should be designed and so forth. But that is not your 
role.
    Your role is simply mathematic, is it not? Is it not an 
analysis of numbers in terms of how the program is financed? 
Your role is not--we have asked you questions outside of that. 
You probably have both written and testified or given speeches 
or whatever about your personal thoughts as to how the program 
ought to be structured, what the benefits are, and so forth.
    My understanding is that, in your role as a trustee, you do 
not have the authority to do anything other than report facts 
back to us so that we can use that information in terms of 
deciding how we can finance, what policy decisions we make 
relative to the Social Security and Medicare programs. Is that 
correct?
    Dr. Blahous. Right. It is an analytical role, and it is a 
reporting role. I think one handy way to think of it is that it 
does not really matter what our views are. What matters is 
whether we provide the information to you so that you can 
advance your legislative view of what needs to be done with 
Social Security.
    Senator Coats. And, Dr. Reischauer, would you agree with 
that?
    Dr. Reischauer. I would agree with that completely.
    Senator Coats. So what is reported to us--by both of you, 
who may have different ideas as to how the program should be 
structured--has nothing to do with what we ultimately decide. 
You are just simply giving us the factual basis of the 
financing of what it is we have decided to do relative to 
Social Security benefits.
    Dr. Reischauer. And the context and perspective can tilt 
how people look at facts, and we bend over backwards to try to 
make that as objective and neutral as possible. There is robust 
discussion among the ex officio representatives and us about, 
let us make sure this is right on the level and that it is not 
skewing----
    Senator Brown. Mr. Chairman? I would add, Mr. Chairman, 
that they do this in their work as trustees. It is when they 
are identified as trustees and speak out--we may not care; no 
disrespect to either of you--as distinguished academicians and 
beyond, as government servants.
    We may not put a big premium on what they are saying about 
recommendations beyond their trustee work, but what they say to 
the body politic and to the public is characterized so often 
as, these are public trustees, they must be speaking for Social 
Security when they advocate positions.
    Senator Wyden. Mr. Chairman, I just want to clear up 
something on this point with respect to the dual roles. Dr. 
Blahous, my understanding is that, in writing and speaking 
about public policy issues, you sometimes refer to yourself as 
a Social Security public trustee.
    My understanding is that you, Dr. Reischauer, do not. Is 
that correct?
    Dr. Reischauer. It is inevitable that when we--either of 
us--appear, the people who are sponsoring the organization or 
whatever want to put down that, these people are trustees, 
because they want to do what Senator Brown suggests, tie 
whatever we might be saying to their particular----
    Senator Wyden. So somebody can introduce you as----
    Dr. Reischauer [continuing]. And you always say, I am not 
speaking in my capacity as a trustee and what I say has no 
relevance to the trustees.
    Senator Wyden. And when you write articles, you do not 
claim to be a public trustee?
    Dr. Reischauer. Right.
    Senator Wyden. Correct. Thanks. I needed to know. Thank 
you.
    Dr. Blahous. Could I speak to that and just clarify, 
because I want to be clear with the committee as to how I 
handle it--unless it is not wanted.
    Senator Wyden. Well, I want to make sure Senator Casey gets 
a chance to speak, and we are going to have votes, but I want 
to hear your point on that, because for me, that is an 
important distinction. When you write about public policy 
issues, you refer to yourself as a Social Security public 
trustee. Dr. Reischauer does not refer to himself as a public 
trustee, and it goes to this question of mixing the roles.
    I think we should get to Senator Casey at this point.
    Senator Coats. But I want to let Dr.----
    Dr. Blahous. I do not want to leave a misimpression that 
somehow I am handling things in a fundamentally different way 
from the way Dr. Reischauer does.
    For example, if I were invited to be on a show and the 
topic was the Social Security and Medicare trustees' reports, I 
would think that it would be fine to be on there as a public 
trustee saying, here is what we found in the trustee's report.
    If I were making an appearance where I was talking about my 
research for Mercatus or something, I would not go on there 
saying, here I am speaking for the trustees.
    What I generally do--and I think this is important. My 
identification as a trustee is a standard part of my biography, 
and therefore, it is a standard part of the byline. But I think 
that is an important disclosure.
    We have had instances in academia in recent years and 
controversies where people have not disclosed what their roles 
are with the government when they are out there giving policy 
views. While I do try to take care to distinguish anytime I am 
writing and giving my own views from when I am talking about 
what the trustees have found, I think it would be a mistake to 
conceal or withhold the information that I am serving as a 
public trustee. I think that would run afoul of some of the 
ethic of disclosure that has proved to be important and 
controversial in other instances involving academics over the 
years.
    Senator Coats. Thank you, Doctor.
    Senator Casey?
    Senator Casey. Thank you, Mr. Chairman.
    I am going to develop a line of questioning that was raised 
earlier. We appreciate you both being here and your service.
    Especially when we are talking about Social Security, but I 
think it also applies to Medicare, we are talking about 
programs that have become such a part of the fabric of American 
life that they are in essence a basic promise. That promise 
that undergirds American life also is not just a nice 
commitment to keep. Both are--I think--central features of a 
kind of stability that we have in the country.
    I think it was Senator Stabenow who raised the issue of 
retirement security being at risk. The number of defined 
benefits has gone way down, and there is a lot of economic 
uncertainty. So whether you think we should have a three-legged 
stool of security or four--whatever the analogy is, a lot of 
that has been either compromised or somehow undermined.
    So how we deal with this question of appointment has to be 
tied to that basic promise and the stability that flows from 
that. I think this idea of having a fresh perspective is sound 
because of that--because of the promise we are trying to keep.
    So whether you call it a new perspective or new ideas or 
having an outsider perspective after 1 term is up--others have 
used the word ``watchdog.'' I was a State auditor, elected 
twice, and one of the basic elements of that is your 
independence: you are separated from the work of an 
administration. You have a measure of difference or 
independence.
    So when we are talking about a new perspective and new 
ideas, I think that is an important consideration. That is why 
I think this tradition of having a turnover every 4 years is 
sound in this context.
    One of the issues that has come before us that a lot of 
constituents have talked to us about is the backlog in 
processing for SSDI--Social Security Disability payments--and 
the applications for that. If you have that backlog persist too 
long and fester, like in any circumstance, that delay is not 
just an inconvenience. It has an outcome attached to it. I do 
not think it is a stretch to say in the context of SSDI, 
justice delayed is justice denied. If there is too long a 
delay, you do have a denial of justice or, at a minimum, a 
denial of determination or certainty for that individual.
    So I guess if you are making the case that that tradition 
of turnover every 4 years should be upended--Dr. Reischauer, 
you talked about continuity and experience, and that is an 
argument to be made. I guess if you are making that argument 
and against the argument of turnover over the course of 4 
years, and you are concerned about the promise, and you are 
concerned about making sure we have fresh perspective, and a 
fresh set of eyes, how can you demonstrate to us that there are 
either actions that you have taken in the past or new ideas 
that you would put forth in the future that would support your 
position?
    Maybe I will just start with you, Dr. Reischauer. Then----
    Dr. Reischauer. Well, with the particular example that you 
used, which is the backlog in DI, that is not a kind of issue 
that the trustees would be involved in. That is an explanation 
for why the rolls are going up, or going up more slowly or more 
rapidly than they have in the past. That might be discussed in 
a very objective way explaining why the numbers are what they 
are.
    The idea that there are new or different perspectives out 
there, I think--this is not Silicon Valley. We are in touch 
with the academic community on the right, on the left, in the 
middle, or former colleagues, or friends of ours, or people who 
send us information. I do not think bringing somebody in who is 
new to the system is suddenly going to change anything. It is 
going to put people without any sort of experience about this 
very unusual working group process flailing around for a few 
years.
    If you had information that Chuck and I were not 
contributing much to the discussion or the debate, or not 
influencing, or influencing in a pernicious way, the process, I 
would say ``fine.'' We should not be re-nominated or approved 
by the Senate. But I do not think that would be the case, and I 
think if you talk to folks who have been around this process 
for a long time, they would say maybe Bob and Chuck have too 
many fresh ideas.
    This is a process which has a whole lot of stasis in it, of 
continuity, as it should. You do not want the actuaries out 
there saying, I think mortality is going to go down by a third 
next year, let us change the numbers, and then we have huge 
swings one way or another. These are very careful, sort of 
long-gestating changes that take place based on input from 
academics, from technical panels, from the two of us, and from 
the professional staffs of the departments and the Actuaries 
Office.
    Senator Casey. Doctor?
    Dr. Blahous. Sure. Four things come to mind in response to 
your question with respect to other perspectives, bringing 
fresh perspectives to bear.
    One is, we just had a technical panel report presented to 
the trustees. It was presented after the end of our last term. 
So there is a whole new wealth of material and suggestions and 
recommendations for the trustees to pore through, put together 
by outside experts.
    We have not been able to be a part of that process. I 
assume that the administration officials have received that and 
are digesting it. But I would not be surprised if they are 
feeling some inhibition about acting on any of it, because they 
are probably waiting to know who the public trustees are going 
to be and when they are going to be there. That would be my 
expectation.
    Dr. Reischauer. I would just intervene and say that, in 
general, I thought the public trustees, and the two of us, at 
the last technical panel, its suggestions, the Medicare 
Technical Panel suggestions, were infused with the idea that we 
were much more in favor of pushing things forward and saying, 
are we going to respond to this? Let's go.
    Now, I am not saying that two other people would not do the 
same thing. It would take them a few years to realize that that 
is their role, but they would fall into that pattern as well. 
But the administration folks tend to be more resistant to 
change, shall I say?
    Dr. Blahous. I agree with that. That is actually a good 
segue to my second thought, which is, in addition to the 
Technical Panel's recommendations that have come in the door, 
there is also just the things that Bob and I generate together.
    Each year I have a grab bag of things that have not been 
looked at in the prior trustee report season that I want to 
kick up for discussion, and I run them past Bob. And he has 
some, and we decide which ones we are going to raise.
    There is also, as Bob said, the third bucket, which is 
outside perspectives. There are people on the outside, 
academics who are in touch with many other people who have 
ideas of things we ought to review.
    Fourth, often there are preexisting discussions within the 
trustees' process, where we are having trouble coming to 
closure on something. So it might be something like labor force 
participation. That is a very difficult thing to project 
accurately, and many people are wrestling with it. So we might 
bring in an outside expert to bring a perspective to the 
trustees' Working Group that we have not been able to generate 
internally.
    So between those four buckets, we are kept pretty busy with 
an influx of fresh ideas.
    Senator Casey. I am out of time. Thank you very much.
    Senator Coats. Thank you.
    Senator Schumer?
    Senator Schumer. Thank you, Mr. Chairman. I thank both of 
our witnesses for their service.
    I want to just take a minute to echo Senator Brown's 
concerns about confirming our public trustees for a second 
term. The Senate has never confirmed a trustee for a second 
term, and, as public trustees are intended to act as outside 
watchdogs of Social Security and Medicare and make sure the 
public has a say in how their hard-earned Social Security and 
Medicare dollars are being managed, as a result, it has been 
the practice to appoint public trustees for only a single term.
    Senator Grassley and former Senator Baucus knew this when 
they led the committee in 2006. They both condemned President 
Bush for his recess appointments of the public trustees then. 
That is the only time the trustees have served two terms.
    Even more importantly, I have real concerns about this 
position. I understand the fiduciary and administrative 
responsibilities, but I think you have to be a guardian of 
Social Security. We all know there are huge efforts to change 
Social Security, to privatize it, to undo it, to cut it. And I, 
Dr. Blahous--we do have in common the name Chuck--have real 
concerns about voting for you on this board, not because of 
your integrity or government service--you are a fine person--
but because of your views.
    You worked on President Bush's efforts to privatize the 
program. I know that that does not mean you agree with it. You 
endorsed the Republicans' opposition to reallocating payroll 
taxes to the Disability Fund. Many people who want to weaken 
Social Security have that position, and if the reallocation had 
not occurred, there would be benefit cuts or tax increases.
    As outlined in a letter sent to the President opposing your 
nomination, there are real concerns. Again, you only teach 
there, but you are at an institute, at George Mason University, 
that is known for having a great deal of funds from the Koch 
Brothers, who were probably the leading opponents. Charles Koch 
is on the board of the Mercatus Institute. He is probably one 
of the leading opponents of Social Security in America.
    So I have to say I would oppose your nomination. Social 
Security is too precious, is too needed. With pensions in the 
mess they are in, we need Social Security.
    My view is, the greatest problem America faces economically 
is that median income is declining. It is harder to get to the 
middle class. It is harder to stay in the middle class. The 
last thing we need now is to undo one of the most successful 
safety nets in the history of the world, which is Social 
Security.
    So I just--reluctantly--because somebody who has served, I 
appreciate. You seem like a nice man, a fine man, but 
reluctantly I have to oppose your nomination, and I have great 
respect for Dr. Reischauer. If that means both of them go 
together, I know that is the price you pay for doing this, but 
I just feel we are at a flex point in America, and this idea 
that helping the wealthiest people not pay taxes, getting rid 
of government regulation, tearing down government, is the worst 
thing that could happen.
    I would hope we could have a coalition of Democrats and 
Republicans to improve funding for education, for 
infrastructure, for NIH, and for things like Social Security, 
Medicare, Medicaid, and health care.
    So you have sounded, if you will, the wrong note on these 
issues throughout your career. It is not one instance, and I 
will have to oppose your nomination, with reluctance, because I 
think you are a nice, fine person.
    Senator Coats. With the prerogative of being chairman, the 
privilege of being chairman, I just want to, for the record, 
clarify things.
    Neither one of you has any authority to change the policy 
of Social Security. You are simply reporting an analysis of the 
costs, the financial--whatever is chosen--consequences of that 
choice. That is provided to us so that we are in a better 
position to make a decision as to whether it is viable to go 
forward, backward, sideways, or stay the same, or whatever. 
Neither one of you has any influence under the obligations that 
you have in serving on the commission that would influence us 
in terms of what we select as a policy matter, not as a 
financial one. Is that correct?
    Dr. Blahous. That is correct.
    Dr. Reischauer. That is correct.
    Senator Coats. And you are both 100-percent supportive of 
each other's position in that regard?
    Dr. Blahous. Absolutely.
    Dr. Reischauer. We worked extremely well together, although 
we disagree on sort of the fundamental policy issues. With 
respect to the duties of the public trustees, I have had a 
tremendous collegial working relationship with Chuck.
    Dr. Blahous. I would not want to work with anybody else.
    Senator Coats. Very good. I appreciate your being here for 
this nomination hearing. If there are questions, to my 
colleagues who are not here--I need to state this for the 
record. Any questions for the record should be submitted by no 
later than Monday, May 16th. Staff will pass that on.
    Thank you very much for your testimony here today. I think 
it was important for us to hear what it is you do and what it 
is you do not do.
    With that, this hearing is adjourned.
    [Whereupon, at 4:20 p.m., the hearing was concluded.]

                            A P P E N D I X

              Additional Material Submitted for the Record

                              ----------                              


Prepared Statement of Hon. Charles P. Blahous III, Ph.D., Nominated to 
be a Member of the Board of Trustees of the Federal Hospital Insurance 
     Trust Fund, a Member of the Board of Trustees of the Federal 
 Supplementary Medical Insurance Trust Fund, and a Member of the Board 
 of Trustees of the Federal Old-Age and Survivors Insurance Trust Fund 
            and the Federal Disability Insurance Trust Fund

    Thank you, Chairman Hatch, Ranking Member Wyden, and members of the 
committee. It is a great honor to be nominated to serve again as one of 
the two public trustees for Social Security and Medicare.

    Before I begin with the substantive portion of my remarks, some 
thanks are in order. First I would like to thank President Obama for 
the honor of placing my nomination before the Senate. I also thank 
Senate Majority Leader McConnell for the trust he placed in me in 
putting my name forward for this important position.

    I would like to thank my wife Jill and my daughter Juliana, who 
unfortunately could not be here today, for their constant support and 
many sacrifices for my career in public service. I have been blessed to 
have my family's encouragement and counsel with each new challenge.

    Particular thanks are due to the members of this committee, to the 
United States Senate as a whole, and to the members of the U.S. House 
of Representatives. I am deeply appreciative of the unfailing courtesy 
with which I personally have been treated by Members of Congress in 
both chambers, on both sides of the aisle, as well as by their staffs. 
My appreciation, however, is based not only on these personal 
considerations, but on Congress's general comportment with respect to 
the trustees' process as established under the Social Security Act.

    Social Security and Medicare are perhaps the most important 
domestic programs the Federal Government has ever established. Their 
financial soundness is central to the economic security of millions of 
Americans today and in the future. The Social Security and Medicare 
trustees play an indispensable role in equipping the Congress and the 
administration with the information required to enable these vital 
programs to function as desired.

    It has been extremely gratifying to witness as a trustee the 
respect with which Members of Congress treat the trustees' reporting 
process. At a time when confidence in so many public institutions is 
under siege, lawmakers have recognized the importance of Americans 
being served by credible, which is not to say infallible, projections 
for the futures of Social Security and Medicare.

    Some of the most satisfying moments of trustee work come when 
testifying before Congress and a Member on one side of the aisle cites 
data from the trustees' report to support a particular policy 
viewpoint, after which another Member on the other side uses data from 
the same report to support a different policy viewpoint. This is only 
possible because Members on both sides safeguard the integrity of the 
trustees' work, and I am as grateful for this dynamic as I am for any 
kindness extended to me personally.

    The public trustees' positions were established in the 
comprehensive Social Security reforms of 1983, to maintain public 
confidence in the management of the trust funds and to ensure that 
program finances were persistently reviewed by bipartisan outside 
observers. While forecasting is an imperfect science, my experience as 
a trustee is that this work is conducted according to the highest 
principles of public service. While only time will attest to the 
accuracy of the projections, it is not too soon to vouch for the 
integrity of the process by which they are made.

    Each year, the trustees make assumptions about trends in fertility, 
longevity, worker productivity, price inflation (specifically in the 
case of Medicare, health care cost inflation), immigration, real wage 
growth, labor force participation, and other relevant variables, both 
in the short-term and in the long-term. Public confidence in the 
trustees' projections rests in large part on whether these assumptions 
are regarded as reasonable and objective.

    To assist in realizing this ideal, the trustees bring many 
perspectives to bear from both inside and outside our working group--
including the nonpartisan staff of the offices of the Social Security 
Actuary and CMS Medicare Actuary, technical panels periodically 
convened to assist respectively with Social Security and Medicare 
projections, outside analysts such as those at the Congressional Budget 
Office or elsewhere in academia, and many others.

    It has been my experience that participants in the trustees 
process, ranging all the way from the managing trustee Treasury 
Secretary Jack Lew, HHS Secretary Sylvia Burwell, Labor Secretary Tom 
Perez, and Acting Commissioner Carolyn Colvin to the various staff 
laboring in the different executive branch departments, conduct 
themselves with the appropriate respect for this important work--a 
characterization that I hope can also be applied to our service as 
public trustees. It has been a particular privilege and pleasure to 
serve alongside Dr. Robert Reischauer in this role. I learn not only 
analytical substance from Bob but also from his example of constant 
professionalism.

    If confirmed to serve again as a public trustee, I would look 
forward to contributing to the best of my ability to the trustees' 
process, and to maintaining public confidence in these vital reviews of 
Social Security and Medicare program finances.

    Thank you. I would be glad to take any questions.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

 1.  Name (include any former names used): Charles Paul Blahous III 
(``Chuck'')

 2.  Position to which nominated:

     Member of the Board of Trustees of the Federal Old-Age and 
Survivors Insurance Trust Fund and the Federal Disability Insurance 
Trust Fund

     Member of the Board of Trustees of the Federal Hospital Insurance 
Trust Fund

     Member of the Board of Trustees of the Federal Supplementary 
Medical Insurance Trust Fund

 3.  Date of nomination: August 5, 2015

 4.  Address (list current residence, office, and mailing addresses):

 5.  Date and place of birth: September 12, 1963 (Alexandria, VA)

 6.  Marital status (include maiden name of wife or husband's name):

 7.  Names and ages of children:

 8.  Education (list secondary and higher education institutions, dates 
attended, degree received, and date degree granted):

     Ph.D., University of California/Berkeley, att. 1985-1989, degree 
1989 (chemistry).

     AB, Princeton University, att. 1981-1985, degree 1985 (chemistry).

     Hampton High School, Allison Park, PA, att. 1977-1981, graduated 
1981.

 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment):

     Public Trustee, Social Security and Medicare Trust Funds 9/2010-7/
2015. Work conducted primarily in Washington, DC and Rockville, MD.

     Mercatus Center at George Mason University, Director, Spending and 
Budget Initiative (also Senior Research Fellow), Arlington, VA (work 
also performed in Rockville, MD) 8/2011-Present (SBI Director since 1/
2014).

     Research Fellow, Hoover Institution at Stanford University, 
Stanford, CA (work generally performed in Rockville, MD) 5/2010-
Present.

     Contributing author, E21 (Economics21.org), Washington, DC (work 
generally performed in Rockville, MD) 12/2009-Present.

     Policy consultant, DeMatteo Monness LLC, New York, NY (locations 
of consultations varied; phone consultations generally done from 
Rockville, MD) 2/2010-Present (have not been paid or performed work 
since 2011).

     Advisor, PriceWaterhouseCoopers, New York, NY (work generally 
performed in Rockville, MD) 3/2009-12/2013.

     Senior Advisor, Palisades Capital, Washington, DC (work generally 
performed in Rockville, MD) 2/2009-12/2013 (uncompensated after 2010).

     Senior Research Fellow, Fiscal Policy Program (nominal 
association, no compensation), New America Foundation, Washington, DC 
5/2010-6/2011.

     Senior Advisor, TIAA, New York, NY (most work performed in 
Rockville, MD) 
3/2010-12/2010.

     Public Policy Scholar, Woodrow Wilson Center, Washington, DC 
(office in Ronald Reagan building) 1/2010-4/2010.

     Senior Fellow, Hudson Institute, Washington, DC (work generally 
performed in Rockville, MD) 1/2009-4/2010.

     Eccles Scholar and Leavitt Fellow, Southern Utah University, Cedar 
City, UT (some teaching via videoconference from Rockville, MD, 
remainder on site at Cedar City campus) 8/2009-12/2009.

     Deputy Director of the National Economic Council, Executive Office 
of the President, The White House, Washington, DC 12/2007-1/2009.

     Special Assistant to the President for Economic Policy, Executive 
Office of the President, The White House, Washington, DC 2/2001-12/
2007.

     Executive Director, Alliance for Worker Retirement Security, 
Washington DC 
6/2000-2/2001.

     Policy Director, U.S. Senator Judd Gregg, Washington, DC 10/1996-
6/2000.

     Legislative Director, U.S. Senator Alan Simpson, Washington, DC 8/
1994-
10/1996.

     Legislative Assistant, U.S. Senator Alan Simpson, Washington, DC 
10/1990-
8/1994.

     Congressional Science Fellow (sponsored by the American Physical 
Society), Office of U.S. Senator Alan Simpson, Washington, DC 9/1989-9/
1990.

     Research Assistant, Center for Computational Chemistry, University 
of Georgia, Athens, GA 1987-1989. (I was a doctoral student at 
University of California/Berkeley during this time; I completed my Cal 
doctorate off-campus at University of Georgia, working there as a 
research assistant.)

     Teaching/Research Assistant, Graduate School of Chemistry, 
University of California/Berkeley, Berkeley, CA 1985-1987.

     Summer Assistant, PPG Industries, Springdale, PA Summer 1985.

10.  Government experience (list any advisory, consultative, honorary, 
or other part-time service or positions with Federal, State or local 
governments, other than those listed above):

     While serving as a Special Assistant for Economic Policy for 
President Bush, I also served as the Executive Director of the 
President's Commission to Strengthen Social Security (May 2001-January 
2002.)

11.  Business relationships (list all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, other 
business enterprise, or educational or other institution):

     Compensated positions held as a trustee, program director, 
advisor, or consultant are listed under question #9. I am also 
currently serving (uncompensated) as a member of a commission on 
retirement security operated by the Bipartisan Policy Center.

     I also served as an (uncompensated) member of the Board of the 
National Foundation for Credit Counseling from 10/2010-9/2015.

12.  Memberships (list all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations):

     National Academy of Social Insurance (2003-Present)

     Council on Foreign Relations (2000-2001)

     American Association for the Advancement of Science

     American Chemical Society

     American Physical Society

     (I do not have precise dates of membership in the scientific 
societies. I believe that each membership began circa 1989, and expired 
a few years afterward.)

     Society for American Baseball Research (1987-2001)

     U.S. Chess Federation (1991-2003)

13.  Political affiliations and activities:

     a.  List all public offices for which you have been a candidate.

        None.

    b.  List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years.

       I belonged to the Alexandria Republican City Committee in the 
late 1990s until 15 years ago. There I served on a ``shadow 
committee'' for budget and fiscal affairs.

   c.  Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $50 or more for the past 10 years.

       Elise Stefanik for Congress, $50, 1/2/2014. (I believe this is 
the only one and have searched online and through my records for any I 
may have forgotten, but did not find any others.)

14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement):

    Senior Research Fellow, Mercatus Center at George Mason University 
(2011-Present); Research Fellow, Hoover Institution at Stanford 
University (2010-Present); Fellow, E21 (2009-Present)--(I consider 
myself a contractual contributing author to E21 since 2009 but I 
believe that since the Manhattan Institute took over E21 in late 2013, 
my relationship has been structured as a ``fellowship''); Senior 
Research Fellow, Fiscal Policy Program, New America Foundation (2010-
2011) (the NA fellowship was a relationship that began on a nominal 
basis with the understanding that I might be compensated for individual 
projects agreed upon; we never got around to arranging any, so in 2011 
we simply terminated the association); Public Policy Scholar, Woodrow 
Wilson Center (2010); Senior Fellow, Hudson Institute (2009-2010) 
(during most of my time with Hudson they were administering a grant I 
received from the Smith-
Richardson Foundation to write about Social Security); Eccles Scholar 
and Leavitt Fellow, Southern Utah University (2009); 2001 Distinguished 
Service Award (White House); Congressional Science Fellow 1989-1990 
(American Physical Society); 1985 McKay Prize in Physical Chemistry 
(Princeton University); Mahan Memorial Teaching Award (University of 
California/Berkeley); National Merit Scholarship (received 1981) (I 
assume I need not include honors from back in high school; am including 
the National Merit Scholarship here solely because it was used for 
college and the instructions direct the listing of ``scholarships.'')

15.  Published writings (list the titles, publishers, and dates of all 
books, articles, reports, or other published materials you have 
written):

   Books

        Social Security: The Unfinished Work, Hoover Institute Press, 
2010.
        Pension Wise: Confronting Employer Pension Underfunding, 
Hoover Institute. Press, 2010.
        Reforming Social Security: For Ourselves and Our Posterity, 
Praeger Publishers, 2000.

   Reports
    (The reports below were co-authored with the other Social Security 
and Medicare trustees; the two Social Security commission reports were 
authored by the commission while I was a drafter at the staff level).

        With the Social Security and Medicare Boards of Trustees, 2015 
Annual Trustees' Reports and Status of the Social Security and Medicare 
Programs (a summary of the reports).
        With the Social Security and Medicare Boards of Trustees, 2014 
Annual Trustees' Reports and Status of the Social Security and Medicare 
Programs (a summary of the reports).
        With the Social Security and Medicare Boards of Trustees, 2013 
Annual Trustees' Reports and Status of the Social Security and Medicare 
Programs (a summary of the reports).
        With the Social Security and Medicare Boards of Trustees, 2012 
Annual Trustees' Reports and Status of the Social Security and Medicare 
Programs (a summary of the reports).
        With the Social Security and Medicare Boards of Trustees, 2011 
Annual Trustees' Reports and Status of the Social Security and Medicare 
Programs (a summary of the reports).
        With President's Commission to Strengthen Social Security, 
Strengthening Social Security and Creating Personal Wealth for All 
Americans, Final Report of the Commission, December 2001.
        With the President's Commission to Strengthen Social Security, 
Interim Report of the President's Commission, August 2001.

    Articles, Chapters and Papers (titles sometimes written by others)

        ``How Social Security's COLA Politics Lead to Bad Policy,'' 
E21, November 22, 2015.
        ``Covering Pre-existing Conditions without a Comprehensive 
Insurance Mandate,'' E21, November 10, 2015.
        ``Future Work Still Needed after Budget's Disability Fix,'' 
E21, November 2, 2015.
        ``Distinguishing Policy from Politics in the Cadillac Plan 
Tax,'' E21, October 5, 2015.
        ``An Overdue Budget Reform: Prohibit Double-Counting of 
Medicare Savings,'' E21, September 20, 2015.
        ``The Fiscal Consequences of the Affordable Care Act'' 
(chapter of ``The Future of Healthcare Reform in the United States''), 
University of Chicago Press, September 2015.
        ``Six Mistakes Paul Krugman Makes about Medicare's Finances,'' 
E21, August 31, 2015.
        ``A Warning from the Medicare Trustees'' (a guide to the 2015 
Medicare trustees' report), E21, July 30, 2015.
        ``Time Is Running Out to Fix Social Security'' (a guide to the 
2015 Social Security trustees' report), E21, July 29, 2015.
        ``Repealing Obamacare Would Lower Federal Deficits,'' E21, 
June 22, 2015.
        ``The Social Security Trustees' Projection Process: Imperfect 
but Indispensable,'' E21, June 1, 2015.
        ``The Social Security Trustees' Respectable Projection 
Record,'' E21, June 1, 2015.
        ``Costs of Merging Social Security Retirement and Disability 
Funds,'' E21, April 27, 2015.
        ``Gaming Out the Scenarios in King v. Burwell,'' E21, April 
13, 2015.
        ``CBO Says ACA Will Insure Fewer People than Predicted,'' E21, 
March 16, 2015.
        ``A Solid Choice for CBO Director,'' E21, March 2, 2015.
        ``Mindless Yes, Austerity No: The Real Budget Problem,'' E21, 
February 19, 2015.
        ``Warning: Disability Insurance is Hitting the Wall,'' E21, 
January 15, 2015.
        ``Picking the Right CBO Director,'' E21, January 5, 2015.
        ``Gruber and Barro Are Wrong to Assume the Public is Stupid,'' 
E21, November 19, 2014.
        ``Congress Can Fix the ACA with These 3 Principles,'' E21, 
November 10, 2014.
        ``Budget Committee Report Confirms the ACA Worsens the 
Deficit,'' E21, November 3, 2014.
        ``Losing Employer-Provided Coverage: Another ACA Prediction 
Comes True,'' E21, October 14, 2014.
        ``Sorry, NYT, the Medicare Cost Problem Remains Unsolved,'' 
E21, September 17, 2014.
        ``A Guide to the 2014 Medicare Trustees' Report,'' E21, August 
6, 2014.
        ``A Guide to the 2014 Social Security Trustees' Report,'' E21, 
August 4, 2014.
        ``An Unfolding Fiscal Disaster,'' The Weekly Standard, July 
14, 2014.
        ``The U.S. Workforce, Wasting Away,'' Hoover Digest, July 9, 
2014.
        ``A One-Sided White House Report on Medicaid Expansion,'' E21, 
July 7, 2014.
        ``I Was Right about the ACA,'' E21, June 30, 2014.
        ``CBO's Not the Problem, the ACA Is,'' E21, June 25, 2014.
        ``Social Security Adds to the Deficit,'' Los Angeles Times 
online edition, June 12, 2014.
        ``Rubio's Retirement Security Vision,'' E21, June 9, 2014.
        (With Keith Hall), ``Jobs: The Best Way to Fight Poverty,'' 
The Hill, April 30, 2014.
        ``The Unfolding Fiscal Disaster behind ACA Enrollment 
Figures,'' E21, April 17, 2014.
        ``The Secret Assumptions behind Federal Budgets,'' E21, April 
9, 2014.
        ``Changes to Medicaid under the Affordable Care Act'' (chapter 
in The Economics of Medicaid), Mercatus Center, April 8, 2014.
        ``The War on Paul Ryan,'' E21, March 5, 2014.
        ``Beyond the Spin: Why It's Terrible News that the ACA Lowers 
Employment,'' E21, March 3, 2014.
        ``Reform Entitlements--or Go Bust,'' Washington Examiner, 
February 24, 2014.
        ``Record-High Deficits Are Not `Austerity,' '' E21, February 
21, 2014.
        ``CBO: The Affordable Care Act is Driving Workers Out of the 
Workforce,'' E21, February 5, 2014.
        ``The Great Unraveling,'' Hoover Digest, January 21, 2014.
        ``The Healthcare Cost Slowdown,'' Defining Ideas, Hoover 
Institution, 
January 14, 2014.
        ``Will the Recent Slowdown in Health Care Cost Growth Improve 
Medicare's Financing Outlook?'', Mercatus Center, January 14, 2014.
        ``Why Slower Health Care Cost Inflation Isn't Fixing Medicare 
Finances,'' E21, January 14, 2014.
        ``Don't Worsen Social Security's Soaring Cost Problem,'' E21, 
December 23, 2013.
        ``No Grounds for Claim that Obamacare Lowers Health Care 
Costs,'' E21, November 25, 2013.
        ``Why We Have Federal Deficits: The Policy Choices that 
Created Them,'' Mercatus Center, November 14, 2013.
        ``Why We Have Federal Deficits,'' E21, November 14, 2013.
        ``Obamacare's Financial Unraveling: Predictable, and 
Predicted,'' Real Clear Markets, October 9, 2013.
        ``The Federal Fiscal Predicament: What Seems Better is 
Actually Worse,'' E21, June 27, 2013.
        ``A Guide to the 2013 Medicare Trustees' Report,'' E21, June 
11, 2013.
        ``A Guide to the 2013 Social Security Trustees' Report,'' E21, 
June 7, 2013.
        ``How Would Immigration Reform Affect Social Security 
Finances?'', E21, May 29, 2013.
        ``Understanding the Ryan and Murray Budgets,'' E21, March 20, 
2013.
        ``The Affordable Care Act's Optional Medicaid Expansion: 
Considerations Facing State Governments,'' Mercatus Center, March 5, 
2013.
        ``Expanding Medicaid: The Conflicting Incentives Facing 
States,'' E21, March 5, 2013.
        ``Are We Underestimating the Social Security Shortfall?'', 
E21, February 13, 2013.
        ``Obamacare's Fiscal Nightmare,'' Defining Ideas, Hoover 
Institution, February 7, 2013.
        ``Ten Things the Latest CBO Report Tells Us about Federal 
Finances,'' E21, February 6, 2013.
        ``Understanding Social Security Benefit Adequacy: Why Benefit 
Growth Should Be Slowed,'' E21, January 31, 2013.
        ``Is It Time for Deficit Hawks to Walk Away from the 
Bargaining Table?'', E21, December 12, 2012.
        ``The Fiscal Cliff: The Worst of Both Worlds,'' Reason, 
December 11, 2012.
        ``Eight Common Sense Suggestions for the Fiscal Discussions,'' 
E21, December 5, 2012.
        ``Understanding Social Security Benefit Adequacy: Myths and 
Realities of Social Security Replacement Rates,'' Mercatus Center, 
November 15, 2012.
        (With Jason Fichtner), ``Limiting Social Security's Drag on 
Economic Growth,'' Mercatus Center, November 1, 2012.
        (With Jason Fichtner), Chapter 15, ``Social Security Reform 
and Economic Growth,'' chapter of The 4% Solution, George W. Bush 
Institute, 2012.
        ``The Real Stakes in the Medicare Debate,'' E21, October 23, 
2012.
        ``The End of Social Security Self-Financing: What Does it 
Portend for Social Security's Future?'', Mercatus Center, October 10, 
2012.
        ``The End of Social Security Self-Financing: What Next?'', 
E21, October 10, 2012.
        Contribution to ``E21 Debate Primer: What Should We Really Be 
Asking Candidates?'', E21, October 2, 2012.
        ``Is it Becoming Too Late to Fix Social Security's 
Finances?'', E21, August 31, 2012.
        ``How Did Federal Surpluses Become Huge Deficits?'', E21, 
August 20, 2012.
        ``Yet Another Fiscal Turn for the Worse: Understanding the CBO 
Re-score of the 2010 Health Care Law,'' E21, July 25, 2012.
        ``Did the Supreme Court Ruling Render the Health Law's 
Finances Untenable?'', E21, June 29, 2012.
        ``Does the Government Really Need More Help Than the Private 
Sector?'', E21, June 14, 2012.
        ``What the Recent CBO Reports Tell Us About Fiscal Stimulus 
and the Federal Budget,'' E21, June 11, 2012.
        ``Should Congress Change CBO's Scorekeeping Rules?'', E21, May 
29, 2012.
        (With Jim Capretta), ``Exposing the Medicare Double Count,'' 
Wall Street Journal, May 2, 2012.
        ``A Guide to the 2012 Medicare Trustees' Report,'' E21, April 
30, 2012.
        ``A Guide to the 2012 Social Security Trustees' Report,'' E21, 
April 26, 2012.
        ``Yes, the Health Law Worsens the Deficit,'' E21, April 18, 
2012.
        ``Health Law Cripples Federal Finances,'' Washington Times, 
April 10, 2012.
        ``The Fiscal Consequences of the Affordable Care Act,'' 
Mercatus Center, April 10, 2012.
        ``The Fiscal Consequences of the Affordable Care Act,'' E21, 
April 10, 2012.
        ``The Dark Side of the Payroll Tax Cut,'' Defining Ideas, 
Hoover Institution, February 24, 2012.
        ``How Not to Make Public Policy: The Payroll Tax Cut,'' E21, 
February 15, 2012.
        ``Don't Repeat Costly Policy Mistakes with Employer-Provided 
Pensions,'' E21, February 13, 2012.
        ``Time to End `Temporary' Tax and Spending Policies,'' E21, 
February 6, 2012.
        ``Why There is No Bipartisan Budget Deal,'' E21, December 19, 
2011.
        ``What's in the Social Security Trust Funds, or: Why 
Continuing the Payroll Tax Cut Could Eventually End Social Security as 
We Know It,'' E21, December 12, 2011.
        ``The Private-Sector Pension Predicament,'' Policy Review, 
Hoover Institution, December 2011-January 2012, No. 170.
        ``How Are the Presidential Contenders Doing on Social 
Security?'', E21, November 28, 2011.
        ``Backing Away from Confronting Social Security's Realities,'' 
E21, November 10, 2011.
        ``How the CLASS Act's Demise Ends the Fiscal Argument for the 
2010 Health Care Law,'' E21, October 24, 2011.
        `` `Supporting' 400,000 Education Jobs: An Unsupported 
Claim,'' E21, October 13, 2011.
        ``Understanding the Stimulus Debate: It's not 2001 Anymore,'' 
E21, September 23, 2011.
        ``The Jobs Bill: Pretending to Fund Social Security,'' E21, 
September 19, 2011 (condensed and reprinted at foxnews.com, September 
23, 2011).
        ``How the Super-Committee Might Break the Budget Logjam,'' 
E21, September 2, 2011 (condensed and reprinted in the September 2, 
2011 Daily Caller).
        ``Five Myths About Social Security and Medicare,'' Defining 
Ideas, Hoover Institution, August 26, 2011.
        ``Job One for the Budget Super-Committee: Cut the New Health 
Entitlement's Cost,'' E21, August 23, 2011 (condensed and reprinted in 
the August 24, 2011 Daily Caller).
        ``Don't Allow Another Payroll Tax Accounting Gimmick,'' E21, 
July 26, 2011 (condensed and reprinted in the July 27, 2011 Daily 
Caller).
        ``The Gang of Six Framework: A Step Backward for Social 
Security Reform,'' E21, July 20, 2011 (condensed and reprinted in the 
July 21, 2011 Daily Caller).
        ``Reforming CPI: Not a `Grand Bargain' but a Prudent Reform,'' 
E21, July 12, 2011.
        ``AARP's Social Security `Shift': Much Ado About Nothing?'', 
E21, June 30, 2011.
        ``A Primer on the Social Security and Medicare Trustees' 
Reports: Part II--Quantitative Findings,'' E21, June 2, 2011.
        ``A Primer on the Social Security and Medicare Trustees' 
Reports: Part I--Concepts,'' E21, May 23, 2011.
        ``Social Security and Longevity Increases: Getting the Facts 
Right,'' E21, May 12, 2011.
        ``The Real Bipartisan Compromise: Cut Spending on the Rich,'' 
E21, May 11, 2011.
        ``The Administration's PBGC Premium Proposal Deserves 
Support,'' E21, April 18, 2011.
        ``Still No Clear Social Security Policy,'' Advancing a Free 
Society blog post, Hoover Institution, April 13, 2011.
        ``Why Raising Social Security's Tax Cap Wouldn't Eliminate Its 
Shortfall,'' E21, April 12, 2011.
        ``The Ryan Budget: The Real Choice We Face,'' E21, April 7, 
2011.
        ``Social Security's Possible Fate: Done In by its Friends,'' 
Washington Post, March 25, 2011.
        ``Social Security: Chronicle of a Death Foretold?'', Defining 
Ideas, Hoover Institution, March 17, 2011.
        ``The `Other' Pension Crisis: Options for Avoiding a Taxpayer 
Bailout of the PBGC,'' Mercatus Center, March, 2011.
        ``In Defense of the Simpson-Bowles Social Security Plan, Part 
2,'' E21, March 2, 2011.
        ``In Defense of the Simpson-Bowles Social Security Plan, Part 
1,'' E21, February 28, 2011.
        ``Why the Health Care Law Increases the Gross Federal Debt,'' 
E21, February 17, 2011.
        ``Nobody is Proposing to Slash Social Security Benefits,'' 
Wall Street Journal, February 3, 2011.
        ``Understanding the President's SOTU Social Security 
Language,'' E21, January 27, 2011.
        Contribution to ``SOTU Viewer's Guide,'' E21, January 25, 
2011.
        ``Days of Reckoning,'' Hoover Digest, January 12, 2011.
        ``Dispelling the Myth of `Targeting Social Security,' '' E21, 
December 22, 2010.
        ``How to Run a Successful Commission (or Not),'' E21, December 
16, 2010.
        ``The Payroll Tax Cut: Effective Stimulus, Phony Accounting,'' 
E21, December 8, 2010.
        ``The Social Security Challenge,'' Policy Review, Hoover 
Institution, December 6, 2010.
        ``Social Security Shortfall Warrants Action Soon,'' E21, 
November 30, 2010.
        ``Winners and Losers Under the Simpson-Bowles Social Security 
Plan,'' E21, November 29, 2010.
        ``The Bipartisan Policy Center's Tax-Heavy Social Security 
Plan,'' E21, November 23, 2010.
        ``Slowing Down Social Security's Retirement Age Increase,'' 
E21, Novem-
ber 18, 2010.
        ``Fairly Understanding the Simpson-Bowles Social Security 
Proposal,'' E21, November 11, 2010; reprinted by the Daily Caller.
        (With Robert Greenstein), ``Social Security Shortfall Warrants 
Action Soon,'' Pew Charitable Trusts, Pew Fiscal Analysis Initiative, 
November 9, 2010.
        ``The Crass Distortion of Paul Ryan's Social Security 
Proposals,'' E21, 
October 22, 2010.
        ``Is Everyone Just Imagining the Government Spending 
Explosion?'', E21, October 21, 2010.
        ``CRFB's Constructive Social Security Proposal,'' E21, October 
14, 2010.
        ``Why Tell-All Books Distort Rather than Illuminate the White 
House Policy Process,'' E21, September 27, 2010, reprinted by the Daily 
Caller.
        ``Change at the National Economic Council: What Does It 
Mean?'', E21, September 24, 2010, reprinted by the Daily Caller.
        ``Social Security and Work,'' National Affairs, Winter 2010 
edition.
        ``Social Security's Grim Milestone: Half a Year in the Red,'' 
E21, December 7, 2009.
        ``CBO's Prediction of Impending Social Security Deficits: What 
Does it Mean?'', Self-Directed Investor, October 9, 2009.
        ``What Drop in Benefits? The Phony Social Security COLA 
Controversy,'' Washington Post, August 25, 2009.
        ``Plan Still $820 Billion Above the Target,'' Politico, July 
29, 2009.
        (With Scott Nystrom), ``Save the Date: Social Security Will Go 
Broke,'' Forbes, July 29, 2009.
        ``Revisiting Health Care Reform and Fiscal Restraint,'' Self-
Directed Investor, July 24, 2009.
        ``CBO Explodes the Health Care Myth,'' Hudson Institute, June 
30, 2009.
        ``Don't Look Now, but There Goes the Social Security 
Surplus,'' Self-
Directed Investor, May 22, 2009.
        (With Brad Belt), ``Spare Taxpayers the Bill for Detroit's 
Pensions,'' Financial Times, May 21, 2009.
        ``The Worsening Social Security Outlook: A Guide to the 2009 
Trustees' Report,'' Hudson Institute, May 13, 2009.
        ``Social Security Myths,'' National Review, May 4, 2009.
        ``A Funny Thing Happened to the Budget Baseline,'' Hudson 
Institute, March 2, 2009.
        ``Social Security Fix Demands Honest Numbers,'' Bloomberg.com, 
February 27, 2009.
        ``The 1983 Social Security Reforms: Real and Misremembered 
Lessons for Today's Leaders,'' Hudson Institute, February 20, 2009.
        ``Shelter for Our Social Security,'' Washington Post, November 
6, 2000, 
p. A35.
        (With Senator Judd Gregg), ``Confronting an Aging World,'' 
Washington Quarterly, 23:3, pp. 213-224.
        ``The Virtual Hall of Fame'' (as Randy St. Loup), The 1999 Big 
Bad Baseball Annual, Masters Press.
        ``The Should-Have-Hit-500 Club,'' Baseball Research Journal, 
1998.
        (With Senator Judd Gregg), ``Mobilizing the Marketplace to 
Renew American Productivity,'' Harvard Journal on Legislation, Winter, 
1998.
        ``Larsen's Perfect Game: If Not Larsen, Who?'', Baseball 
Research Journal, 1995.
        ``The DiMaggio Streak: How Unlikely Was It?'', Baseball 
Research Journal, 1994.
        ``Olerud Chases Same Guy, Different Record,'' USA Today 
Baseball Weekly, 1993.
        ``The Thoughts of Youth,'' Washington Post Book World, October 
21, 1990.
        (With BF Yates, YM Xie, and HF Schaefer), ``Symmetry-Breaking 
in the NO2 Sigma Radical,'' Journal of Chemical Physics, v. 93 (#11), 
1990.
        (With YM Xie and HF Schaefer), ``The Infrared Spectrum of 
Trimethylenemethane,'' Journal of Chemical Physics, v. 92 (#2), 1990.
        (With HF Schaefer), ``(NH)6: The Amino-Analogue of 
Cyclohexane,'' Theochem--Journal of Molecular Structure, v. 59, 1989.
        (With YM Xie, RD Davy, Y Yamaguchi, and HF Schaefer), ``NO2 
Radical Spectroscopy,'' Journal of Chemical Physics, v. 135 (#2), 1989.
        (With HF Schaefer), ``Geometrical Structure and Vibrational 
Frequencies for the Oxygen Analogue of Hexasulfur,'' Journal of 
Physical Chemistry, v. 92 (#4), 1988.

16.  Speeches (list all formal speeches you have delivered during the 
past 5 years which are on topics relevant to the position for which you 
have been nominated):

    These are speeches for which I have found records of written 
remarks. These do not include less formal remarks I made on discussion 
panels or for which I used other references such as power point slides.

        ``Keynote Address,'' National Foundation for Credit 
Counseling, Annual Conference, October 3, 2012.
        ``Contrarian Views on Retirement Policy,'' Keynote Address, 
Wharton, Pension Research Council, May 5, 2011.
        ``Social Security: The Unfinished Work,'' ValueForum 
InvestFest Keynote Address, April 2, 2011.
        ``Social Security: The Unfinished Work,'' American Enterprise 
Institute, February 22, 2011.
        ``Social Security: The Unfinished Work,'' Greater McLean 
Republican Women's Club Luncheon, February 17, 2011.
        ``Social Security: The Unfinished Work,'' Heritage Foundation, 
December 6, 2010.
        ``Untitled remarks on Social Security,'' two essentially 
similar speeches given October 30 and November 6, 2010 at events of 
Beacon monthly periodical.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

    I have served a full term as a public trustee for Social Security 
and Medicare and in that service have learned a tremendous amount about 
the trustees' analytical methods and general responsibilities. This 
work required me to review the projection methodologies underlying five 
annual trustees' reports, as well as compose and edit language and 
graphical presentations therein. I have also presented the trustees' 
findings as a witness testifying at several congressional hearings. My 
work as a trustee has built upon several years of prior experience in 
researching and writing about the financing issues surrounding the 
Social Security trust funds. With 11 years of experience working in the 
Senate, 8 years working in the White House, and roughly 5 working as a 
trustee, I have studied Social Security finances from legislative, 
administrative, and public trustee perspectives. I have also worked 
successfully with other individuals participating in the trustees' 
process from a variety of perspectives and departments. I believe I 
have demonstrated the appropriate respect for the trustees' role and a 
process that I strongly believe is serving the public very well. 
Together with my fellow public trustee Robert Reischauer, I have 
vouched for the objectivity and integrity of the trustees' process 
without caveat or reservation; we have been able to do this because of 
the considerable time and effort we have invested in ensuring that the 
annual trustees' reports fulfill their essential public information 
purposes.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

 1.  Will you sever all connections with your present employers, 
business firms, associations, or organizations if you are confirmed by 
the Senate? If not, provide details.

    No. A public trustee position, while a great honor, is 
uncompensated other than for expenses and days spent on trustee work, 
and I would need to continue my current employment.

 2.  Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

    I expect to continue the employment described earlier in this 
questionnaire. I will evaluate other employment opportunities as they 
arise.

 3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

    I do not currently have agreements for employment beyond those with 
the Mercatus Center at George Mason University, the Hoover Institution 
at Stanford University, and E21, operated by the Manhattan Institute. 
In theory, other employers listed previously could approach me about 
isolated project opportunities at any time, but there are currently no 
such inquiries outstanding.

 4.  If you are confirmed by the Senate, do you expect to serve out 
your full term or until the next Presidential election, whichever is 
applicable? If not, explain.

   Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

 1.  Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

   None.

 2.  Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.

   None.

 3.  Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. Activities 
performed as an employee of the Federal Government need not be listed.

    None. I have many published writings about general public policy 
but have not engaged for purposes of influencing passage/defeat/
modification of specific legislation.

 4.  Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Provide the committee, with two copies of any trust or other 
agreements.)

    I have none. Should a potential conflict arise, I would consult 
with the SSA's designated agency ethics official and resolve the 
conflict in accordance with the applicable executive orders, 
regulations, and statutes. During my previous term as a trustee, it was 
my practice to run new employment opportunities past the ethics office 
as they arose, and I did not experience any problems with this 
practice.

 5.  Two copies of written opinions should be provided directly to the 
committee by the designated agency ethics officer of the agency to 
which you have been nominated and by the Office of Government Ethics 
concerning potential conflicts of interest or any legal impediments to 
your serving in this position.

    Not applicable at this time. Should a potential conflict arise, I 
would consult with the SSA's designated agency ethics official and 
resolve the conflict in accordance with the applicable executive 
orders, regulations, and statutes.

                       D. LEGAL AND OTHER MATTERS

 1.  Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? If so, provide details.

   No.

 2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county or municipal law, regulation, or ordinance, 
other than a minor traffic offense? If so, provide details.

   No.

 3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

    I was a plaintiff in a small claims court action. When I first 
moved to the area in 1989, I and my then-spouse paid what we believed 
to be a refundable security deposit on a rental apartment. We had 
decided to rent another place but our deposit was not returned, and we 
went to small claims court to retrieve it. Our claim was denied. I 
believe the issue was resolved in 1990.

 4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

   No.

 5.  Please advise the committee of any additional information, 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

    None beyond my statement of qualifications, dedication, and 
experience with respect to the Trustees' process, as described above.

                     E. TESTIFYING BEFORE CONGRESS

 1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

   Yes.

 2.  If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

   Yes.

                                 ______
                                 
   Questions Submitted for the Record to Hon. Charles P. Blahous III
               Questions Submitted by Hon. Orrin G. Hatch
    Question. It is the chairman's view that if a public trustee, based 
on his or her knowledge of Social Security and Medicare, becomes aware 
of possible policy decisions that would significantly weaken the 
finances of either program, he or she bears a responsibility to make 
this information available. Do you agree with this?

    Answer. Assuming the possible policy decision is already the 
subject of public discussion, I agree. In the event that it involves 
pre-decisional consideration within congressional offices or the 
administration that the trustees are not at liberty to disclose, I 
believe the trustees should make such information available once a 
decision is finalized and publicized, and its financial impact can be 
estimated.

    Question. In your 5 years of service as a trustee, has any member 
of Congress or their staffs ever expressed concern to you as to the 
credibility of the contents of the trustees' report?

    Answer. No.

    Question. In your 5 years of service as a trustee, has any member 
of Congress or their staffs ever expressed the view that the trustees' 
report development was conducted in any inappropriate way?

    Answer. Not to me or to my knowledge.

    Question. In your 5 years of service as a trustee, has any member 
of Congress or their staffs ever expressed concerns about the propriety 
of your past writing or continued writing about public policy issues 
during your term?

    Answer. Not to me or to my knowledge.

    Question. Have you ever, while serving as a trustee, represented to 
the public that your own personal policy views are also those of the 
other trustees?

    Answer. No.

    Question. Have there ever, over the 5 years of your service as a 
public trustee, been any parts of the trustees' reports that do not 
reflect the consensus findings of all six trustees, including not only 
the two public trustees but also the secretaries of Treasury, HHS, and 
Labor, as well as the Social Security Commissioner?

    Answer. No.

    Question. Have you ever, while serving as a trustee, sought to 
modify the contents of the trustees' report without the agreement of 
the other trustees?

    Answer. No.

    Question. Are any individual trustees able to modify the content of 
the trustees' reports without the review and approval of all of the 
other trustees?

    Answer. Not to my knowledge.

    Question. Is there any part of the trustees' reports that is not 
reviewed and approved by all six of the trustees and/or staff working 
on behalf of the trustees?

    Answer. No.

    Question. In your 5 years of service as a trustee, has any member 
of Congress or their staffs ever contacted you to express concerns 
about the quality, accuracy, tone, or truthfulness of your own 
individual writing on issues surrounding Social Security or Medicare?

    Answer. No.

    Question. Have you used your position as a trustee to promote 
policies that would weaken the finances of Social Security or Medicare?

    Answer. No.

    Question. The Social Security Act specifies, with respect to public 
trustees, that both may not be from the same political party. From what 
I have seen, in past trustee reports during your term of service, there 
were not any dissenting or minority statements on the report from you 
or your counterpart public trustee. From your perspectives, has there 
been a tradition of working by consensus in the process of producing 
trustee reports and, if so, do you believe that the tradition has been 
upheld during your term of service?

    Answer. Yes and yes.

                                 ______
                                 
                 Questions Submitted by Hon. Ron Wyden
    Question. My understanding is your terms as public trustees ended 
on July 22, 2015 and you have not been involved in the discussions or 
production of the 2016 trustees reports, is that correct?

    Answer. Yes, that is correct.

    Question. Assuming that the answer to the above question is 
``yes,'' I assume that if either of you were to be confirmed by the 
full Senate before the 2016 trustees reports are released to the 
public, that you will not sign those reports or participate in the 
press conference discussing the 2016 reports, is that correct?

    Answer. I have the same assumption that we will not participate in 
the issuance of the 2016 reports. Full participation and meaningful 
input by the public trustees would require a substantial delay in the 
reports' release date. Assuming there is not a desire on the part of 
the administration and Congress to delay the release to permit such 
participation, we would not be in a position to co-author the 2016 
reports.

                                 ______
                                 
                 Questions Submitted by Hon. John Thune
    Question. Each year the Board of Trustees produces reports on the 
financial status of Social Security and Medicare. We know the public 
reads about the parts of the reports--things like the year in which the 
trust funds will be depleted--that make the headlines. What other data 
points in your analysis do you believe to be the most important for the 
Congress and the public to be aware of that fully demonstrate the 
financial status of both Medicare and Social Security?

    Answer. The annual report summary highlights several data points 
the trustees have together decided are the most salient for 
demonstrating the financial status of Social Security and Medicare. The 
summary begins with the most recent data on operations for the separate 
Social Security and Medicare trust funds followed by a series of five 
charts with surrounding text, each of the charts depicting an 
especially important aspect of program financing.

    Because the financing methods for Social Security and Medicare are 
different from one another, the analytical information that is most 
telling for the two programs also differs. For Social Security as a 
whole, Figure II.D.2 from the Social Security trustees' report is a 
fairly widely cited graph. It shows annual income, costs and 
expenditures expressed as a percentage of the program's tax base, as 
well as the timing and magnitude of projected shortfalls in the 
program's hypothetical combined trust funds. While this summation is 
useful for envisioning the overall finances of Social Security, it 
should be remembered that the program contains two trust funds, each of 
which must separately maintain a positive balance to permit the full 
payment of benefits. The 2015 report therefore also included Figure 
II.D3, breaking out projections specifically for the weaker DI trust 
fund. If a similar figure for DI is included in the 2016 report, it 
would likely need to have been updated for recent legislation to shore 
up the finances of the DI trust fund.

    Summarizing the Medicare financing outlook is more complex because 
the two Medicare trust funds (HI and SMI) are financed in such 
different ways. Whereas Medicare HI is financed in a manner somewhat 
analogous to Social Security, and is the focus of annually-updated 
projections of trust fund adequacy, Medicare's SMI fund is designed by 
statute to always maintain a positive balance. As a result, financing 
strains within SMI are manifested not in projections of trust fund 
depletion but in rising pressure on the Federal budget. Chart C from 
the trustees' report summary shows how these financial pressures evolve 
with Medicare program cost increases, in addition to showing the 
projected Medicare HI financing shortfall.

    Another important way to understand program finances is in terms of 
the adjustments to cost growth and/or additional revenues required to 
stabilize them. As other language and data in the report summary, the 
public trustee message, and the main report explain, these required 
adjustments become larger if postponed to occur later. Because these 
particular details are also responsive to the following question, they 
will be provided there.

    Question. In your view, is it true, as many have stated, that the 
longer we wait, the harder it will be to address the long-term 
sustainability of both Social Security and Medicare? Can you discuss 
the data in your latest reports to Congress that underscores this 
premise?

    Answer. Yes. The trustees' report summary states this explicitly: 
``Social Security's and Medicare's projected long-range costs are not 
sustainable with currently scheduled financing and will require 
legislative action to avoid disruptive consequences for beneficiaries 
and taxpayers. The sooner that lawmakers take action, the wider will be 
the range of solutions to consider and the more time that will be 
available to phase in changes, giving the public adequate time to 
prepare.''

    The main Social Security trustee report contains additional 
language illustrating the costs of delay with respect to Social 
Security specifically: ``For the combined OASI and DI Trust Funds to 
remain fully solvent throughout the 75-year projection period: (1) 
revenues would have to increase by an amount equivalent to an immediate 
and permanent payroll tax rate increase of 2.62 percentage points (from 
its current level of 12.40 percent to 15.02 percent, a relative 
increase of 21.1 percent); (2) scheduled benefits would have to be 
reduced by an amount equivalent to an immediate and permanent reduction 
of 16.4 percent applied to all current and future beneficiaries, or 
19.6 percent if the reductions were applied only to those who become 
initially eligible for benefits in 2015 or later; or (3) some 
combination of these approaches would have to be adopted. If 
substantial actions are deferred for several years, the changes 
necessary to maintain Social Security solvency would be concentrated on 
fewer years and fewer generations. Much larger changes would be 
necessary if action is deferred until the theoretical combined trust 
fund reserves become depleted in 2034. In order to maintain solvency 
throughout the 75-year projection period and finance scheduled benefits 
fully in every year starting in 2034, it would be necessary to increase 
revenues by an amount equivalent to a payroll tax rate increase of 
about 3.7 percentage points (yielding a total payroll tax rate of about 
16.1 percent) at the point of trust fund reserve depletion, with the 
total rate reaching about 17.4 percent in 2089. Alternatively, solvency 
could be maintained if benefits were reduced to the level that would be 
payable with scheduled tax rates and earnings subject to tax in each 
year beginning in 2034. At the point of theoretical combined trust fund 
reserve depletion in 2034, this would be equivalent to a reduction in 
all scheduled benefits of 21 percent, with reductions reaching 27 
percent in 2089. Of course, there is a continuum of policies combining 
tax increases with benefit reductions that would maintain solvency at 
the point of trust fund depletion. Some strategies for achieving 
solvency would not be feasible if delayed until trust fund reserve 
depletion in 2034. For example, even a temporary 100-percent benefit 
reduction for those newly eligible for benefits in 2034 would not by 
itself make it possible to pay all benefits scheduled for payment in 
that year to those already receiving benefits and to those eligible to 
receive benefits who have delayed the start of their benefit 
payments.''

    Again, with respect to Medicare, the situation is more complex 
because most program financing pressures are manifested not in trust 
fund financing shortfalls but in rising pressure on the larger Federal 
budget. Finding optimal solutions to these challenges extends beyond 
the scope of the trustees' reports and requires value judgments as to 
how to balance Medicare's financing needs against other critical 
national priorities. Nevertheless, the most recent all-trustees' 
message states that ``Medicare still faces a substantial financial 
shortfall that will need to be addressed with further legislation. Such 
legislation should be enacted sooner rather than later to minimize the 
impact on beneficiaries, providers, and taxpayers.''

                                 ______
                                 
               Questions Submitted by Hon. Maria Cantwell
                              chained cpi
    Question. I have consistently opposed replacing the current cost-
of-living adjustment method, known as the Consumer Price Index for 
Urban Wage and Clerical Workers (or CPI-W), with the Chained Consumer 
Price Index (known as Chained-CPI). This change would cut benefits for 
future beneficiaries by an average of 2 percent over the course of 
their retirement, according to a 2013 report by the Center on Budget 
and Policy Priorities. Moreover, for a beneficiary receiving Social 
Security over the course of 30 years the Chained CPI could cut benefits 
even more--up to almost 9 percent, according to the Center for Economic 
and Policy Research.

    The problem is that the Chained CPI assumes that beneficiaries can 
simply choose cheaper alternatives when prices rise. However, it fails 
to acknowledge that many lower-income Social Security beneficiaries 
don't have the financial ability to switch from more expensive 
purchases because most of their income is dedicated to paying for 
necessities such as a medication, housing, a health checkup, or a trip 
to the grocery store for basic nutrition.

    Do you believe that Social Security beneficiaries tend to have less 
ability to react to price-sensitivity than the general population, due 
to their inelastic demand for services like health care and 
transportation?

    Answer. This sounds plausible but is not an issue the trustees 
would have reason to explore in our work, which involves financial 
projections for current schedules rather than examining possible 
rationales underlying potential alternatives. Nor is it an issue I have 
explored in my other research.

    Question. Do you believe that there are differences in the types of 
products and services needed by Social Security beneficiaries compared 
to the general population?

    Answer. Again this sounds plausible but is not an issue the 
trustees would have reason to explore in our work, which involves 
financial projections for current schedules rather than examining 
possible rationales underlying potential alternatives. Nor is it an 
issue I have explored in my other research.

    Question. Do you believe the Chained CPI reflects the realities of 
inflation for many Social Security beneficiaries?

    Answer. Because buying patterns differ between individuals, it is 
virtually certain that many individuals will experience inflation 
differently than can be captured in any single number that quantifies 
price inflation as a national average.

    Question. What is your position on replacing the CPI-W with the 
Chained CPI?

    Answer. The trustees take no position on such issues and focus our 
reports on projections for current benefit and revenue schedules. Nor 
would any personal views that I have on this question enter into my 
work as a trustee. Assuming I am being asked for my personal view, my 
recommendation would be that lawmakers employ the most accurate 
available measure of national average price inflation. While the 
distributional implications of any package of reforms are important and 
should be well understood by lawmakers, benefits cannot be precisely 
targeted through the selection of the price inflation measure used for 
COLA indexing. Accordingly, it would be recommended that distributional 
goals including the protection of the most vulnerable beneficiaries be 
achieved through benefit formula adjustments in the context of a 
financially balanced system, rather than by the choice of a general 
inflation measure. Again, this view would not bear upon our work as 
trustees.
              consumer price index for the elderly (cpi-e)
    Question. Do you believe that the Consumer Price Index for Elderly 
Consumers (CPI-E) would more accurately reflect the costs that Social 
Security beneficiaries face?

    What is your position on replacing the CPI-W with the CPI-E?

    Answer. The trustees take no position on such issues and focus our 
reports on projections for current benefit and revenue schedules. Nor 
would any personal views that I have on this question enter into my 
work as a trustee. Assuming I am being asked for my personal view, I 
would advise caution in departing from the historical practice of 
basing annual adjustments on estimates of national average price 
inflation, with the goal of employing the most accurate available 
measure. As BLS notes, ``the CPI-E population and those receiving 
Social Security benefits are not identical'' because ``many Social 
Security beneficiaries . . . are younger than 62 and receive benefits 
because they are surviving spouses or minor children of covered workers 
or because of disability.'' While on the one hand an experimental 
inflation index designed for the elderly would not be suitable for 
these other groups, providing different COLAs for different beneficiary 
groups could risk creating both real and perceived inequities. Again, 
this issue does not bear upon our work as trustees.
                    privatization of social security
    Question. What is your position on the privatization of Social 
Security?

    Answer. The trustees take no position on such issues and focus our 
reports on projections for current benefit and revenue schedules. Nor 
would any personal views that I have on this question enter into my 
work as a trustee. The term ``privatization'' has been applied to a 
wide range of proposals over several years to alter how Social Security 
contributions are invested, many of which would not involve private 
sector administration. The relevance of such proposals to the current 
policy environment has been largely mooted by the fact that Social 
Security is currently experiencing annual deficits of tax income 
relative to expenditures and thus there are no longer surplus 
contributions being made that could be saved by or on behalf of current 
workers, whether through investment of a portion of the trust fund in 
the stock market as President Clinton proposed, or through publicly-
administered retirement accounts as President George W. Bush proposed. 
Since the emergence of these deficits and since becoming a trustee, I 
have not developed or advocated for such proposals. Again, this issue 
does not bear upon our work as trustees.

    Question. I understand you have previously worked on proposals to 
privatize Social Security. If Social Security had been privatized prior 
to the 2008 stock market collapse and economic recession, what would 
the effect have been on beneficiaries?

    Answer. Per the previous answer, the Bush proposals on which I 
served as staff support involved publicly administered retirement 
accounts rather than privatized ones, and would have been similar to 
those available to Federal employees through the Thrift Savings Plan. 
Specific effects for any particular plan would have depended upon its 
design, schedule and implementation, such that few general conclusions 
can be reached about the many proposals offered by various authors 
prior to 2008. As it happens, the particular proposals of President 
Bush would have been fortuitously timed. The proposed accounts were 
scheduled to begin taking contributions in 2009, an exceptional low 
point in the financial markets. Those already receiving benefits would 
not have been affected by the accounts; those who chose not to 
participate would also not have been affected by them. Those who chose 
to participate in the accounts would have seen their total benefits 
change by only slight amounts to date, due to the small number of years 
they would have contributed. Of these, those who had chosen to invest 
in a stock index fund would generally have seen increases in their 
total benefits, due to the fortuitous timing with which the proposal 
would have been implemented. Again, these would have been fortuitous 
short-term results, and should not be interpreted as determining the 
desirability of the policy as a whole. This issue does not bear upon 
our work as trustees.
                 deficit reduction and social security
    Question. Do you believe cuts to Social Security should be included 
in deficit reduction discussions?

    Answer. The trustees take no position on such issues and focus our 
reports on projections for current benefit and revenue schedules. Nor 
would any personal views that I have on this question enter into my 
work as a trustee. Assuming I am being asked for my personal view, that 
view would be influenced by my knowledge gained as a trustee. The 
trustees have consistently, since long before my own term of service, 
urged that lawmakers move expeditiously to shore up Social Security 
program finances. My view on whether Social Security changes (of any 
kind) should be included in larger deficit reduction discussions would 
thus largely be a function of whether inclusion or exclusion would be 
more likely to lead to the expeditious enactment of the program 
financing corrections for which the trustees have consistently called. 
Again, this view would not bear upon our work as trustees.

    Question. Do you believe that Social Security spending is a driver 
of annual deficits and the national debt?

    Answer. As stated on page 211 of the 2015 Medicare Trustees' 
report, ``For OASDI (Social Security), the difference between revenues 
from the public ($777.0 billion) and total expenditures ($850.3 
billion) was $73.3 billion, indicating that OASDI also had a negative 
effect on the overall budget last year.'' Social Security has 
contributed to annual unified Federal budget deficits since 2010 when 
its outlays began to exceed the annual income it generated from 
revenues from the public. To date the sum total of Social Security tax 
collections has exceeded its expenditures, so Social Security has not 
yet added to total national debt held by the public. This positive net 
fiscal effect is projected to turn negative in the years ahead, when 
Social Security is projected to add to total indebtedness to the public 
as its annual expenditures persistently exceed the revenue it receives 
from the public, as further explained in Appendix F to the Medicare 
trustees' report, ``Medicare and Social Security Trust Funds and the 
Federal Budget.''

    Question. Do you believe that the Social Security Trust Funds 
should be treated separately from general Federal revenue?

    Answer. The trustees take no position on such issues and focus our 
reports on projections for current benefit and revenue schedules. Nor 
would any personal views that I have on this question enter into my 
work as a trustee. My personal answer to this question would depend on 
what is meant. If the question refers to Social Security's optimal 
budget treatment, I have no firm opinion. The question of whether 
Social Security is on-budget or off-budget, as well as whether it is 
financed through a separate trust fund or funds, is unrelated to the 
reality of whether it receives general revenues. As an example, 
consider that Medicare SMI is financed through a separate trust fund, 
but it receives roughly three-quarters of its revenue from the Federal 
Government's general fund. Social Security has also received 
substantial infusions of revenue from the general fund, including over 
$200 billion in the years 2011-12, although less generally than 
Medicare SMI. My own personal view is that much of Social Security's 
financial integrity and popular support are based on perceptions that 
participants have earned their benefits and that the program will be 
self-financing without being subsidized from the general fund. For this 
reason I have expressed concern about past legislation to transfer 
general revenues to Social Security, as well as about the potential 
ramifications of delaying financing corrections to the point where 
Social Security's continued solvency could require substantial ongoing 
subsidy support from the general fund. Again, this view would not bear 
upon our projections as trustees.
                   delivery system reform in medicare
    Question. As you know, the positions for which you have been re-
nominated oversee the Medicare Part A and Part B Trust Funds in 
addition to the Social Security Trust Funds.

    What role does reforming the Medicare delivery system play in 
improving the fiscal sustainability of the Medicare program in the 
coming years?

    Answer. The 2015 joint message from the trustees states: ``For a 
number of years the methodology the Trustees have employed for 
projecting Medicare finances over the long term has assumed a 
substantial reduction in per capita health expenditure growth rates 
relative to historical experience. In addition, the Trustees have been 
revising down their projections for near-term Medicare expenditure 
growth in light of the recent favorable experience, in part due to 
effects of payment changes and delivery system reform that are changing 
how health care is practiced. However, the Trustees have not assumed 
additional, specific cost saving arising from structural changes in the 
delivery system that may result from MACRA's new payment mechanisms and 
the cost-reduction incentives in the Affordable Care Act, as well as 
from payment reforms initiated by the private sector. Notwithstanding 
the assumption of a substantial slowdown of per capita health 
expenditure growth, the projections indicate that Medicare still faces 
a substantial financial shortfall that will need to be addressed with 
further legislation. Such legislation should be enacted sooner rather 
than later to minimize the impact on beneficiaries, providers, and 
taxpayers.''

    I believe this statement captures the joint view of the trustees. 
We are hopeful that delivery system reforms might contribute to a 
beneficial reduction in the rate of health care cost growth. At the 
same time we caution that our projections already assume a certain 
amount of cost growth deceleration irrespective of the cause. Even 
assuming that delivery system reforms contribute to this projected cost 
slowdown, there will still be a substantial Medicare financing 
shortfall that must be addressed.

    Question. As you know, last year's Bipartisan Budget Act 
reallocated funds from the Old-Age and Survivors Insurance Trust Fund 
(OASI) to the Disability Insurance Trust Fund (DI) in order to extend 
the life of the DI Trust Fund and avoid a devastating across-the-board 
cut in benefits. I understand you raised concerns about reallocation in 
a January 15, 2015 article.

    If Congress had not reallocated funding, what policy alternatives 
should it have pursued to avoid across-the-board cuts to beneficiaries?

    Answer. I joined the other trustees in calling for legislation to 
extend the life of the DI trust fund, specifically including the 
provision of additional resources to DI. From our 2015 report summary: 
``The Trustees strongly urge lawmakers to enact legislation promptly to 
achieve sustainable financial balance which, in view of current 
financing needs, would almost certainly need to include at least a 
temporary increase in resources for the DI Trust Fund.''

    This point was also echoed in the 2015 joint message of the public 
trustees, which I co-authored: ``At this late date, it is impracticable 
to reduce DI costs sufficiently to prevent imminent Trust Fund 
depletion (and thus, sudden benefit reductions for highly vulnerable 
individuals) without at least a temporary increase in DI Trust Fund 
resources, irrespective of its source or combination with other 
measures.''

    I supported these recommendations because I did not believe there 
were viable alternatives that would by themselves have spared 
disability recipients from impending sudden and devastating benefit 
cuts. After lawmakers took action, I wrote an explanatory piece about 
the measure in which I described it supportively as ``a slight 
improvement to disability program operations'' and ``a substantial 
improvement over the likely result if legislative action had been 
further postponed.''

    The January 15th article referred to was an analytical and 
historical piece explaining the factors affecting DI finances, the 
historical record with respect to past tax reallocations, and 
statements of previous and current trustees with respect to the need 
for comprehensive financing reforms. It did not endorse a specific 
allocation of taxes between OASI and DI, but rather presented 
historical and recent statements from program trustees to the effect 
that reallocations, if and when they occur, should not be used as a 
means of delaying long-term financing corrections for DI specifically 
or for OASDI as a whole.
                           public confidence
    Question. As you know, the public trustee positions were created to 
``increase public confidence in the integrity of the trust funds.'' How 
do you believe you have increased public confidence in the Social 
Security Trust Funds during your previous appointment?

    Answer. There were several respects in which the Greenspan 
Commission hoped that public trustees would increase public confidence. 
One was to help ``assure that the demographic and economic assumptions 
for the cost estimates of the future operations of the program would 
continue to be developed in an objective manner.'' I believe we have 
achieved this in several ways. One is through careful oversight of the 
trustees' projection process and substantiation that public confidence 
is warranted. We have vouched for the integrity of the process in our 
written and oral statements as trustees, and have extended this ethic 
to the remainder of our professional activities.

    To take but one of several examples, the 2015 public trustee 
statement asserts: ``Not only do the Social Security and Medicare 
programs remain exceptional public policy achievements, but also we 
have found that the Trustees' process itself accords with the highest 
standards of public service. The ex officio Trustees and their capable 
staffs with whom we have worked have invariably approached their 
responsibilities with an attitude of respect for a process that well 
serves lawmakers and the public. The same can be said of the 
independent and tirelessly working Chief Actuaries at the Social 
Security Administration and Centers for Medicare and Medicaid Services 
and their skilled staffs. We have also benefited tremendously from the 
insights of the Social Security and Medicare technical panels that have 
reviewed the assumptions and methodologies underlying the annual 
reports. Although only time will allow us to judge the accuracy of the 
Trustees' long-term projections, it is not too soon for us to vouch for 
the methodological rigor, objectivity, and integrity with which the 
work has been conducted.''

    Of course, it is not enough to simply assert that the trust funds' 
finances are being monitored to the highest standards of integrity and 
professionalism; trustees must ensure that it is so. We have 
substantiated these endorsements through the careful oversight 
conducted in our trustee work year-round.

    It is inevitable that the trustees' methods and projections will be 
subject to outside criticism. This is generally fruitful and can help 
to improve the quality of the work. At the same time, the trustees have 
an important role to play in explaining the work being performed to 
improve the transparency of the projection process, which is also 
central to maintaining public confidence. As but one example, in 2015 I 
wrote that ``transparency is a longstanding concern of the trustees, 
and we expend significant time and effort to increase it. The SSA 
actuary's office now posts a wealth of methodological specifications 
online going a great deal of the way toward enabling others to 
replicate their projection methods. The trustees' report itself 
contains ample sections detailing how projections have been revised 
over the last year in light of updated information. It also contains a 
long-running table showing the history of prior actuarial balance 
estimates. Another table compares actual prior-year operations (both 
income and expenditures) within each separate trust fund, to 
projections in the five previous trustees' reports. And there's much 
more. . . . Considerable discussion occurs each year between the 
trustees' offices about how to best explain deviations from prior 
projections (still more time is likely spent on this for the Medicare 
report, where the methodological issues are more complex). As one 
example of a trustee initiative to expand such information, a footnote 
was recently added to the projection history table, directing readers 
to an online actuarial note breaking down the changes by source.''

    The public trustees have also worked with the other trustees to 
improve public confidence by making the reports more transparent, 
consistent, precise, logically organized, and understandable. As one 
example, we worked to reorder the report summary so that it flowed more 
chronologically and more logically. We have also worked to establish 
greater consistency between the trustees' measure of ``close actuarial 
balance'' and the other metrics employed in the reports. We have worked 
to inject greater precision into the report language, including the 
usage of terms ranging from ``taxable payroll'' to ``current law.'' 
And, although long-term health care cost projections remain subject to 
enormous uncertainty, we have overseen what I believe are improvements 
in the methodological grounding of the projections. This is but a 
shortened list; there are countless other examples.

    The Greenspan commission also hoped that public trustees would 
establish more confidence in the ``investment procedure'' for the trust 
funds. As noted in the 2015 public trustee statement, ``This 
recommendation followed the Commission's finding that the trust fund 
investment procedures were `equitable to both the trust funds and the 
General Fund of the Treasury.' It preceded the Commission 
recommendation on budget procedures to `make clear the effect and 
presence of any payments from the General Fund of the Treasury to the 
Social Security program.' '' As trustees we have worked to make the 
data in the report as explicit as possible with respect to such flows 
of funds.

    Ultimately, of course, public confidence in the trust funds depends 
less on how the trustees comment on the financial projections than on 
their content. Accordingly, public confidence can only be highest when 
the Social Security and Medicare trust funds are on sustainable 
financial footing and there is no near-term threat of benefit 
interruptions as there was in 1981-1983 and more recently in the DI 
trust fund. Though financial integrity requires legislation that the 
trustees do not have the power to enact, the trustees can and should 
provide the information to enable lawmakers to make the necessary 
financing corrections before such confidence-threatening episodes 
occur. I believe that in concert with the other trustees we have 
consistently provided lawmakers with the information required to 
legislate to sustain public confidence in Social Security and Medicare.

                                 ______
                                 
               Questions Submitted by Hon. Sherrod Brown
    Question. The Greenspan Commission, which first proposed creating 
these positions, said the role of a public trustee was to ``create 
confidence in the integrity of the trust funds.'' Do you both feel that 
you increased public confidence in these trust funds during your 
previous tenure? If so, how?

    Answer. I believe that my answer to the previous question also 
applies to this one, so I am copying it here.

    There were several respects in which the Greenspan Commission hoped 
that public trustees would increase public confidence. One was to help 
``assure that the demographic and economic assumptions for the cost 
estimates of the future operations of the program would continue to be 
developed in an objective manner.'' I believe we have achieved this in 
several ways. One is through careful oversight of the trustees' 
projection process and substantiation that public confidence is 
warranted. We have vouched for the integrity of the process in our 
written and oral statements as trustees, and have extended this ethic 
to the remainder of our professional activities.

    To take but one of several examples, the 2015 public trustee 
statement asserts: ``Not only do the Social Security and Medicare 
programs remain exceptional public policy achievements, but also we 
have found that the Trustees' process itself accords with the highest 
standards of public service. The ex officio Trustees and their capable 
staffs with whom we have worked have invariably approached their 
responsibilities with an attitude of respect for a process that well 
serves lawmakers and the public. The same can be said of the 
independent and tirelessly working Chief Actuaries at the Social 
Security Administration and Centers for Medicare and Medicaid Services 
and their skilled staffs. We have also benefited tremendously from the 
insights of the Social Security and Medicare technical panels that have 
reviewed the assumptions and methodologies underlying the annual 
reports. Although only time will allow us to judge the accuracy of the 
Trustees' long-term projections, it is not too soon for us to vouch for 
the methodological rigor, objectivity, and integrity with which the 
work has been conducted.''

    Of course, it is not enough to simply assert that the trust funds' 
finances are being monitored to the highest standards of integrity and 
professionalism; trustees must ensure that it is so. We have 
substantiated these endorsements through the careful oversight 
conducted in our trustee work year-round.

    It is inevitable that the trustees' methods and projections will be 
subject to outside criticism. This is generally fruitful and can help 
to improve the quality of the work. At the same time, the trustees have 
an important role to play in explaining the work being performed to 
improve the transparency of the projection process, which is also 
central to maintaining public confidence. As but one example, in 2015 I 
wrote that ``transparency is a longstanding concern of the trustees, 
and we expend significant time and effort to increase it. The SSA 
actuary's office now posts a wealth of methodological specifications 
online going a great deal of the way toward enabling others to 
replicate their projection methods. The trustees' report itself 
contains ample sections detailing how projections have been revised 
over the last year in light of updated information. It also contains a 
long-running table showing the history of prior actuarial balance 
estimates. Another table compares actual prior-year operations (both 
income and expenditures) within each separate trust fund, to 
projections in the five previous trustees' reports. And there's much 
more. . . . Considerable discussion occurs each year between the 
trustees' offices about how to best explain deviations from prior 
projections (still more time is likely spent on this for the Medicare 
report, where the methodological issues are more complex). As one 
example of a trustee initiative to expand such information, a footnote 
was recently added to the projection history table, directing readers 
to an online actuarial note breaking down the changes by source.''

    The public trustees have also worked with the other trustees to 
improve public confidence by making the reports more transparent, 
consistent, precise, logically organized, and understandable. As one 
example, we worked to reorder the report summary so that it flowed more 
chronologically and more logically. We have also worked to establish 
greater consistency between the trustees' measure of ``close actuarial 
balance'' and the other metrics employed in the reports. We have worked 
to inject greater precision into the report language, including the 
usage of terms ranging from ``taxable payroll'' to ``current law.'' 
And, although long-term health care cost projections remain subject to 
enormous uncertainty, we have overseen what I believe are improvements 
in the methodological grounding of the projections. This is but a 
shortened list; there are countless other examples.

    The Greenspan commission also hoped that public trustees would 
establish more confidence in the ``investment procedure'' for the trust 
funds. As noted in the 2015 public trustee statement, ``This 
recommendation followed the Commission's finding that the trust fund 
investment procedures were `equitable to both the trust funds and the 
General Fund of the Treasury.' It preceded the Commission 
recommendation on budget procedures to `make clear the effect and 
presence of any payments from the General Fund of the Treasury to the 
Social Security program.' '' As trustees we have worked to make the 
data in the report as explicit as possible with respect to such flows 
of funds.

    Ultimately, of course, public confidence in the trust funds depends 
less on how the trustees comment on the financial projections than on 
their content. Accordingly, public confidence can only be highest when 
the Social Security and Medicare trust funds are on sustainable 
financial footing and there is no near-term threat of benefit 
interruptions as there was in 1981-1983 and more recently in the DI 
trust fund. Though financial integrity requires legislation that the 
trustees do not have the power to enact, the trustees can and should 
provide the information to enable lawmakers to make the necessary 
financing corrections before such confidence-threatening episodes 
occur. I believe that in concert with the other trustees we have 
consistently provided lawmakers with the information required to 
legislate to sustain public confidence in Social Security and Medicare.

    Question. Do you believe the trust fund of Social Security 
contributes to the Federal deficit? If yes, why do you feel it should 
not be accounted for separately and apart from the general operating 
fund of the government?

    Answer. With respect to the first question, as stated on page 211 
of the 2015 Medicare trustees' report, ``For OASDI (Social Security), 
the difference between revenues from the public ($777.0 billion) and 
total expenditures ($850.3 billion) was $73.3 billion, indicating that 
OASDI also had a negative effect on the overall budget last year.'' 
Social Security has contributed to annual unified Federal budget 
deficits since 2010 when its outlays began to exceed the annual income 
it generated from revenues from the public. This is further explained 
in Appendix F to the Medicare trustees' report, ``Medicare and Social 
Security Trust Funds and the Federal Budget.''

    On the second question, the trustees take no position on such 
issues and focus our reports on projections for current benefit and 
revenue schedules. Nor would any personal views that I have on this 
question enter into my work as a trustee. Assuming I am being asked for 
my personal view, it is that much of Social Security's financial 
integrity and popular support are based on perceptions that 
participants have earned their benefits and that the program will be 
self-financing without being subsidized from the general fund. For this 
reason I have expressed concern about past legislation to transfer 
general revenues to Social Security, as well as about the potential 
ramifications of delaying financing corrections to the point where 
Social Security's continued solvency could require substantial ongoing 
subsidy support from the general fund. Again, this view would not bear 
upon our projections as trustees.

    Question. Can you outline what experience you have in actuarial 
science that predates your work as a public trustee?

    Answer. Prior to serving as a trustee I researched and wrote 
extensively on Social Security actuarial projections, including a 2007 
presentation to the American Enterprise Institute on the trustees' 
actuarial projection track record, two books on Social Security 
finances, and assorted other articles. I also served as staff 
researching the actuarial projections for various commissions during my 
periods of service in the Senate and at the White House. Like other 
trustees, I am not an actuary by training; the actuarial work for the 
trustees' reports is performed by the Social Security Administration 
Office of the Chief Actuary and the CMS Office of the Actuary.

    Question. Can you walk me through the first couple years of being a 
public trustee? What issues did you have the most trouble getting up to 
speed on? What have you learned since that, if you did it over again, 
you would do differently?

    Answer. Substantively the most difficult issues pertained to the 
methods for projecting health care cost growth, and the complexity of 
translating these projections into expenditure growth estimates in 
various categories of Medicare payments. As I was already up to speed 
on many facets of the economic and demographic assumptions used for 
both reports, my learning curve over the first couple of years probably 
had at least as much to do with process as with substance. If I had it 
do to over again I would probably be more conscious of not allowing 
unresolved issues to drift late into the report production season. 
Because of the sheer volume of material and the intensity of the report 
production process, it is difficult to make significant improvements to 
the reports during the last couple of months before release. 
Significant changes to prior years' methodology, language or 
presentation must often be worked out early in the process or not at 
all. Both time constraints and the sheer number of individuals involved 
are barriers to consensus on improvements. A trustee must often be 
extremely diligent about seeing issues through to conclusion, even when 
there are seemingly several months left in which to work.

    Question. What advice would you give a new public trustee to help 
them better understand the process?

    Answer. I hope it will be acceptable that I combine my answer to 
this question with the following one.

    Question. Is there any institutional knowledge you gained in your 
tenure as a public trustee that you believe is essential to fulfilling 
the job's obligations? What institutional knowledge does a public 
trustee develop that a new trustee with a fresh perspective couldn't 
pick up on immediately?

    Answer. The first piece of advice and institutional knowledge I 
would pass on would be the one with which I closed my answer to 
question 4. A trustee must be extremely diligent about driving issues 
to a conclusion surprisingly early in the annual process; otherwise 
there is a tendency for the clock to run out on changes that ought to 
be made. This may be easy to understand conceptually but only actually 
going through the process affords one with the experience required to 
apply this principle effectively. The experience of being able to work 
effectively within this process is just as important to a trustee as is 
knowledge of the substance. Beyond this it is very important to 
establish a constructive working relationship between the public 
trustees and the ex officio trustees. The ex officio trustees are 
cabinet officials with other enormously important public duties in 
addition to their trustee work. This and the multitude of highly 
technical issues involved require a great deal of the detail work to be 
performed by staff of the executive branch departments. The public 
trustees must work closely with executive branch staff to resolve as 
many of the most in-the-weeds issues as they can. At the same time, the 
public trustees must develop a sense of when disagreements at the staff 
level must be kicked up to the trustees for resolution. (When I say 
this, I do not necessarily mean kicked up to the trustees for a vote; 
in my experience the trustees have operated by consensus even when 
discussing issues trustee to trustee.) Some issues might be profitably 
elevated in this way but many others are best resolved working with the 
staff, and it takes some seasoning to learn the difference. Additional 
institutional knowledge of importance consists of knowing which 
substantive and presentational angles have already been considered at 
length by the trustees' working group. A great amount of time can be 
saved when the trustees do not need to repeat previous processes of 
ironing out technical disagreements; this frees the trustees' working 
group to make progress in other areas where it is more possible. 
Finally, if possible, be paired with an exceptional fellow public 
trustee, as I was. This will be the single greatest determinant of the 
quality of a public trustee's experience.

    Question. Are there any biases or assumptions a person could have 
that you feel would disqualify them from being a public trustee?

    Answer. A key to being an effective trustee--whether public or ex 
officio--is a commitment to following the data where it leads, 
irrespective of one's policy views. A bias that prevents one from 
accepting either unfavorable or favorable information affecting 
financial projections would preclude one from performing the trustees' 
essential functions. I have not witnessed this flaw in any of the 
trustees with which I have worked, nor in the work output from their 
various offices.

                                 ______
                                 
              Prepared Statement of Hon. Orrin G. Hatch, 
                        a U.S. Senator From Utah
WASHINGTON--Senate Finance Committee Chairman Orrin Hatch (R-Utah) 
today delivered the following opening statement at a hearing to 
consider two Social Security and Medicare trustees' nominations:

    I'd like to welcome everyone to today's hearing to consider pending 
nominations. Before us today are Dr. Charles Blahous and Dr. Robert 
Reischauer, who have both been nominated to be members of the Boards of 
Trustees of the trust funds of the Federal Old-Age and Survivors 
Insurance, the Federal Disability Insurance, and the Federal 
Supplemental Medical Insurance programs.

    By statute, these various boards consist of the Secretaries of 
Treasury, Labor, HHS, and the Commissioner of Social Security, along 
with two public trustees. Drs. Blahous and Reischauer have been 
nominated by the President to serve once again as public trustees.

    The public trustee positions were created in the 1983 Social 
Security Amendments, based on a recommendation of the so-called 
Greenspan Commission with a requirement that one be from each political 
party. Since that time, there have been five sets of confirmed public 
trustees, with Drs. Blahous an Reischauer having been the last set to 
have served.

    The trustees have various duties, including a responsibility to 
review general policies relating to the management of the trust funds 
and to report to Congress each year on the operation of the trust funds 
and their current and projected status.

    As the trustees go through the process of developing and releasing 
a report each year, there are many inputs and many participants. For 
example, the Social Security Administration, and its Office of the 
Chief Actuary in particular, plays a key role in developing 
assumptions, analytics, and analyses that often end up shaping the 
information that is provided in the reports.

    In addition, we have had numerous technical panels, composed of 
actuaries, economists, demographers and others, who review the 
assumptions and methods used in the trustees' reports. This is 
something that often goes overlooked.

    Since 1999, 50 people have served on these technical panels, 
weighing in on the Social Security trustee reports and providing both 
fresh objective eyes on the development of the trustees' reports as 
well as a much-needed check on what could otherwise be an outsized role 
of the Social Security Administration in guiding the contents of the 
reports.

    President Obama appears to have confidence that the two nominees 
before us today have fulfilled their duties as public trustees in their 
previous tenure, and to date, I have no reason to disagree.

    In general, I believe that the trustee reports to Congress and the 
American people have been put forward in a nonpartisan fashion, and 
those who have worked on formulating the reports, including 
representatives of the administration and our two nominees today, have 
worked professionally and cooperatively.

    In recent months, some have questioned whether having public 
trustees serve more than one term is beneficial. Others have noted the 
benefits of having continuity in these positions given the many 
intricacies relating to the various Social Security programs and the 
management of the trust funds, not to mention the process through which 
the trustees' reports are compiled and issued.

    Of course, members of the committee, are, as always, free to reach 
their own decisions on this matter.

    Furthermore, I know that we have an election coming in November. 
And, in even-numbered years, some people tend to go to polar extremes 
whenever anyone anywhere mentions Social Security and/or Medicare in a 
sentence.

    There are some who, in any context, but particularly during 
election years, are so unwilling to have a reasonable discussion about 
these programs that they will go out of their way to silence any 
alternative viewpoints and stigmatize anyone who has ever expressed a 
contrary opinion.

    That may make for good politics, but here on the Finance Committee, 
we've always tried to do things a little differently.

    Today, we have before us two highly qualified nominees who were 
confirmed to these very same positions by the full, Democrat-controlled 
Senate in 2010 without any opposition. They have now been resubmitted 
by a Democratic President to a 
Republican-controlled Senate that, so far, appears ready and willing to 
confirm them once again. I think it would be unfortunate if we now 
decided to drag either one of them into the silliness of the political 
campaign season.

    As I indicated earlier, the President has faith in the two nominees 
before us today, and, at this point, I see no compelling reason to 
disagree.

    With that, I want to once again welcome the nominees to the 
committee today and thank them for their willingness to continue 
serving in this important capacity.

                                 ______
                                 
Prepared Statement of Hon. Robert D. Reischauer, Ph.D., Nominated to be 
  a Member of the Board of Trustees of the Federal Hospital Insurance 
     Trust Fund, a Member of the Board of Trustees of the Federal 
 Supplementary Medical Insurance Trust Fund, and a Member of the Board 
 of Trustees of the Federal Old-Age and Survivors Insurance Trust Fund 
            and the Federal Disability Insurance Trust Fund
    Chairman Hatch, Senator Wyden, and members of the committee, I am 
honored to have been re-nominated by President Obama to be one of the 
two public trustees of the Social Security and Medicare trust funds, 
and I thank you for your willingness to evaluate my qualifications for 
these positions.

    Social Security and Medicare are vital elements of the Nation's 
social and economic fabric, providing essential financial support and 
access to medical care for millions of people with disabilities, the 
elderly, and families of deceased workers. Not surprisingly, these 
programs are very popular, representing, as they do, part of an 
intergenerational social compact that binds together those of different 
ages, economic circumstances, and social situations. Social Security 
and Medicare, as two of the Federal Government's largest programs, are 
also important to the Nation's economy and loom large in the Federal 
budget. Given their importance in all these ways, it is critical that 
the financial and operational integrity of Social Security and Medicare 
be unimpeachable. It is also essential that the public retains trust in 
the programs' continuity and has a balanced understanding of the 
challenges ahead.

    Like many older Americans, I have a close personal as well as 
professional relationship with both the Social Security and Medicare 
programs. I receive benefits from both programs and pay payroll taxes 
to their several trust funds and standard and income-related premiums 
for my supplementary medical and prescription drug coverage. With the 
exception of my experience as a victim of Social Security identity 
fraud, I am a very satisfied participant and think my experience as a 
beneficiary has provided me with perspectives that are valuable for my 
professional relationship with the programs.

    Along with Dr. Charles Blahous, I served as a public trustee from 
October 26, 2010 through July 22 of 2015. This was one of the most 
interesting and rewarding assignments I have had in my 46-year 
Washington career. It is also one that has given me confidence that 
Congress can establish and the Federal Government can operate processes 
that work and work well.

    As you know, a primary responsibility of the Boards of Trustees of 
the Social Security and Medicare programs is to report to Congress each 
year on the past and future statuses of the several trust funds. The 
work involved in putting together these annual reports is carried out 
largely by the Working Group, which consists of the two public 
trustees; Assistant Secretary-level representatives of the Secretaries 
of the Treasury, Health and Human Services, and Labor Departments; and 
a Deputy Commissioner-level representative of the Commissioner of 
Social Security. The representatives of the ex officio trustees are 
supported by extremely able professional staffs. In addition, the 
Social Security and Medicare actuaries play critically important roles, 
providing estimates, analyses, methodological guidance, and historical 
perspective during the Working Group's discussions.

    The Working Group meets frequently, especially in the fall and 
early winter. All of the members suggest topics for the agenda. The 
discussion focuses on the current statuses of the trust funds, how and 
why they may differ from what was projected in recent reports, and what 
these difference might imply for future projections. The Working Group 
carefully examines and, if needed, revises the critical demographic, 
economic and programmatic assumptions and data that are required to 
generate projections. It also evaluates possible methodological and 
presentational improvements.

    The process is not a closed one. On occasion, outside experts are 
invited to present their perspectives on issues on which the Working 
Group has not reached consensus. In addition, every four or so years 
the Social Security Advisory Board and the Department of Health and 
Human Services appoint technical panels of leading outside experts to 
review the demographic and economic assumptions and the methodologies 
and the presentation of the Social Security and Medicare trustees' 
reports. The Working Group pays serious attention to the 
recommendations of these panels.

    Early in the year, the Offices of the Actuary generate draft 
reports that reflect the deliberations of the Working Group. The drafts 
are circulated among all of the members of the Working Group and there 
then ensues a comment and revision process that can only be described 
as exhaustive and exhausting. All comments and suggested revisions are 
circulated to and commented on by the entire group.

    Reflecting back on the five report cycles I have participated in, I 
am struck by their quality. The discussion is robust and sophisticated. 
The input from the professional staffs of the several departments, the 
Social Security Administration and the Offices of the Actuaries, not to 
mention the Actuaries themselves, is uniformly excellent. The 
atmosphere is collegial, and the decisions are consensual. The 
deliberations are devoid of partisan or ideological bias, as all seek 
to produce reports that are balanced and objective. In my opinion, the 
Congress and the American people are well served by the existing 
trustee process, and should this committee and the full Senate agree, I 
would be honored to serve another term.

    When I appeared before this committee in July of 2010, I discussed 
aspects of my professional experience that bore on my qualifications to 
carry out the responsibilities of the position of public trustee. I 
will not elaborate on them again but rather provide some summary facts. 
As an economist and policy analyst, I have focused most of my research, 
writing, and speaking on the Federal budget, Social Security, and 
Medicare. I helped Alice Rivlin set up the Congressional Budget Office 
in 1975 and served in several positions, including Deputy Director, 
there until 1981. I was CBO's Director from 1989 to 1995. I am a 
founding member of the National Academy of Social Insurance (NASI) 
which in 2012 bestowed its Robert Ball Award on me. I served for 9 
years as the chair of NASI's Restructuring Medicare for the Long Term 
project. I am a member of the National Academy of Medicine (Institute 
of Medicine) and have served on five Institute committees, the most 
recent of which examined the geographic variation in Medicare and other 
health spending.

    I served for 9 years on the Medicare Payment Advisory Committee, 7 
as Vice Chair, and was a member of the Medicare Competitive Pricing 
Advisory Committee, which was chartered by Congress to explore ways 
competitive bidding might be used to set Medicare payments for private 
plans.

    The various positions, commissions, and boards I have served in and 
on, most importantly my 5 years as a public trustee, have provided me 
with the technical, methodological, and programmatic expertise 
necessary to fulfill the duties and responsibilities of a public 
trustee, and, if confirmed, I will carry them out with the objectivity, 
seriousness, and skill they deserve.

    Thank you.

                                 ______
                                 

                        SENATE FINANCE COMMITTEE

                  STATEMENT OF INFORMATION REQUESTED 
                               OF NOMINEE

                      A. BIOGRAPHICAL INFORMATION

 1.  Name (include any former names used): Robert D. Reischauer.

 2.  Position to which nominated: Member of the Board of Trustees of 
the Federal Old-Age and Survivors Insurance Trust Fund and the Federal 
Disability Insurance Trust Fund; Member of the Board of Trustees of the 
Federal Supplementary Medical Insurance Trust Fund.

 3.  Date of nomination: August 5, 2015.

 4.  Address (list current residence, office, and mailing addresses):

 5.  Date and place of birth: January 18, 1941, Boston, MA.

 6.  Marital status (include maiden name of wife or husband's name):

 7.  Names and ages of children:

 8.  Education (list secondary and higher education institutions, dates 
attended, degree received, and date degree granted):

    Browne and Nichols School (renamed Buckingham Browne and Nichols 
School), 1956-1959, H.S. Diploma June 1959.

    Harvard College, 1959-1963, A.B. June 1963.

    Columbia University, School of International and Public Affairs, 
1963-1965, Masters in International Affairs 1966 (Latin American Area 
Studies Certificate).

    Columbia University, Department of Economics, 1965-1970, Ph.D. 
1971.

 9.  Employment record (list all jobs held since college, including the 
title or description of job, name of employer, location of work, and 
dates of employment):

    The Urban Institute, Distinguished Institute Fellow and President 
Emeritus, March 2012 to present.

    The Urban Institute, President, February 2000 to February 2012.

    The Brookings Institution, Senior Fellow, March 1995 through 
January 2000.

    Congressional Budget Office, Director, March 1989 to March 1995.

    The Brookings Institution, Senior Fellow, February 1986 to March 
1989.

    The Urban Institute, Senior Vice President, February 1981 to 
February 1986.

    Congressional Budget Office, Deputy Director, 1979-1981; Assistant 
Director for Human Resources and Community Development, 1977-1979; 
Special Assistant to the Director, 1975-1977.

    The Brookings Institution, Economic Studies Program, Research 
Associate, September 1970 to February 1975.

    Columbia University, Department of Economics, Preceptor (College 
Department), 1969-1970; Teaching Assistant (Graduate Department), 1968-
1969.

    The RAND Corporation, New York City, RAND Institute, Consultant, 
1968-1969.

    Harvard University, The Center for Studies in Education and 
Development, Consultant on Education and Planning in Central America, 
1965.

10.  Government experience (list any advisory, consultative, honorary, 
or other part-time service or positions with Federal, State, or local 
governments, other than those listed above):

    Public Trustee, Social Security and Medicare Trust Funds, September 
2010 to July 2015.

    Member, Medicare Payment Advisory Commission, May 2000 to May 2009 
(Vice Chair, May 2001 to May 2008).

    Member, Panel of Economic Advisers, Congressional Budget Office, 
1995 to 2007.

    Member, Panel of Health Advisers, Congressional Budget Office, 2007 
to 2013.

    Member, Medicare Competitive Pricing Advisory Committee, 1997 to 
2001.

    Member, Advisory Board, Joint Committee on Taxation, 1995 to 1999.

11.  Business relationships (list all positions held as an officer, 
director, trustee, partner, proprietor, agent, representative, or 
consultant of any corporation, company, firm, partnership, other 
business enterprise, or educational or other institution):

    Fellow of Harvard College (Member of the Corporation), Cambridge, 
MA, 2002 to 2014 (Senior Fellow 2010 to 2014).
          Member, Joint Committee on Inspection, 2002 to 2014 (Chair, 
2008 to 2013); Corporation Committee on Shareholder Responsibility, 
2004 to 2013 (Chair, 2010 to 2014); Finance Committee, 2011 to 2014 
(Chair, 2010 to 2011); Governance Committee 2010 to 2014 (Chair, 2010 
to 2014).

    Board of Overseers, Harvard University, Cambridge, MA, 1996 to 
2002.
          Vice Chair, 2001 to 2002; Executive Committee, 1998 to 2002; 
Standing Committee on Social Sciences, 1996 to 2002 (Chair, 1998 to 
2002); Chair, Special Committee of Higher Education Costs, 1998 to 
2000; Subcommittee on Visitation, 1998 to 2002 (Chair, 1999 to 2002); 
Institutional Policy Committee, 1996 to 2002.

    Trustee, Robert D. Reischauer GST Trust 1990 (1990-present).

    AcademyHealth, Washington, DC, Director, 2002 to 2012; Chair, 
Finance Committee, 2008 to 2012.

    Center on Budget and Policy Priorities, Washington, DC, Director, 
1987 to 1989 and 1995 to present; Member, Finance and Audit Committee, 
1995 to present.

    International Budget Partnership, Pre-Board and Board, 2013 to 
present, Member, Audit and Finance Committee, Washington, DC, 2015 to 
present.

    Manpower Demonstration Research Corporation, New York, NY, 
Director, 1995 to 2000, Chair, 1998 to 2000.

    Mathematica Policy Research, Inc., Princeton, NJ, Director, 1987 to 
1989.

    P/PV (Public Private Ventures), Director, Philadelphia, PA, 1985 to 
1989.

    The Academy of Political Science, New York, NY, Director, 1995 to 
present.

    The Committee for a Responsible Federal Budget, Washington, DC, 
Director, 1995 to present.

    The Japan-America Student Conference, Washington, DC, Director, 
1999 to 2004.

    Member, Association for Public Policy Analysis and Management, 1980 
to 2012, 2015 to present; Vice President, 1984 to 1985.

12.  Memberships (list all memberships and offices held in 
professional, fraternal, scholarly, civic, business, charitable, and 
other organizations):

    Bipartisan Policy Center, Committee on Retirement Security and 
Personal Savings, 2014 to present.

    Advisory Board, The Japan Society of Boston, Inc., 2003 to present.

    Advisory Board, Leonard D. Schaeffer Center for Health Policy and 
Economics, 2011 to present.

    National Institute for Health Care Management, Advisory Board, 1996 
to present.

    Elected Member, Institute of Medicine (renamed the National Academy 
of Medicine in 2015), 1999 to present.

        Member, Committee on the Roles of Academic Health Centers in 
the 21st Century, 2001 to 2003.

        Member, Committee on Redesigning Health Insurance Performance 
Measures, Payment and Performance Improvement Programs, 2004 to 2006; 
Co-Chair, Subcommittee on Pay for Performance, 2005 to 2006.

        Member, Committee on Health Insurance Status and Its 
Consequences, 2008 to 2009.

        Member, Committee on the Future of Nursing, 2009 to 2010.

        Member, Committee on the Variation in Health Care Spending, 
2010 to 2013.

    Elected Member, National Academy of Public Administration, 1980 to 
present.

    Member, Committee on the Fiscal Future of the United States: 
Analysis and Policy Options; a joint project of The National Academies 
and the National Academy of Public Administration, 2008 to 2010.

    Founding Member, National Academy of Social Insurance, 1986 to 
present.

    Chair, National Advisory Committee, The Robert Wood Johnson 
Foundation's Changes in Health Care Financing and Organization (HFCO) 
Initiative, 2000 to 2012.

    Member, Advisory Board, The Health Industry Forum, 2005 to present.

    Member, Advisory Board, RAND Global Pharmaceutical Project, 2006.

    Member, Independent Task Force on Immigration and America's Future, 
2005 to 2006.

    Member, Advisory Council, The Hamilton Project, 2006 to present.

    Member, American Economic Association, 1970 to 2012.

    Member, American Society for Public Administration, 1980 to 
present.

    Chairman, Restructuring Medicare for the Long Term project, 
National Academy of Social Insurance, 1995 to 2004.

    Commission on Behavioral and Social Sciences and Education, 
National Research Council, National Academy of Science, 1996 to 1999.

    Committee for Economic Development, Research Advisory Board, 1996 
to 1999.

    Advisory Committee of the Center for the Study of the States, The 
Nelson A. Rockefeller Institute of Government, 1990 to 1998.

    Practitioner Advisory Board, Graduate Program in Public Affairs and 
Administration, Columbia University, 1979 to 1984.

    Editorial Board, Public Budgeting and Finance, 1980 to present.

    Editorial Board, Health Affairs, 1996 to 2003.

    Editorial Board, Public Administration Review, 1990 to 2002.

    Editorial Advisory Board, Political Science Quarterly, 1973 to 
1995.

    Associate Editor, Journal of International Affairs, 1964 to 1965.

13.  Political affiliations and activities:

   a.  List all public offices for which you have been a candidate.

       None.

   b.  List all memberships and offices held in and services rendered 
to all political parties or election committees during the last 10 
years.

       None.

   c.  Itemize all political contributions to any individual, campaign 
organization, political party, political action committee, or similar 
entity of $50 or more for the past 10 years.

       Donald Berwick for Governor (MA) 2014     $450

       Judy Feder for Congress 2007-2008        $1,500

       Judy Feder for Congress 2005-2006        $1,050

14.  Honors and awards (list all scholarships, fellowships, honorary 
degrees, honorary society memberships, military medals, and any other 
special recognitions for outstanding service or achievement):

    The Harvard Medal for Extraordinary Service to Harvard University, 
Harvard Alumni Association, 2015; Honorary Membership Phi Beta Kappa, 
Alpha Iota (Harvard) Chapter of Massachusetts, 2013; Public Service 
Award, Harvard Club of Washington DC, 2013; National Academy of Social 
Insurance, Robert Ball Award for Outstanding Achievements in Social 
Insurance, 2012; Washington Academy of Sciences' Distinguished Career 
in Science Award, 2009; National Academy of Social Insurance Award for 
Exceptional Contributions to the Field of Social Insurance, 2001; John 
F. Kennedy Fellow to New Zealand, 1999; Fellow, National Association of 
Business Economists, 1996; Morris and Edna Zale Award for Distinction 
in Scholarship and Public Service, Stanford University Public Policy 
Program, 1995; Maxwell Spirit of Public Service Award from the Maxwell 
School of Citizenship and Public Affairs, Syracuse University, 1994; 
National Distinguished Service Award from the American Association for 
Budget and Program Analysts, 1994; Doctor of Laws, Wheaton College, 
Norton, MA 1994; S. Kenneth Howard Award, Section on Budgeting and 
Financial Management of the American Society for Public Administration, 
1993; Brandeis University, Heller School Award for Leadership in Human 
Services, 1989; Ohio State University, School of Public Policy and 
Management Award for Outstanding Public Service, 1989.

15.  Published writings (list the titles, publishers, and dates of all 
books, articles, reports, or other published materials you have 
written):

                              Publications

``The Transformation of Medicare,'' with Henry J. Aaron, in Forum for 
        Health Economics and Policy, De Gruyter Online (November 2015).

``Health Policy Issues and the 2016 Presidential Election,'' with Alice 
        M. Rivlin in Campaign 2016: Eight Big Issues the Presidential 
        Candidates Should Address, Ron Haskins (editor) (Brookings 
        Institution, November 2015).

``The Federal Budget Mutated from a Civil Process into a Political 
        Weapon,'' in America's 21st-Century Challenge (The Fiscal 
        Times, February 2, 2015).

``The War Isn't Over,'' with Henry J. Aaron, The New England Journal of 
        Medicine, vol. 362, no. 14 (April 8, 2010).

``Toward a 21st-Century Health Care System: Recommendations for Health 
        Care Reform,'' with Kenneth Arrow et al., Annals of Internal 
        Medicine, vol. 150, no. 7 (April 7, 2009).

``Collective Accountability for Medical Care--Toward Bundled Medicare 
        Payments,'' with Glenn Hackbarth, J.D. and Anne Mutti, M.P.A., 
        The New England Journal of Medicine, vol. 359, no. 1 (July 3, 
        2008).

``Benefits with Risks--Bush's Tax-Based Health Care Proposals,'' The 
        New England Journal of Medicine, vol. 356, no. 14 (April 5, 
        2007).

``The Institute of Medicine Committee's Clarion Call for Universal 
        Coverage,'' with Joseph P. Newhouse, Health Affairs web 
        exclusive (March 2004).

``Medicare Policy,'' panelist with Nancy-Ann DeParle and Mark McClellan 
        on ``Medicare'' by Joseph P. Newhouse, in Jeffrey A. Frankel 
        and Peter R. Orszag, eds., American Economic Policy in the 
        1990s (MIT Press, 2002).

``Greek Fiscal and Budget Policy and EMU,'' with Vassilios G. 
        Manessiotis, in Ralph C. Bryant, Nicholas C. Garganas, and 
        George S. Tavlas, eds., Greece's Economic Performance and 
        Prospects, Bank of Greece/Brookings Institution (Bank of Greece 
        Printing Works, 2001).

Countdown to Reform: The Great Social Security Debate (Revised and 
        Updated for 2001), with Henry J. Aaron (The Century Foundation 
        /Brookings, 2001).

``Good Policy vs. Good Politics: The Hazards of Designing a Medicare 
        Prescription Drug Benefit,'' with Michael E. Gluck, The Milken 
        Institute Review, vol. 2, no. 4 (Fourth Quarter, 2000).

``Who Really Wants Price Competition in Medicare Managed Care?'', with 
        Len M. Nichols, Health Affairs, vol. 19, no. 5 (September/
        October 2000).

Vouchers and the Provision of Public Services, editor with C. Eugene 
        Steuerle, Van Doorn Ooms, and George Peterson (Washington, DC: 
        Brookings Institution Press/Committee for Economic Development/
        Urban Institute Press, 2000).

      ``Me dicare Vouchers,'' in C. Eugene Steuerle, Van Doorn Ooms, 
George Peterson, and Robert D. Reischauer, eds., Vouchers and the 
Provision of Public Services (Brookings Institution Press/Committee for 
Economic Development/Urban Institute Press, 2000).

``Bridging Past and Present: Choice and Social Insurance,'' in Sheila 
        Burke, Eric Kingson, and Uwe Reinhardt, eds., Social Security 
        and Medicare: Individual vs. Collective Risk and Responsibility 
        (National Academy of Social Insurance/Brookings Institution 
        Press, 2000).

Setting National Priorities: The 2000 Election and Beyond, editor with 
        Henry J. Aaron (Washington, DC: Brookings Institution Press, 
        1999).

      ``Th e Dawning of a New Era,'' in Henry J. Aaron and Robert D. 
Reischauer, eds., Setting National Priorities: The 2000 Election and 
Beyond (Brookings Institution Press, 1999).

      ``Pa ying for an Elderly Population,'' with Henry J. Aaron, in 
Henry J. Aaron and Robert D. Reischauer, eds., Setting National 
Priorities: The 2000 Election and Beyond (Brookings Institution Press, 
1999).

``Evaluating the President's Framework for the Surplus,'' Tax Notes, 
        vol. 82, no. 11 (March 15, 1999).

Medicare: Preparing for the Challenges of the 21st Century, with Stuart 
        Butler and Judith R. Lave, eds. (National Academy of Social 
        Insurance/Brookings Institution Press, 1998).

Countdown to Reform: The Great Social Security Debate, with Henry J. 
        Aaron (The Century Foundation/Brookings, 1998).

``The Gradual Erosion of Employment-Based Benefits,'' Do Employers/
        Employees Still Need Employee Benefits? (Employee Benefit 
        Research Institute, 1998).

``Light at the End of the Tunnel or Another Illusion? The 1997 Budget 
        Deal,'' National Tax Journal, vol. LI, no. 1 (March 1998).

``Medicare: Beyond 2002,'' in Policy Options for Reforming the Medicare 
        Program: Papers From the Princeton Conference on Medicare 
        Reform, Institute for Health Policy, Brandeis University (July 
        1997).

``Medicare Beyond 2002: Preparing for the Baby Boomers,'' Brookings 
        Review (Summer 1997).

``The Federal Line-Item Veto: What Is It and What Will It Do?'', with 
        Philip G. Joyce, Public Administration Review, vol. 57, no. 2, 
        (March/April 1997).

Setting National Priorities: Budget Choices for the Next Century, 
        editor (Brookings Institution Press, 1996).

      ``Th e Budget: Crucible for the Policy Agenda,'' in Robert D. 
Reischauer, ed., Setting National Priorities: Budget Choices for the 
Next Century (Brookings Institution Press, 1996).

      ``Th e Unfulfillable Promise: Cutting Nondefense Discretionary 
Spending,'' in Robert D. Reischauer, ed., Setting National Priorities: 
Budget Choices for the Next Century (Brookings Institution Press, 
1996).

Reducing the Deficit: Past Efforts and Future Challenges, The Frank M. 
        Engle Lecture, The American College, Bryn Mawr, PA (1996).

``The Medicare Reform Debate: What is the Next Step?'', with Henry J. 
        Aaron, Health Affairs, vol. 14, no. 4 (Winter 1995).

``Estimating the Effects of Reform,'' with Linda T. Bilheimer, in Henry 
        J. Aaron, ed., The Problems That Won't Go Away: Reforming U.S. 
        Health Care Financing (Brookings Institution, 1995); also 
        ``Confessions of the Estimators: Numbers and Health Reform,'' 
        with Linda T. Bilheimer, Health Affairs, vol. 14, no. 1 (Spring 
        1995).

``Budget Policy Under United Government: A Case Study,'' in James L. 
        Sundquist, ed., Back to Gridlock? Governance in the Clinton 
        Years (Brookings Institution, 1995).

``Pressures for Change: The Future Roles of Markets and Governments--An 
        American Perspective,'' in Roger Benjamin, C. Richard Neu, and 
        Denise Quigley, eds., Balancing State Intervention: The Limits 
        of Transatlantic Markets (St. Martin's Press, 1995).

``Medicare: What to Do?'', The Brookings Review, (Summer 1995).

``Congressional Budget Office (CBO),'' Encyclopedia of the American 
        Presidency, vol. 1 (Simon and Schuster, 1994).

``Deficit Budgeting: The Federal Budget Process and Budget Reform,'' 
        with Philip G. Joyce, Harvard Journal on Legislation (Summer 
        1992).

``Fiscal Policy and the Economy,'' in Marvin H. Kosters, ed., Personal 
        Saving, Consumption, and Tax Policy (American Enterprise 
        Institute for Public Policy Research, 1992).

``Paying to Restore the Bank Insurance Fund,'' in Deloitte and Touche, 
        Soaring FDIC Premiums: Overcoming the Drag on Bank Earnings 
        (Deloitte and Touche, 1991).

``Taxes and Spending Under Gramm-Rudman-Hollings,'' National Tax 
        Journal, vol. 43, no. 3 (September 1990).

``Social Policy Formulation in the 1990s,'' Compensation and Benefits 
        Management, vol. 6, no. 3 (Spring 1990).

``The Rise and Fall of National Urban Policy: The Fiscal Dimension,'' 
        in Marshall Kaplan and Franklin James, eds., The Future of 
        National Urban Policy (Duke University Press 1990).

``Working Within the Realities,'' in Harriett D. Romo, ed., Latinos and 
        Blacks in the Cities: Policies for the 1990s, a volume in the 
        Symposia Series of the LBJ Library and the LBJ School of Public 
        Affairs (University of Texas, 1990).

``The Welfare Reform Legislation: Directions for the Future,'' in David 
        Ellwood and Phoebe H. Cottingham, eds., Welfare Reform: What We 
        Know and What We Don't (Harvard University Press, 1989).

``HELP: A Student Loan Program for the 21st Century,'' in Lawrence 
        Gladieux, ed., New Approaches to Student Loans (The College 
        Board, 1989).

``Immigration and the Underclass,'' The Annals of the American Academy 
        of Political and Social Science (January 1989).

``Peddling Backward Into the Next Century,'' in Democratic Governance: 
        America in the 21st Century, The Donald S. MacNaughton 
        Symposium, Proceedings 1989, November 8-9, 1989 (Syracuse 
        University, 1990).

``Thinking Systematically About the Budget Deficit Decision Facing the 
        Next President,'' in The Federal Deficit: Where Do We Go from 
        Here?, The Donald S. MacNaughton Symposium, Proceedings 1988, 
        November 10-11, 1988 (Syracuse University, 1989).

``America's Underclass,'' Public Welfare, vol. 45, no. 4 (Fall 1987).

``Welfare Reform: Will Consensus Be Enough?'', The Brookings Review 
        (Summer 1987).

``Welfare Reform and the Working Poor,'' in Center for National Policy, 
        Work and Welfare: The Case for New Directions in National 
        Policy (Center for National Policy, March 1987).

``Fiscal Federalism in the 1980s: Dismantling or Rationalizing the 
        Great Society,'' in Marshall Kaplan and Peggy Cuciti, eds., The 
        Great Society and Its Legacy (Duke University Press, 1986).

``Why the Reagan Revolution Failed: A Review Essay,'' review of The 
        Triumph of Politics by David Stockman, in Political Science 
        Quarterly, vol. 101, no. 4 (1986).

``The Prospects for Welfare Reform,'' Public Welfare, vol. 44, no. 4 
        (Fall 1986).

``The Congressional Budget Process,'' in Gregory B. Mills and John L. 
        Palmer, eds., Federal Budget Policy in the 1980s (Urban 
        Institute Press, 1984).

``Getting, Using, and Misusing Economic Information,'' in Allen Schick, 
        ed., Making Economic Policy in Congress (American Enterprise 
        Institute for Public Policy Research, 1983).

``Putting Reconciliation in Perspective,'' in Reconciliation: The New 
        Public Process, compendium of a symposium convened by the 
        Committee for a Responsible Federal Budget and The Garfield 
        Foundation, The Woodrow Wilson School of Public Affairs, 
        Princeton University, Princeton, NJ, June 11-13, 1982 (1982).

``Social Welfare Policies in the United States,'' in Christain 
        Stoffaes, ed., The Political Economy of the United States 
        (North-Holland Publishing Company, 1982). This article was also 
        published in an abridged form as The Impact of Social Welfare 
        Policies in the United States, Report No. 823 (The Conference 
        Board, 1982).

``The Federal Budget: Subsidies for the Rich,'' in Michael J. Boskin 
        and Aaron Wildavsky, eds., The Federal Budget: Economics and 
        Politics (Institute for Contemporary Studies, 1982).

``Central City Issues,'' in The Impact of Demographic Changes on Social 
        Programs, a study prepared for the use of the Joint Economic 
        Committee, Congress of the United States (May 7, 1982).

``The National Economy and the Cities,'' in Roy Bahl, ed., Urban 
        Government Finance: Emerging Issues (Sage Publications, Inc., 
        1981).

``Federal Budget Reveals Political, Economic Costs of Housing 
        Assistance,'' Journal of Housing, vol. 38, no. 3 (March 1981).

``Intergovernmental Responsibility for Meeting the Equity 
        Considerations of Proposition 13: The Federal Role,'' in Selma 
        Mushkin, ed., Proposition 13 and Its Consequences for Public 
        Management, The Council for Applied Social Research, Abt Books 
        (1979).

``Federal Countercyclical Policy: The State and Local Role,'' in 
        Proceedings, National Tax Association, Tax Institute of 
        America, Philadelphia, Pa., November 12-16, 1978 (1979).

Proposition 13: Its Impact on the Nation's Economy, Federal Revenues, 
        and Federal Expenditures, with Peggy Cuciti (Congressional 
        Budget Office, July 1978).

``The Economy, the Federal Budget, and the Prospects for Urban Aid,'' 
        in Roy Bahl, ed., The Fiscal Outlook for Cities: Implications 
        of a National Urban Policy (Syracuse University Press, 1978).

Budget Options for Fiscal Year 1977: A Report to the Senate and House 
        Committees on the Budget (CBO Annual Report), with CBO staff 
        (Congressional Budget Office, February 1977).

``Government Diversity: Bane of the Grants Strategy,'' in Wallace E. 
        Oates, ed., The Political Economy of Fiscal Federalism 
        (Lexington, MA.: Lexington Books, 1976).

``The Federal Government's Role in Relieving Cities of the Fiscal 
        Burdens of Low Income Concentration,'' National Tax Journal, 
        vol. 29, no. 3 (September 1976).

``General Revenue Sharing: The Program's Incentives,'' in Wallace E. 
        Oates, ed., Financing the New Federalism: Revenue Sharing, 
        Conditional Grants, and Taxation (Resources for the Future, 
        1975).

``The End of the Rainbow: The Future Prospects for Federal Aid to 
        Elementary and Secondary Education,'' in K. Forbis Jordan and 
        Kern Alexander, eds., Futures in School Finance: Working 
        Towards a Common Goal (Institute for Educational Finance, 
        1975).

New York City's Fiscal Problem: Its Origins, Potential Repercussions, 
        and Some Alternative Policy Responses, with Peter Clark and 
        Peggy Cuciti (Congressional Budget Office, October 1975).

``The Effect of Reform in School Finance on the Level and Distribution 
        of Tax Burdens,'' with Robert Hartman, in John Pincus, ed., 
        School Finance in Transition: The Courts and Educational Reform 
        (Ballinger, 1974).

``In Defense of the Property Tax: The Case Against an Increased 
        Reliance on Local Non-Property Tax,'' in Proceedings of the 
        Sixty-Seventh Annual Conference, National Tax Association, Tax 
        Institute of America (1974).

Reforming School Finance, with Robert Hartman (Brookings Institution, 
        1973).

``Should We Discard the Property Tax as a Means of Financing Elementary 
        and Secondary Education?'', in Revenue Administration, 1973, 
        Proceedings of the 41st Annual Conference, National Association 
        of Tax Administrators, Atlantic City, NJ, June 10-14, 1973 
        (Federation of Tax Administrators, 1974).

``General Revenue Sharing'' and ``Grants for Social Programs,'' in 
        Charles Schultze, Edward R. Fried, Alice M. Rivlin, and Nancy 
        H. Teeters, Setting National Priorities: The 1973 Budget 
        (Brookings Institution, 1973).

``Fiscal Problems in Cities'' and ``Financing Elementary and Secondary 
        Education,'' with Robert Hartman in Charles Schultze, Edward R. 
        Fried, Alice M. Rivlin, and Nancy H. Teeters, Setting National 
        Priorities: The 1973 Budget (Brookings Institution, 1973).

``General Revenue Sharing,'' with Allen Manvel, and ``Special Revenue 
        Sharing,'' in Charles Schultze, with Edward K. Hamilton and 
        Allen Schick, Setting National Priorities: The 1972 Budget 
        (Brookings Institution, 1971).

Modernization of the Arab World, ed., with Jack H. Thompson (D. Van 
        Nostrand, 1967).

Book Reviews and Op-Ed Articles

``What Works in the Deficit Reform Proposals,'' Topic A, The Washington 
        Post, 
        November 28, 2010.

``Do We Need Another Stimulus?'', Topic A, The Washington Post, July 
        12, 2009.

``The End of Bipartisanship for Obama's Big Initiatives,'' Topic A, The 
        Washington Post, March 22, 2009.

``Managing for Results,'' The Washington Times, August 9, 2005.

``When More Means Less,'' The New York Times, July 16, 2003.

``Don't Count on That Tax Cut,'' The New York Times, June 7, 2001.

``Stop Them Before They Overspend Again,'' The New York Times, February 
        8, 2001.

``Bye-Bye, Surplus,'' The Washington Post, December 5, 2000.

``The Phantom Surplus,'' The New York Times, January 28, 2000.

``Where to Next for Trade?,'' Sunday Star-Times, August 15, 1999 
        (Aukland, New Zealand).

``Scrap the Budget Caps,'' The Washington Post, June 9, 1999.

``The 75-Year Plan,'' The New York Times, April 9, 1999.

``To the Market,'' with Henry J. Aaron, The Washington Post, February 
        23, 1999.

``The Future of Social Security: Tune It Up, Don't Trade It In,'' with 
        Henry J. Aaron, The Washington Post, Outlook, April 19, 1998.

``The Misguided Max Tax,'' The New York Times, with William G. Gale, 
        February 23, 1998.

``Medicare for the Almost-Old,'' The Washington Post, January 12, 1998.

``Those Surpluses: Proceed with Caution,'' The Washington Post, 
        September 21, 1997.

``Two Years That Make a Big Difference,'' The New York Times, July 13, 
        1997.

``Midnight Follies,'' The Washington Post, June 22, 1997.

``What Medicare Reform?'' The New York Times, May 8, 1997.

``Is This Budget for Real?: Five Key Numbers to Look for, a Citizen's 
        Guide,'' The Washington Post, February 6, 1997.

``Budgets in Wonderland,'' The Washington Post, October 10, 1996.

``How to Restrain Costs,'' The Miami Herald, October 4, 1996.

``Higher Tuition, More Grade Inflation,'' with Lawrence E. Gladieux, 
        The Washington Post, September 4, 1996.

``Line Item Veto: Little Beef and Mostly Bun,'' The Washington Post, 
        April 10, 1996.

``Time for the GOP to Declare Victory,'' The Washington Post, January 
        25, 1996.

``The Blockbuster Inside the Republicans' Budget: In the Rush to Fiscal 
        Devolution, Has Anyone Figured Out How to Divvy Up the Cash?'', 
        The Washington Post, May 14, 1995.

``Vote Just Prolongs Deficit Agony,'' Newsday, March 22, 1995.

``The Bizarre War on `STARS,' '' The New York Times, October 17, 1988.

``Bite the Deficit Gap, Not Social Security,'' with Henry J. Aaron, The 
        Washington Post, December 16, 1987.

``Showdown at Deficit Gap: And the Stakes Are Higher This Time 
        Around,'' The Washington Post, August 4, 1987.

``Welfare Reform: Consensus for Work Still Leaves Questions,'' The San 
        Diego Union, August 2, 1987.

``The Working Poor Deserve a Better Break,'' Los Angeles Times, April 
        5, 1987.

Review of How Real Is the Federal Deficit? by Robert Eisner, in Public 
        Budgeting and Finance, vol. 6, no. 4 (Winter 1986).

``Tax Reform: The Nitty Gritty: It Can Help the Poor Even More,'' The 
        Washington Post, Outlook, June 1, 1986.

Review of Who Pays State and Local Taxes, by Donald Phares, Journal of 
        Economic Literature, vol. 20, no. 2 (June 1982).

Review of Taxing and Spending Policy, Warren J. Samuels and Larry L. 
        Wade, eds., in The Government Financial Management Resources in 
        Review, vol. 3, no. 6 (September 1981).

Review of Urban Economic Development: Suburbanization, Minority 
        Opportunity, and the Condition of the Central City, by Bennett 
        Harrison, in Political Science Quarterly, vol. 90, no. 1 
        (Spring 1975).

``What Kind of Program,'' a review of The Education of Black Folk, by 
        Allan B. Balland, in Growth and Change, vol. 5, no. 3 (July 
        1974).

``How to Increase Revenue Sharing Payments by Changing Tax Policies,'' 
        Revenue Sharing Bulletin, vol. 3, no. 5 (March 1973).

``Which Rationing System?: No Easy, Popular Answers,'' Washington Star 
        News, May 11, 1972.

``Revenue Sharing: Matching the Money and the Needs,'' The Washington 
        Post, May 11, 1972.

Review of The Morning After by Victor Franco, in Journal of 
        International Affairs, vol. 18, no. 1 (1964).

16.  Speeches (list all formal speeches you have delivered during the 
past 5 years which are on topics relevant to the position for which you 
have been nominated):

    I give dozens of formal and informal talks a year. I do not keep a 
list of these talks and in most cases use handwritten notes which I 
discard after the presentations.

17.  Qualifications (state what, in your opinion, qualifies you to 
serve in the position to which you have been nominated):

    I have served in this position for the past 5 years.

    For several decades, I have studied, written and spoken about, and 
been consulted by policy makers, the media and experts about the 
challenges facing the Social Security and Medicare programs and the 
ways to address these problems. I served for 9 years on the Medicare 
Payment Advisory Commission. During 7 of those years, I was the Vice 
Chair of the Commission. I am a founding member of the National Academy 
of Social Insurance. From 1995 through 2004, I chaired the Academy's 
``Restructuring Medicare for the Long Term'' panel and was an ex 
officio member of many of that panel's study groups. I have been a 
member of several IOM committees related to Medicare. I am the 
coauthor, with Henry Aaron, of a book on Social Security reform. I was 
a participant in President Clinton's White House conference on Social 
Security and was the sole outside expert invited by the Democrats 
(Professor Marty Feldstein being the expert invited by the Republicans) 
to participate in the final conference discussion which was the closed 
Blair House session with the President and the Congressional 
leadership.

                   B. FUTURE EMPLOYMENT RELATIONSHIPS

 1.  Will you sever all connections with your present employers, 
business firms, associations, or organizations if you are confirmed by 
the Senate? If not, provide details.

     No. The position is not a full-time government appointment.

 2.  Do you have any plans, commitments, or agreements to pursue 
outside employment, with or without compensation, during your service 
with the government? If so, provide details.

     Yes. I intend to keep all of my current employment and other 
commitments, none of which constitute a conflict of interest. I will 
not enter into any future arrangements that may be considered as 
presenting a conflict of interest.

 3.  Has any person or entity made a commitment or agreement to employ 
your services in any capacity after you leave government service? If 
so, provide details.

     No.

 4.  If you are confirmed by the Senate, do you expect to serve out 
your full term or until the next Presidential election, whichever is 
applicable? If not, explain.

     Yes.

                   C. POTENTIAL CONFLICTS OF INTEREST

 1.  Indicate any investments, obligations, liabilities, or other 
relationships which could involve potential conflicts of interest in 
the position to which you have been nominated.

     None.

 2.  Describe any business relationship, dealing or financial 
transaction which you have had during the last 10 years, whether for 
yourself, on behalf of a client, or acting as an agent, that could in 
any way constitute or result in a possible conflict of interest in the 
position to which you have been nominated.

     In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Social Security 
Administration's designated agency ethics official to identify 
potential conflicts of interest. Any potential conflicts of interest 
will be resolved in accordance with the terms of an ethics agreement 
that I have entered into with the Department's designated agency ethics 
official and that has been provided to this committee. I am not aware 
of any other potential conflicts of interest.

 3.  Describe any activity during the past 10 years in which you have 
engaged for the purpose of directly or indirectly influencing the 
passage, defeat, or modification of any legislation or affecting the 
administration and execution of law or public policy. Activities 
performed as an employee of the Federal Government need not be listed.

     In connection with the nomination process, I have consulted with 
the Office of Government Ethics and the Social Security 
Administration's designated agency ethics official to identify 
potential conflicts of interest. Any potential conflicts of interest 
will be resolved in accordance with the terms of an ethics agreement 
that I have entered into with the Department's designated agency ethics 
official and that has been provided to this committee. I am not aware 
of any other potential conflicts of interest.

 4.  Explain how you will resolve any potential conflict of interest, 
including any that may be disclosed by your responses to the above 
items. (Provide the committee with two copies of any trust or other 
agreements.)

     See answer to question #4 of Section F (Financial Data) which 
relates to a trust agreement involving a Generation Skipping Trust 
established by the estate of my late parents. It involves no actual or 
potential conflict of interest.

 5.  Two copies of written opinions should be provided directly to the 
Committee by the designated agency ethics officer of the agency to 
which you have been nominated and by the Office of Government Ethics 
concerning potential conflicts of interest or any legal impediments to 
your serving in this position.

     Not applicable.

                       D. LEGAL AND OTHER MATTERS

 1.  Have you ever been the subject of a complaint or been 
investigated, disciplined, or otherwise cited for a breach of ethics 
for unprofessional conduct before any court, administrative agency, 
professional association, disciplinary committee, or other professional 
group? If so, provide details.

     No.

 2.  Have you ever been investigated, arrested, charged, or held by any 
Federal, State, or other law enforcement authority for a violation of 
any Federal, State, county or municipal law, regulation, or ordinance, 
other than a minor traffic offense? If so, provide details.

     No.

 3.  Have you ever been involved as a party in interest in any 
administrative agency proceeding or civil litigation? If so, provide 
details.

     Yes. In 2004 a young woman fell and cut herself when she caught 
her bicycle handlebar on the passenger-side mirror of my car while 
trying to squeeze between my car and the curb where there was no lane. 
Three years later she sued me. My auto insurance company (Erie) settled 
the case, paying her lawyer's (a relative) expenses, which I was told 
were under $100.

 4.  Have you ever been convicted (including pleas of guilty or nolo 
contendere) of any criminal violation other than a minor traffic 
offense? If so, provide details.

     No.

 5.  Please advise the committee of any additional information; 
favorable or unfavorable, which you feel should be considered in 
connection with your nomination.

     None.

                     E. TESTIFYING BEFORE CONGRESS

 1.  If you are confirmed by the Senate, are you willing to appear and 
testify before any duly constituted committee of the Congress on such 
occasions as you may be reasonably requested to do so?

     Yes.

 2.  If you are confirmed by the Senate, are you willing to provide 
such information as is requested by such committees?

     Yes.

                                 ______
                                 
    Questions Submitted for the Record to Hon. Robert D. Reischauer
               Questions Submitted by Hon. Orrin G. Hatch
    Question. It is the chairman's view that if a public trustee, based 
on his or her knowledge of Social Security and Medicare, becomes aware 
of possible policy decisions that would significantly weaken the 
finances of either program, he or she bears a responsibility to make 
this information available. Do you agree with this?

    Answer. If what is meant by ``possible policy decisions that would 
significantly weaken the finances of either program'' is probable 
actions that would significantly weaken program finances and do not 
require prior Congressional approval, I think the appropriate first 
step would be to bring the issue to the attention of the full Board of 
Trustees in the hope that it would speak to the issue. Following the 
decision, I think the trustees have a responsibility to make 
information on its fiscal impact available.

    Question. In your 5 years of service as a trustee, has any member 
of Congress or their staffs ever expressed concern to you as to the 
credibility of the contents of the trustees' report?

    Answer. No.

    Question. In your 5 years of service as a trustee, has any member 
of Congress or their staffs ever expressed the view that the trustees' 
report development was conducted in any inappropriate way?

    Answer. No.

    Question. In your 5 years of service as a trustee, has any member 
of Congress or their staffs ever expressed concerns about the propriety 
of your past writing or continued writing about public policy issues 
during your term?

    Answer. No. During the period of my service as a public trustee, no 
concerns of this sort were ever raised to me by any members or their 
staffs.

    Question. Have you ever, while serving as a trustee, represented 
your own personal policy views as being those of the other trustees?

    Answer. No.

    Question. Have there ever, over the 5 years of your service as a 
public trustee, been any parts of the trustees' reports that do not 
reflect the consensus findings of all six trustees, including not only 
the two public trustees but also the secretaries of Treasury, HHS, and 
Labor, as well as the Social Security Commissioner?

    Answer. No. The reports are in every sense consensus documents.

    Question. Have you ever, while serving as a trustee, sought to 
modify the contents of the trustees' report without the agreement of 
the other trustees?

    Answer. No.

    Question. Are any individual trustees able to modify the content of 
the trustees' reports without the review and approval of all of the 
other trustees?

    Answer. No.

    Question. Is there any part of the trustees' reports that is not 
reviewed and approved by all six of the trustees and/or staff working 
on behalf of the trustees?

    Answer. No.

    Question. In your 5 years of service as a trustee, has any member 
of Congress or their staffs ever contacted you to express concerns 
about the quality, accuracy, tone, or truthfulness of your own 
individual writing on issues surrounding Social Security or Medicare?

    Answer. No.

    Question. Have you used your position as a trustee to promote 
policies that would weaken the finances of Social Security or Medicare?

    Answer. No.

    Question. The Social Security Act specifies, with respect to public 
trustees, that both may not be from the same political party. From what 
I have seen, in past trustee reports during your term of service, there 
were not any dissenting or minority statements on the report from you 
or your counterpart public trustee. From your perspectives, has there 
been a tradition of working by consensus in the process of producing 
trustee reports and, if so, do you believe that the tradition has been 
upheld during your term of service?

    Answer. Neither I nor Dr. Blahous has filed a dissenting or 
minority statement relating to any of the five reports whose 
development we have contributed to. During our years of service, there 
has been a strong practice of developing consensus around the content 
of the reports, a tradition that I have been told has existed for many 
years.

    Question. In a May 13, 2016 report in the popular press, it was 
written that ``Democrats point to several instances in the trustees' 
reports'' that were released after your counterpart public trustee 
joined the board that ``they say suggest the Social Security Trust fund 
is less solvent than it really is.'' Of course, if that is true, then 
during your tenure as public trustee, there have been several instances 
in which you, your counterpart public trustee, the Secretary of the 
Treasury, the Secretary of the Department of Labor, the Secretary of 
Health and Human Services, and the Commissioner of Social Security, 
along with the Chief Actuary of the Social Security Administration, 
signed on to trustee reports that suggested that the Social Security 
trust funds are less solvent than they really are. Do you agree that 
there have been several instances in which trustee reports--reports 
that you and your colleagues signed on to--which have suggested that 
the Social Security Trust funds are less solvent than they really are?

    Answer. I do not agree. I think the trustees' reports that I have 
been associated with provide the Congress and the public with an 
accurate picture of the solvency of the Social Security trust funds. 
That said, there is unavoidable uncertainty in the projections, but the 
reports provide adequate analysis of the impact of that uncertainty on 
the trust funds' solvency.

    Question. Many in Congress, including me, desire to have 
information on how Social Security and Medicare, and their trust funds, 
interact with the rest of the Federal budget. Of course, we have mixed 
the general fund with Social Security's trust funds, as with payroll 
tax holidays used for stimulus. According to the Office of Management 
and Budget (OMB), ``whether a particular fund is designated in law as a 
trust fund is, in many cases, arbitrary.'' Given all of that, in what 
sense is a Federal trust fund any different than any other account in 
the Federal budget or from a Federal revolving fund or even the general 
fund? And, are there any interrelationships between the general fund of 
the Federal Government and both the Old-Age and Survivors Insurance 
trust fund and Disability Insurance trust fund, or do trust fund 
accounts have no interrelationship with the overall federal budget?

    Answer. As GAO has explained ``Federal trust funds represent an 
accounting mechanism used to link earmarked receipts with the 
expenditures of those receipts.'' An account is designated a trust fund 
when a law both earmarks receipts to a program and identifies the 
specific account as a ``trust fund account.'' In 2014, a tiny fraction 
(0.1 percent) of the combined income of the OASDI trust funds 
represented reimbursements from the General Fund of the Treasury. 
Transfers from the General Fund were much larger a few years ago when 
the trust funds were being reimbursed for the foregone payroll tax 
revenues associated with the stimulus program. The Old-Age and 
Survivors Insurance trust fund and Disability Insurance trust fund are 
part and parcel of the Unified Federal Budget.

                                 ______
                                 
                 Questions Submitted by Hon. Ron Wyden
    Question. My understanding is your terms as public trustees ended 
on July 22, 2015 and you have not been involved in the discussions or 
production of the 2016 trustees' reports. Is that correct?

    Answer. Yes.

    Question. Assuming that the answer to the above question is 
``yes,'' I assume that if either of you were to be confirmed by the 
full Senate before the 2016 trustees' reports are released to the 
public, that you will not sign those reports or participate in the 
press conference discussing the 2016 reports, is that correct?

    Answer. Having not participated in the deliberations of the Working 
Group, the review of the recommendations of the 2015 Technical Panel on 
Assumptions and Methods, or the comment and revision process of the 
draft report, I agree with your assumptions.

                                 ______
                                 
                 Questions Submitted by Hon. John Thune
    Question. Each year the Board of Trustees produces reports on the 
financial status of Social Security and Medicare. We know the public 
reads about the parts of the reports--things like the year in which the 
trust funds will be depleted--that make the headlines. What other data 
points in your analysis do you believe to be the most important for the 
Congress and the public to be aware of that fully demonstrate the 
financial status of both Medicare and Social Security?

    Answer. Besides the dates of trust fund depletion, the data that I 
think most forcefully bring home in an easily understood fashion the 
challenges facing the Social Security and Medicare programs are:

    (a) The size of the payable benefit reductions that would be 
required at the points of depletion of the several trust funds. These 
estimates are illustrated most starkly for OASI and DI in Figure II.D.2 
and Figure II.D.3 of the 2015 Social Security report and for HI in 
Figure II.E.2 of the Medicare report.
    (b) The sizes of the immediate tax increases required to sustain 
promised benefits. These estimates can be found on pages 5 and 6 of the 
OASDI report and page 30 of the Medicare report.
    (c) The projected growth in SMI expenditures and the impact of that 
this growth will have on beneficiaries in the form of higher premiums 
and out of pocket costs and on taxpayers in the form of the increased 
demands on general revenues. Discussions of these points can be found 
on pages 36-39 of the Medicare report.

    Question. In your view, is it true, as many have stated, that the 
longer we wait, the harder it will be to address the long-term 
sustainability of both Social Security and Medicare? Can you discuss 
the data in your latest reports to Congress that underscores this 
premise?

    Answer. In my opinion, the most compelling illustration of this 
point is found on pages 24-26 of the 2015 Social Security report and in 
``A message from the Public Trustees'' in the booklet Status of the 
Social Security and Medicare Programs: A Summary of the 2015 Annual 
Reports where we wrote:

    ``Continued inaction going forward to the point where the combined 
trust funds near depletion would--unlike the situation in 1983--likely 
preclude any plausible opportunity to maintain Social Security's 
historical financing structure.

    ``To appreciate these dangers, consider that under the Trustees' 
current projections, annual Social Security costs will be more than 25 
percent higher than income by 2034. There is no historical precedent 
for closing annual gaps of this size within the space of just a few 
years. As the Trustees' Report notes, even the total elimination of 
Social Security benefits for those newly eligible in 2034 would be 
insufficient to restore short-term financial balance. Similarly, a 
payroll tax increase of the magnitude needed to maintain scheduled 
benefits would have a profound adverse impact on the economy and 
employment. Thus, while legislative action is not yet necessary to 
prevent imminent reductions in Old-Age and Survivors Insurance (OASI) 
benefits (the immediate threat being confined to disability benefits), 
prompt action is needed to prevent Social Security's aggregate 
financial shortfall from growing to an intractable size.''

                                 ______
                                 
               Questions Submitted by Hon. Maria Cantwell
                              chained cpi
    Question. I have consistently opposed replacing the current cost-
of-living adjustment method, known as the Consumer Price Index for 
Urban Wage and Clerical Workers (or CPI-W), with the Chained Consumer 
Price Index (known as Chained-CPI). This change would cut benefits for 
future beneficiaries by an average of 2 percent over the course of 
their retirement, according to a 2013 report by the Center on Budget 
and Policy Priorities. Moreover, for a beneficiary receiving Social 
Security over the course of 30 years the Chained CPI could cut benefits 
even more--up to almost 9 percent, according to the Center for Economic 
and Policy Research.

    The problem is that the Chained CPI assumes that beneficiaries can 
simply choose cheaper alternatives when prices rise. However, it fails 
to acknowledge that many lower-income Social Security beneficiaries 
don't have the financial ability to switch from more expensive 
purchases because most of their income is dedicated to paying for 
necessities such as a medication, housing, a health checkup, or a trip 
to the grocery store for basic nutrition.

    Do you believe that Social Security beneficiaries tend to have less 
ability to react to price-sensitivity than the general population, due 
to their inelastic demand for services like health care and 
transportation?

    Answer. In my role as a trustee, there was never a discussion of 
this issue, nor would I expect there to be one in the future. As an 
analyst, my reading of the literature leads me to believe this is the 
case. In addition to the inelastic demand for some services mentioned 
in the question, the elderly and disabled tend to be less mobile and 
therefore less able to seek out outlets where prices might be lower.

    Question. Do you believe that there are differences in the types of 
products and services needed by Social Security beneficiaries compared 
to the general population?

    Answer. In my role as a trustee, there was never a discussion of 
this issue, nor would I expect there to be one in the future. As an 
analyst, my reading of the literature leads me to believe that the 
consumption patterns of the elderly and the disabled are different from 
those of the rest of the population. For example, the elderly and 
disabled spend a higher fraction of their incomes on medical care and 
housing and a lower fraction on transportation, food, education and 
apparel.

    Question. Do you believe the Chained CPI reflects the realities of 
inflation for many Social Security beneficiaries?

    Answer. In my role as a trustee, there was never a discussion of 
this issue, nor would I expect there to be one in the future. As an 
analyst, my reading of the literature leads me to believe that all of 
the measures of inflation we produce have deficiencies and, therefore, 
there are likely to be many Social Security beneficiaries for whom the 
Chained CPI would not represent a more accurate measure of the price 
increases they face.

    Question. What is your position on replacing the CPI-W with the 
Chained CPI?

    Answer. In my role as a trustee, there was never a discussion of 
this issue, nor would I expect there to be one in the future. As an 
analyst who has participated in discussions related to strengthening 
the financial position of Social Security, I have not thought it 
constructive to opine on the merits of single policies that might 
improve the program's financial situation or the adequacy of its 
benefits. Putting Social Security on a sustainable path for the long 
run is going to require a number of changes and, therefore, one should 
evaluate the desirability of an entire package of policies rather than 
a single element of a package in isolation. In doing so my primary 
concern would be that the entire package of measures needed to ensure 
the long-run viability of the program does not hurt and preferably 
helps those most vulnerable and dependent on the program.
              consumer price index for the elderly (cpi-e)
    Question. Do you believe that the Consumer Price Index for Elderly 
Consumers (CPI-E) would more accurately reflect the costs that Social 
Security beneficiaries face?

    Answer. This is not an issue that would ever come before the 
trustees. As an analyst, I would expect that this would be the case for 
many elderly beneficiaries but do not know whether this would be true 
for younger Survivors and Disability Insurance beneficiaries.

    Question. What is your position on replacing the CPI-W with the 
CPI-E?

    Answer. This is not an issue that would ever come before the 
trustees. As an analyst, my answer to this question would be the same 
as the answer I provided to the question of replacing the CPI-W with 
the Chained CPI.
                    privatization of social security
    Question. What is your position on the privatization of Social 
Security?

    Answer. This is not an issue that would ever come before the 
trustees. As an analyst, I have always been a strong supporter of 
social insurance and the current structure of the Social Security 
program and have not seen any advantage to considering privatization.
                 deficit reduction and social security
    Question. Do you believe cuts to Social Security should be included 
in deficit reduction discussions?

    Answer. This is not an issue which the trustees would discuss or 
have a position on. As an analyst who has been involved with the budget 
process for four decades, I am pragmatic on this issue. If a package of 
policies that addresses the long-term sustainability of the Social 
Security program could be agreed to as a stand-alone reform, I'd 
support that approach. If such a reform has to be a component of a 
larger effort to address the challenge posed by a growing unified 
budget deficit, I would support that approach. That said, I think a 
good case can be made for the second approach, because policymakers 
should want to coordinate any changes made to Social Security with 
those considered for Medicare, SSI, and other programs affecting the 
elderly and disabled.

    Question. Do you believe that Social Security spending is a driver 
of annual deficits and the national debt?

    Answer. Under current budget conventions, the difference between 
program revenues (mostly payroll tax receipts) and program 
expenditures, if negative, adds to the unified budget deficit and, if 
positive, reduces the unified budget deficit. The growing gap between 
the program's non-interest income and its expenditures means that 
Social Security will continue to contribute to projected increases in 
the annual deficit.

    Cumulated since the program's inception, Social Security's revenues 
have exceeded its expenditures. The resultant surpluses have, by law, 
been invested in securities of the Federal Government. This has reduced 
the extent to which the Federal Government has had to issue debt to the 
public and thereby reduced the debt held by the public.

    Question. Do you believe that the Social Security trust funds 
should be treated separately from general Federal revenue?

    Answer. This is not an issue which the trustees would discuss or 
express an opinion on. As a citizen and an analyst, I think the current 
treatment of the trust funds and general revenues is appropriate and 
has a number of advantages.
                   delivery system reform in medicare
    Question. As you know, the positions for which you have been re-
nominated oversee the Medicare Part A and Part B trust funds in 
addition to the Social Security trust funds.

    What role does reforming the Medicare delivery system play in 
improving the fiscal sustainability of the Medicare program in the 
coming years?

    Answer. In recent years, significant legislation has been enacted 
designed to reform not just the Medicare delivery system but also the 
Nation's health delivery system more broadly. The trustees have done 
their best to estimate the extent to which these reforms may improve 
Medicare's fiscal situation. They have also discussed the uncertainty 
surrounding their estimates and have suggested that further reforms of 
the delivery system may be needed.
                           public confidence
    Question. As you know, the public trustee positions were created to 
``increase public confidence in the integrity of the trust funds.'' How 
do you believe you have increased public confidence in the Social 
Security trust funds during your previous appointment?

    Answer. I think that I have helped to increase public confidence in 
the integrity of the trust funds by working hard to ensure that the 
reports are objective, thorough, understandable and of the highest 
technical quality. I also attended almost all of the Social Security 
and Medicare Technical Panel meetings where I interacted with many of 
the most influential opinion leaders in the world of social insurance. 
I have been willing to talk openly and honestly to stakeholders, 
policymakers, staff, media and the public who have had questions about 
the content of the trustees reports or the process by which they are 
generated. During my terms as Director of CBO, I developed a reputation 
for being a straight talker, and the fact that I have repeatedly stated 
that I think the current trustee process meets the highest standards of 
integrity, I believe has helped strengthen confidence. That said, I 
think the increased confidence the American people have in the 
integrity of the system stems largely not from the contribution of this 
or that trustee but rather from the willingness of trustees as a group 
to provide the public with the facts no matter how troubling they might 
be.

                                 ______
                                 
               Questions Submitted by Hon. Sherrod Brown
    Question. The Greenspan Commission, which first proposed creating 
these positions, said the role of a public trustee was to ``create 
confidence in the integrity of the trust funds.'' Do you both feel that 
you increased public confidence in these trust funds during your 
previous tenure? If so, how?

    Answer. I think that I have helped to increase public confidence in 
the integrity of the trust funds by working hard to ensure that the 
reports are objective, thorough, and of the highest technical quality. 
I also attended almost all of the Social Security and Medicare 
Technical Panel meetings where I interacted with many of the most 
influential opinion leaders in the world of social insurance. I have 
been willing to talk openly and honestly to stakeholders, policymakers, 
staff, media and the public who have had questions about the content of 
the trustees' reports or the process by which they were generated. 
During my terms as Director of CBO, I developed a reputation for being 
a straight talker, and the fact that I have repeatedly stated that I 
think the current trustee process meets the highest standards of 
integrity, I believe has helped strengthen confidence. That said, I 
think the increased confidence the American people have in the 
integrity of the system stems largely not from the contribution of this 
or that trustee but rather from the willingness of trustees as a group 
to provide the public with the facts no matter how troubling they might 
be.

    Question. Do you believe the trust fund of Social Security 
contributes to the Federal deficit? If yes, why do you feel it should 
not be accounted for separately and apart from the general operating 
fund of the government?

    Answer. Under current budget conventions, the difference between 
program revenues (mostly payroll tax receipts) and program expenditures 
(mostly benefit payments), if negative, contributes to the unified 
budget deficit. The growing gap between the program's non-interest 
income and its expenditures means that Social Security will continue to 
contribute to projected increases in the annual deficit.

    The trustees as trustees do not discuss or have a position on the 
structure of the budget nor appropriate budgetary treatment of various 
program accounts. As someone who supports the general principles put 
forward in the 1967 Report of the President's Commission on Budget 
Concepts, I am also a supporter of the ``Off-Budget'' 
status accorded to the program, which I think helps to strengthen its 
fiscal integrity as a self-financed social insurance program.

    Question. Can you outline what experience you have in actuarial 
science that predates your work as a public trustee?

    Answer. I have no formal training in actuarial science. As an 
economist, however, I have engaged in activities that are similar to 
the work of actuaries, including building models that use demographic 
and economic micro data to project the future benefits and costs of 
public programs. Much of my work at the Congressional Budget Office, 
the Brookings Institution, and the Urban Institute was similar to my 
responsibilities as a public trustee.

    Question. Can you walk me through the first couple years of being a 
public trustee? What issues did you have the most trouble getting up to 
speed on? What have you learned since that, if you did it over again, 
you would do differently?

    Answer. Having served on MedPAC for 9 years, been the director of 
CBO for 7 years, co-authored a book on Social Security, and been 
involved doing analysis of both programs, I considered myself something 
of an expert when I was first appointed. But I was surprised by the 
level of technical detail involved in the Working Group deliberations 
and the complex interactions that exist in both programs. Had I to do 
it over again, I would have asked to sit down for at least a day with a 
small group in each of the actuary's offices to walk me through the 
problematic issues that arose in preparing the previous several 
reports. There is also the unpredictability of the process. While 
detailed schedules are prepared to pace the process, they inevitably go 
awry. New legislation is enacted, new regulations are promulgated, 
court decisions are handed down, or model development is delayed. The 
block of time set aside for reviewing and commenting on report drafts, 
which may be the better part of a month, suddenly is pushed out 3 or so 
weeks to a time one had moved commitments that couldn't be planned 
during the time set aside in the original schedule. Each year, one 
thinks the disruptions just experienced won't be repeated the following 
year. They won't be, but others will pop up. The lesson is that one 
should block off a much more extended period of time for the process.

    Question. What advice would you give a new public trustee to help 
them better understand the process?

    Answer. I would suggest that any new public trustee meet separately 
with the outgoing public trustees, the actuaries, and several of the 
former Assistant 
Secretary-level representatives of the ex officio trustees to discuss 
the Working Group process and the manner in which the reports are 
drafted, reviewed, and commented on.

    Question. Is there any institutional knowledge you gained in your 
tenure as a public trustee that you believe is essential to fulfilling 
the job's obligations? What institutional knowledge does a public 
trustee develop that a new trustee with a fresh perspective couldn't 
pick up on immediately?

    Answer. The answer to Question 4 above is also relevant to this 
question. A new trustee has to learn the cycle for producing the 
reports. There are windows of opportunity for raising certain types of 
issues that a month or two later might be closed. Much of this has to 
do with the time the actuaries need to make changes to their models or 
insert new data and the order in which such changes must be made. There 
is also the fact that many issues have been discussed in the past. Some 
have been resolved; others are still open. With new public trustees, 
the discussion has to start anew; with continuing trustees, the 
discussion can build on a foundation. It is also important that the 
public trustees develop an ability to work well together. Coordinating 
their requests for supplementary information and trying to work out a 
common approach to an issue not only makes them more effective but also 
reduces the already heavy workload of the staff of the Working Group. I 
count myself as extremely fortunate to have as a fellow public trustee 
someone who is collegial, smart, productive, tough, and extremely 
knowledgeable. Since the process of developing the reports is a 
consensual one, new public trustees have to develop constructive 
relationships with the actuaries, the representatives of the ex officio 
trustees, and many of the key supporting staffs. This takes time, 
especially for those who may not have worked in Washington on these 
issues or interacted with these individuals before.

    Question. Are there any biases or assumptions a person could have 
that you feel would disqualify them from being a public trustee?

    Answer. A public trustee should be open-minded and objective with 
respect to new and existing methodologies, analysis, and data sources. 
The individual should be a supporter of the concept of social insurance 
and the basic structures of the Social Security and Medicare programs.

                                 ______
                                 
                 Prepared Statement of Hon. Ron Wyden, 
                       a U.S. Senator From Oregon
    This afternoon, the Finance Committee will discuss the re-
nominations of the public trustees for the Medicare and Social Security 
trust funds. That sounds like a real mouthful, but for me, this issue 
goes back to my time leading the Gray Panthers when the Medicare 
guarantee and the promise of Social Security were sacrosanct.

    Today, millions of single, elderly women have to walk an economic 
tightrope each month, balancing the cost of food, health care, and 
covering the rest of the bills. These women count on Social Security to 
keep their heads above water. Medicare in 2016 is very different than 
the Medicare of 1965. Seniors living on extremely limited means are 
forced to contend with higher drug prices and chronic conditions such 
as cancer, diabetes, and heart disease that are often tougher and more 
expensive to treat. Our job is to protect these sacrosanct priorities 
and update these programs for unique times.

    That's why business as usual, for a set of positions that are not 
household names, is not acceptable to me. And, by the way, this is not 
such a wild idea. The Finance Committee has a 30-year tradition of not 
reappointing anyone to these positions.

    Every year, a big report comes out that looks into the future of 
Medicare and Social Security, and the public trustees play an important 
part in that process. It's a tough job that means looking into the 
future for what vulnerable and older Americans will need decades down 
the road. In my view, it's pretty clear that task requires constantly 
fresh perspectives for advisory roles like these positions.

    What undergirds these positions is not just charts and facts and 
figures, as important as they are. It's about values, and that's why 
it's so important to get this right.

    I'll be listening carefully to what colleagues and the nominees 
have to say about these concerns. Thank you to our nominees for joining 
us today.

                                   [all]
                                   
                                   

</pre></body></html>
